<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND
                 HOUSING  AND  URBAN  DEVELOPMENT,  AND
                  INDEPENDENT AGENCIES APPROPRIATIONS
                                FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES

                    JERRY LEWIS, California, Chairman

TOM DeLAY, Texas                     LOUIS STOKES, Ohio
JAMES T. WALSH, New York             ALAN B. MOLLOHAN, West Virginia
DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
MARK W. NEUMANN, Wisconsin           
ROGER F. WICKER, Mississippi         

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  Frank M. Cushing, Paul E. Thomson, Timothy L. Peterson, and  Valerie 
                      L. Baldwin, Staff Assistants
                                ________

                                 PART 7

                     ENVIRONMENTAL PROTECTION AGENCY

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-508                      WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          












                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director
















DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
             INDEPENDENT AGENCIES, APPROPRIATIONS FOR 1999

                              ----------                              

                                           Tuesday, March 10, 1998.

                  U.S. ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

CAROL M. BROWNER, ADMINISTRATOR
FRED HANSEN, DEPUTY ADMINISTRATOR
SALLYANNE HARPER, ACTING CHIEF FINANCIAL OFFICER

                       Chairman's Opening Remarks

    Mr. Lewis. Good morning, ladies and gentlemen.
    This is the first of a two-day set of hearings on the 
fiscal year 1998 budget request of the Environmental Protection 
Agency. EPA's spending request totals $7,795,275,000; an 
increase of just over $435 million above the 1998 level.
    The Agency's actual request for new appropriation total 
some $7.14 billion, as their 1999 request includes an 
additional $650 million for Superfund, which was appropriated 
in the fiscal year 1998 bill, but does not become available for 
obligation until fiscal year 1999.
    I would add that in this regard, consistent with an 
agreement reached with between the committee and the Office of 
Management and Budget, these additional funds will not become 
available in 1999, unless the Superfund Program is reauthorized 
on or before May 15, 1998; just around the corner.
    Testifying on behalf of EPA this morning will, again, be 
its very able Administrator, Carol M. Browner. Ms. Browner, we 
would like to welcome you back to what is, I believe, your 
sixth appearance before this subcommittee.
    In that regard, I would like to note for the record that 
Ms. Browner has now served as Administrator for EPA longer than 
any other individual in over the 25-year history of the Agency. 
Such longevity which belies her appearance at any federal 
Agency, let alone at one as complicated and, at times, 
controversial as EPA, certainly speaks volumes about Ms. 
Browner's commitment to environmental concerns and her 
commitment to her country, as well as her capability.
    Before calling on the Administrator, it is my pleasure to 
call upon my colleague and friend, Louis Stokes.

                     Opening Remarks by Mr. Stokes

    Mr. Stokes. Thank you very much, Mr. Chairman.
    Madam Administrator, I would like to join our Chairman in 
welcoming you and all of your colleagues here this morning. The 
work of your Agency is of critical importance to this nation.
    It is always a pleasure to consider your work and your 
budget. Your goals of clean air, clean and safe water, safe 
food, preventing pollution, reducing risk in communities, as 
well as ensuring environmental justice are some of the most 
important programs of our government.
    I am particularly interested in hearing about the progress 
that the Agency is making in the Superfund clean-up, 
brownfields, and the revolving funds exist for drinking water 
and clean water programs.
    I look forward to your presentation. It is always a 
pleasure to welcome you before our subcommittee.
    Thank you, Mr. Chairman.
    Mr. Lewis. At the initial stages, I am going to take a 
little different tact. If my colleagues will bear with me, I 
may take a little longer than normal in my introductory 
questioning, but I think it is important.
    Please introduce the two people who are with you.
    Ms. Browner. Thank you for everything.
    Mr. Lewis. Members come and go, but the rest of us will be 
here forever.
    Ms. Browner. We have Fred Hansen our Deputy Administrator 
and Sallyanne Harper our Acting Chief Financial Officer whom we 
hope to have confirmed at any moment now.
    Mr. Chairman, also joining me, as we have done in years 
past, are the Assistant Administrators for each of our program 
areas. In addition we have the Associate Administrator for the 
Office of Reinvention, the head of our Children's Office, and 
Mike McCabe representing our regional offices.
    Mike is the Regional Administrator for Region Three. I 
think many of you know Joe Crapa, who has joined us as 
Associate Administrator for Congressional and Intergovernmental 
Relations.

                              PM Research

    Mr. Lewis. Mr. Stokes, I appreciate your patience from 
time-to-time. So, I am appreciating that at this moment. I 
first want to begin by publicly thanking Administrator Browner, 
and Deputy Administrator Fred Hansen, Acting Assistant 
Administrator Henry Longest, and all other people on both sides 
and outside of the government who had a hand in developing and 
implementing a very important issue facing us.
    That is the Particulate Matter Research Program included in 
the 1998 bill. Shortly after passage of the legislation, EPA 
negotiated and signed a contract, ahead of our requested 
schedule, with the National Academy of Sciences to develop a 
consensus near term Particulate Matter Research Plan.
    The NAS is well-underway with this project. In fact, I 
received word just last Friday that the NAS Committee on 
Research Priorities for Airborne Particulate Matter had 
unanimously approved its Draft Report No. 1, and sent it to the 
Academy's Report Review Committee and 12 peer reviewers.
    Based on this announcement, they fully expected to submit 
their final draft on schedule around the end of March or early 
April. The process would then require EPA to integrate the NAS 
Plan with their original PM Research as proposed and adopted in 
the fiscal year 1998 bill.
    I am aware that EPA has been actively involved in providing 
all necessary materials and assistance to the NAS. It is my 
understanding that you stand prepared to integrate the NAS Plan 
and push appropriate research funds out the door as quickly as 
is practical, once you receive those NAS documents.
    As I have stated several times over the past few months, 
our purpose in developing this legislative effort was, and does 
not in any way diminish or contradict the fine PM-related 
research already being conducted by EPA's board staff.
    Rather, we sought to provide the tools and resources to add 
to that research effort so that we could assure that the 
complete science possible was conducted prior to the 
development and implementation of any new PM regulatory scheme.
    Such new regulatory requirements imposed on our states and 
local governments will undoubtedly pose significant financial 
concerns. I believe it is our responsibility to base those 
regulatory actions on the best and most complete science 
possible.
    We obviously have a long way to go before this effort will 
bear fruit. There are numerous issues, including the timing of 
the next required PM review that may need to be discussed at a 
later date.
    For now, however, I want to thank all of those people 
involved with this very important effort, particularly you, Ms. 
Browner, and your Deputy Administrator, Mr. Hansen. I 
particularly look forward to our continued work together to see 
this process through to its successful completion.
    Ms. Browner. Mr. Chairman, if I might just also recognize 
the work of Frank Cushing in making this happen. This really is 
a testament to how the two branches of government can work 
together. He was invaluable in working with us and we really 
appreciate that.
    Mr. Lewis. I appreciate that. I wanted to make those 
introductory comments and lay that foundation as we turn to the 
Administrator. I know that you have an opening statement.
    As you know, we would prefer that you have that statement 
included in its entirety in the record. From there, if you 
would bring to us your priority concerns, in whatever form you 
would like, it is now my pleasure to recognize Ms. Browner.

                Administrator Browner's Opening Remarks

    Ms. Browner. Thank you, Mr. Chairman and Members of this 
subcommittee for this opportunity to appear before you today. I 
would ask that my statement in its entirety be inserted in the 
record.
    Very briefly, I would like to call to this subcommittee's 
attention the budget priorities included in the President's 
1999 budget request for the Environmental Protection Agency.
    Before doing that, I would like to note for this 
subcommittee it is with this budget, for the first time ever, 
that we actually present the budget based on a set of goals. I 
think much of the discussion we will have today will be based 
on the way we have presented the budget previously.
    We present it two ways this year; one based on goals and 
one based on traditional program allotments and undertakings. 
We are very committed to the work, looking at the goals, and 
the commitments we make to the American people in terms of 
protecting their environment, their health, and growing the 
economy.
    For the first time ever, we present our budget in keeping 
with a set of goals. First and foremost in this budget is 
global warming. As the President has said many times, global 
warming is a critical challenge. It is, perhaps, the most 
serious environmental public health threat we face as a nation.
    This budget reflects the President's determination that 
America will lead the world in meeting the challenge of global 
warming by reducing the pollutants that cause global warming 
and climate change. In doing, so we will continue to grow the 
economy.
    New data shows that 1997 was the hottest year ever 
recorded. Nine of the hottest years on record have occurred 
since 1987. The vast majority of the world's scientists have 
warned us that we need to tackle the problem.
    If we fail to address this problem, we will leave a legacy 
of climate change and environmental damage that will greatly 
burden future generations. Included in this budget is an 
increase for EPA in keeping with the President's commitment 
across the government.
    This request is part of a $6 billion program in tax 
incentives, research, and development that the President has 
proposed to encourage innovative technologies aimed at reducing 
greenhouse gases.
    This budget also includes a new Clean Water program 
designed to help us continue the job of cleaning up the 
pollution in our rivers, lakes, and coastal waters. Several 
weeks ago, the President announced the Clean Water Action Plan 
designed to address today's greatest threats to our nation's 
waters coast-to-coast, including pollutant run-off from urban 
areas, farms, loss of wetlands, and the restoration of our 
waterways.
    Mr. Chairman, I know this has been a question in years 
past. What is the cooperation between federal agencies on 
issues such as this? This plan demonstrates the very strong 
commitment to working across department and agency lines. We 
will be happy to provide details on that.
    Secretary Glickman, joining the President as I did in 
announcing this plan, pointed out that he may very well have 
been the first Secretary of Agriculture to ever appear at a 
Clean Water Act event and to commit Departmental resources.
    Most of the budget increase that EPA seeks for this program 
would be passed on to the states to allow them to address the 
pollutant run-off challenges that they face. This budget also 
includes an $8 million increase to address the unique 
vulnerabilities of children to environmental threats.
    We are working there with the Department of HHS to 
establish six research centers for children's environmental 
health. The final area that I would point to is Superfund, the 
clean-up of toxic waste.
    I know there will be many questions about this, 
particularly the $650 million advanced appropriation. What I 
would like to say in summary is that this budget is designed to 
have us complete 900 clean-ups by the end of 2001. We are more 
than happy to provide all of the details.
    I'd also like to address the issue that you raised, Mr. 
Chairman, about the fine particles. Included in this budget 
request are the lion's share of the dollars necessary to 
continue the research effort and purchase, install, and turn on 
the fine particle monitors without a state cost share, as we 
committed to do last year.
    There are other important areas of the budget which we will 
be more than happy to address in the course of this hearing. In 
summary, I would say that this is a budget for a cleaner, 
safer, healthier environment for our children and their 
children to come.
    It builds on our past successes. It builds on our efforts 
to change how we do this job to find the common sense cost 
effective solutions. We are pleased to be here today.
    Thank you.
    [The statement of Ms. Browner follows:]


[Pages 6 - 9--The official Committee record contains additional material here.]



                   ig letter: ten management problems

    Mr. Lewis. Thank you very much, Ms. Browner.
    On December 15, 1997, the House Majority Leader wrote a 
letter to the EPA Inspector General asking that the IG identify 
the ten most serious management problems confronting the 
Agency.
    The Inspector General responded to this request. In their 
letter to the Majority Leader, the IG noted that, and I quote, 
``If the areas of concern are not addressed in a timely manner, 
they could impact on the Agency's ability to accomplish its 
mission.''
    While some of these ten are certainly less important than 
others, all ten represent serious management control weaknesses 
which serve to undermine the Agency's credibility; particularly 
as it relates to our faith that you are spending the taxpayers' 
money wisely and efficiently.
    As reported by the IG, these are the ten most serious areas 
of concern. There are problems with reliability of data that 
make it difficult, if not impossible, for EPA's managers to 
assess progress in carrying out its environmental mission. That 
is number one.
    Number two, enforcement actions have been implemented 
inconsistently in the air, water, and hazard waste programs 
resulting in varying penalties and numbers of enforcement 
actions taken.
    Next, EPA has not demonstrated that environmental data 
collection at Superfund hazardous waste sites are based upon 
systematic planning or use of scientific methodology, even 
though a preferred data quality objectives process has been 
developed.
    Apparently, EPA has not required the use of this systematic 
process, nor has it developed criteria to implement an 
alternative process.
    Although EPA has significantly increased the number of 
emissions factors for the sources of air pollution, these 
factors are used to estimate a source's air pollution emissions 
when more reliable data are not available. Many have still not 
been developed and others have become outdated or unreliable. 
The net result is greatly reduced effectiveness of both 
government and industrial efforts to control air pollution.
    Further, the lack of adequate cost accounting capabilities 
and cost information adversely impacts nearly every facet of 
EPA's operations, from budget formulation and planning to 
program execution.
    The IG goes on. EPA has not made optimal use of contract 
types that are results oriented and provide better cost 
control. Instead, the Agency continues to rely excessively on 
level of effort, cost reimbursable contracts that essentially 
buy labor hours, not necessarily results, and places the burden 
of cost control on the government.
    It is suggested that numerous recent audits have identified 
information systems' security weaknesses caused by lack of 
security plans for EPA's general automated support systems and 
major applications. Such security weaknesses leave EPA 
vulnerable to unauthorized access, use, manipulation, and/or 
destruction of its information resources.
    Further, assessments have identified a critical need to 
take corrective action to prevent systems failures due to the 
inability to handle the upcoming century change in the year 
2000. That is a question we have asked of every agency so far 
during our hearing process.
    Further, assistance agreements or grants constitute almost 
50-percent of EPA's budget. Yet, regular audits confirm that 
many grant recipients have wasted taxpayers' dollars and EPA 
did not get what it paid for.
    This situation has occurred because such recipients have 
not fulfilled their responsibilities under the terms of the 
grant and EPA has not fulfilled its obligation to adequately 
monitor such grant agreements and apply available sanctions 
when recipients did not perform.
    The last comment of the IG suggests that despite the fact 
that 1990 was the final year that funding was authorized for 
the Wastewater Construction Grant Program, and despite the fact 
that the lack of progress and close-out of the program was 
identified in 1993 as an Agency-level weakness, and despite the 
fact that in 1996 the close-out of the program was elevated to 
a material weakness in your Fiscal Year 1996 Integrity Act 
Report to the President and the Congress, your current plan, as 
I understand it, is to have the work ``substantially complete'' 
in fiscal year 2000.
    In that regard, the IG has reported its belief that results 
provided to EPA's regional offices to close-out this program 
were sometimes used by the regions for other programs; 
something I could not even imagine occurring.
    I suppose if the regions are aware of the quality of the 
Agency's cost accounting process, such irregular use of close-
out funds would be more than possible.
    Madam Administrator, I know that on a number of these 
issues, the Agency has agreed with the IG and has identified 
the problem as a management control weakness.
    I also know that none of these issues are new issues. Many 
have been discussed in this forum in one fashion or another 
over the past several years.
    The fact remains that these are serious issues which must 
be addressed. I would like to know specifically how and when 
you plan to respond to each and ever one of them?
    I would appreciate your general response at this point. I 
would also appreciate a specific and detailed response, if you 
would include it in the record.
    [The detailed response follows:]


[Pages 12 - 23--The official Committee record contains additional material here.]



    Ms. Browner. Certainly, Mr. Chairman, we will be more than 
happy to give you a detailed account of what we are doing in 
each area to address the issues raised by the Inspector 
General.
    We welcome the work of the IG, in terms of helping us 
better manage the Agency. I think that, as you pointed out, 
these are areas where in many instances we have been working 
over the last several years to correct the concerns.

                      construction grant close-out

    For example, in the close-out of the Construction Grants 
Program, we have, in concert with the IG, established a 
schedule. For the Members who may not be aware, this is where 
we go back and we audit cities on how they spent waste water 
money, in some instances dating back to 1966.
    Many of you have called me over the years about this when 
your cities have been audited. Reasonable people can see things 
in slightly different ways. But we now have a schedule for 
completing that work.
    In 1997, we had 729 projects from all fiscal years that we 
were still working on. In 1999, we will be down to 175. Again, 
these are not easy undertakings. There can be reasonable 
differences. We are committed to resolving this particular 
issue.
    You also raised emission factor developments under the 
Clean Air Act. Included in the budget before you is a $10 
million request for funding for emission air factor 
development. We recognize that and we are here today asking for 
money.

                     year 2000 computer compliance

    One issue that I want to briefly respond to here and, 
again, we will respond to all in writing, is the year 2000. I 
know this has been an issue of concern across the Congress, and 
appropriately.
    We are quite pleased with our progress. I think Congressman 
Horn recently graded federal agencies on their progress. I 
think we received a ``B.'' We are working toward the ``B-
plus.'' That was better than a lot of our colleagues.
    We can give you a breakout on where we are. We have 61 
critical systems; 40 of those are now compliant with the year 
2000; 14 more will be compliant by September 30th. We have 7 
remaining.
    [The information follows:]


[Pages 25 - 26--The official Committee record contains additional material here.]



    Ms. Browner. One of the remaining systems is very difficult 
and, while we are now on schedule, we are also talking to other 
federal agencies about perhaps contracting with them to take 
over our payroll system. Our payroll system is about 25-years-
old.
    It is probably one of the biggest challenges we face in 
terms of the year 2000.
    Mr. Lewis. I appreciate that very brief and very general 
response. I must say the thrust of this and the reason I wanted 
to exercise the IG's questions was because usually the response 
when we ask the agency about ``X'' or ``Y,'' the response for 
doing ``X'' or ``Y'' is because it is ``good for the 
environment.''
    I do not think there is anybody in this room that does not 
want to do what is good for the environment, including all of 
the Members at the dias, but making sure that in that mix we 
also are exercising ourselves in a way that really protects the 
interest of the people we want to serve; the communities, the 
constituents, and the taxpayer.
    So, I raise these questions so that you will know that the 
Committee is very interested. We do want to pursue this matter. 
We will appreciate your responding as you suggested. Mr. 
Stokes.

                       superfund: reauthorization

    Mr. Stokes. Thank you, Mr. Chairman.
    Madam Administrator, the President's 1999 budget request 
for EPA totals $7.8 billion, compared with about $7.4 billion 
for the current fiscal year.
    However, the $7.8 billion figure includes the advanced 
appropriation for the Superfund Program of $650 million, which 
was included in last year's act. That funding, however, was 
provided contingent upon reauthorization of the Superfund 
Program.
    The funding lapses after May 15, 1998, if the program has 
not been reauthorized by that date. First, tell us what do you 
think of the probability that reauthorization legislation for 
the Superfund Program will be enacted within the next two 
months?
    Ms. Browner. Congressman Stokes, we continue to believe 
that a comprehensive rewrite of the program, of the laws, is in 
the interest of the American people.
    Last week alone, I think I probably spent more than 30 
hours in hearings or in meetings. In one 48-hour period, I 
spent 20 hours in meetings with Mr. Boehlert and Mr. Borski in 
an effort to reach an agreement on legislation.
    As of this time, there is obviously not an agreement. As I 
understand it, at 4:00 p.m; this afternoon, Mr. Boehlert will 
move to mark-up a bill which the Administration will oppose 
without significant changes.
    Having said that, we stand ready and willing to work with 
any Member to find agreement on legislation. I would also point 
out, as I have in years past, that the Superfund program of 
today, the day-to-day operation, is significantly different 
than the day-to-day operation of the program ten years ago.
    I would encourage Congress, in considering this budget 
request, to consider those communities, and we can provide the 
list of sites where we are ready to do the final clean-up. 
Without the money we will not be able to clean up those sites.
    It is just that simple at this point in time. A lot of good 
work has gone into advancing sites to the final phase. It now 
comes down to a question of money.
    That is what the $650 million that the Congress 
appropriated last year is designed to address, getting those 
sites done that are ready to go.

              superfund: impact of failure to reauthorize

    Mr. Stokes. Well, if we take the worst case scenario and 
assume that there is no reauthorization, tell us then what are 
your plans?
    Ms. Browner. If there is no reauthorization by May 15th, as 
the language requires in terms of the 50/50, OMB will submit a 
budget amendment to see that money carried forward without 
reauthorization, because of our great concern for these 
communities and the sites that are ready to go to cleanup.
    Mr. Lewis. It is a very important item. Within the House, 
pretty clear direction has come to us from on high that before 
we find ourselves essentially authorizing on the appropriations 
bill, which essentially is what you are talking about, we must 
have the approval of the authorizing committee of the House.
    That is not always available to us. So, the question is if 
it is not authorized, and if appropriation without 
authorization is not allowed, what do you do?
    Ms. Browner. Well, we would work very hard, in a bipartisan 
manner, to secure that support from the authorizing committees, 
despite failure at reauthorization. At this time I do not want 
to speak for the authorizing committee.
    I have spent a lot of time with the members of the 
authorizing committees. No one has said to me--although they 
may say they had intended to say to me--that it is their desire 
to appear before this Subcommittee and encourage you not to 
fund the program.
    That is not something that has been said to me. We are 
still committed to reauthorization. We have spent a huge amount 
of time trying to get it. I testified 15 different times in the 
last two and a half years on Superfund, just Superfund, in an 
effort to get a bill.
    As I said, last week in a 48-hour period, I spent 20 hours 
in meetings with Members in an effort to get a bill. So, we are 
trying to get the bill. I guess the question I would hope that 
we can all consider is, without a bill, what happens to those 
communities?
    Is it fair to those communities, who may have waited 10, 
12, 13 years when the money was accounted for in the balanced 
budget agreement, to ask them to wait another set of years?

                      superfund: dollars available

    Mr. Stokes. Let me ask you this, Madam Administrator. I 
understand EPA hopes to have the Superfund Program financed at 
$2.1 billion in 1999, partly to honor the commitment made at 
Kalamazoo in 1996 to have 900 sites cleaned up by the end of 
2001.
    If the Superfund Program is not reauthorized, the tax not 
reinstated, and $650 million provided as an advanced 
appropriation in 1998 not available, what then happens to the 
program?
    That is, specifically tell us how many sites will be 
delayed in their clean-ups. Will the balance of the money in 
the fund be adequate to finance the program?
    Ms. Browner. If I might; there are two questions in there. 
Let me answer them separately. If I might start with the money 
available in the Fund.
    Mr. Chairman, if you would bear with me. This is somewhat 
of a complicated answer, but I will do my best to simplify it. 
The 1998 appropriation from the Trust Fund, which is funded 
through the taxes, is $1.250 billion.
    An additional $250 million comes from general revenue for a 
total of $1.5 billion. If you subtract the $1.5 billion from 
the Trust Fund balance at the beginning of the fiscal year, it 
leaves you with a balance in the Trust Fund of $1.387.
    Because that Trust Fund collects interest, because we are 
being reimbursed for expenditures that we made in prior years 
where there are now responsible parties, we collect money in 
the course of the year.
    So, money goes into the Trust Fund, even though the tax is 
not being collected. Interest in 1998 will be $217 million. 
Collections from responsible parties will be $175 million which 
would give you a balance available for appropriation from the 
Trust Fund of $1.783 billion.
    Then if you add to that the 250 million general revenue 
appropriation proposal for FY99 that has been a part of the 
history of this program, you would have a total at the 
beginning of fiscal year 1999 of $2.033 billion.
    We would again in 1999 collect interest. We would again 
have responsible parties making reimbursements. Interest would 
be $157 million. Collections would be $175 million which would 
take the fund up to a total of $2.369 billion.
    The appropriation we have asked for, when you add the $650 
in, would be a total of $2.1 billion. So, there would be 
adequate funds, assuming that $250 million general revenue 
funding that continues to be available as it has for many, many 
years now to honor the $2.1 billion request.
    In the year 2000, you have a problem because you only have 
available in the Trust Fund the $276 million. Again, there will 
be some interest, $94 million. There will be collections of 
$175 million plus $4 million in fees and penalties. With the 
general revenue appropriation of $250 million, you would only 
have available in the year 2000, $799 million for a request of 
something on the order of $1.5 billion.
    The $650 million is a one-time request. So, the long and 
the short of this is that in the Trust Fund, with the general 
revenue appropriation that has been granted in years past, 
there are funds in fiscal year 1999 of $2.369 billion adequate 
to cover the $2.1 billion request.
    I apologize, but it is a complicated account because 
interest and collections keep coming back into it as we 
continue to do what we are supposed to do, which is go out and 
get the responsible parties to reimburse us.
    In terms of the sites, do you want me to run through those 
numbers quickly? Would that be helpful?

                       superfund: cleanup delays

    Mr. Stokes. It would be helpful if you would tell us how 
many sites would be delayed in their clean-up? I think that is 
important.
    Ms. Browner. Without the additional $650 million, there 
would be 51 sites that we would delay in fiscal year 1999 and 
120 sites would not be started. There are some things that we 
are finishing up. Then there are others that we start to keep 
the process moving.
    So, failure to fund affects two categories. One is the 
completions that we can achieve, and the other is the starts. 
Both are crucial to the success of the program and to the 
communities where the sites are located. So, 51 completions and 
120 start-ups that would be affected.

                          pulmonary hemorrhage

    Mr. Stokes. I have a number of questions on the budget, but 
before I yield so the Chairman can recognize some of the other 
Members who are here, let me ask you this. This is sort of 
switching gauges a little bit.
    As you know, there is an outbreak of pulmonary hemorrhage 
in infants in this cluster in my Congressional district. There 
have been 38 cases diagnosed in the Cleveland area, including 
14 deaths and 122 cases nationwide in the past five years.
    Do we know why a third of the cases of pulmonary hemorrhage 
in infants have occurred in the Cleveland area and why half of 
the total number of cases are clustered around the Great Lakes 
area?
    Ms. Browner. We are looking at this issue. We are working 
with the Centers for Disease Control and NIEHS. We all want to 
understand what is happening here. At this point in time, we do 
not have a clear answer, but we are continuing to look at the 
issue.
    Mr. Stokes. There has been some evidence or at least some 
diagnosis that the disease is initiated by an airborne mold 
found in older housing that have bodies of standing water in 
the foundation or the basement. It also appears to be an indoor 
air pollution problem.
    The issue crosses the interests and jurisdictions of the 
Department of Health and Human Services, HUD, and EPA. Can you 
tell me whether or not there are any collaborative efforts 
going on between those agencies relative to finding out the 
causes of this problem?
    Ms. Browner. Yes, we are working with HHS. I am not sure 
that we are working with HUD and that is an interesting point 
that you raised. We will contact them and see what would be 
appropriate in terms of their involvement.
    The issue of indoor air is an area of growing concern for 
us when we look at the human health consequences, particularly 
among children.
    This may well be associated with indoor air. I do not think 
we know conclusively yet. We are certainly doing everything we 
can with these other agencies to see if we can understand the 
problem.
    Mr. Stokes. Thank you, Madam Administrator.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Stokes.
    Going back briefly to your earlier question, as the 
Administrator outlined those zeros and the interest earned from 
the Superfund Trust Fund, et cetera, she was not suggesting she 
did not need the $650 million, I do not believe.
    Ms. Browner. No.
    Mr. Stokes. No. I am sure she was not.
    Ms. Browner. I was saying there was enough money there to 
pay for it.
    Mr. Lewis. Mr. Mollohan.

                     clean water action plan (cwap)

    Mr. Mollohan. Thank you, Mr. Chairman.
    Madam Administrator, welcome to the hearing. I join my 
colleagues in expressing appreciation for your coming up.
    Would you talk with us in a little more detail about the 
President's Clean Water Action Plan and what it means in and of 
itself, or what it might mean, with regard to any change in 
direction for EPA and how it moves forward to implement our 
water quality standards?
    Ms. Browner. The Clean Water Action Plan was developed 
under the leadership of the White House with the Department of 
Agriculture and EPA as the lead agencies, but also including 
Interior, NOAA, and the Army Corps of Engineers.
    It is designed to address the most pressing water problems 
as we understand them today. That includes the issue of 
polluted run-off. Some of you have experienced problems, 
particularly acute problems in your state, associated with 
polluted run-off.
    Others of you continue to have areas where fishing and 
swimming is not allowed, in large measure, because of polluted 
run-off.
    The mechanism that we believe is the most appropriate way 
to address these concerns is to use a watershed-by-watershed, 
region-by-region, state-by-state approach, recognizing what the 
most difficult problems are within a watershed, within a basin. 
This involves developing a basin-specific, a watershed-specific 
plan, working across Federal agencies to provide additional 
resources to the states.
    The EPA budget request is $145 million for this new program 
of which $120 million would go to the states and tribes in the 
form of expanded section 319 non-point source program Grants 
and programs to develop these plans and to put in place the 
mechanisms to solve the problem.
    Mr. Mollohan. There are a lot of watersheds in the country.
    Ms. Browner. There are over 2,000 watersheds in the 
Continental United States. What we believe, and I think what 
many of the states would agree with, is that not every 
watershed faces the same challenges.
    Some are more at risk than others. Some are more polluted 
than others. Part of this program is to focus on those with the 
greatest problems, those at the greatest risk, and to not 
simply have a one size fits all answer to the problem.
    We have done a lot with the one size fits all answer: 
command and control the end of the pipe. It has given us a 
tremendous sense of progress in this country, but it will not 
be adequate in and of itself to address the problems of 
polluted run-offs.
    So, we are going to have to work basin-by-basin. Some, 
quite frankly, will not rise to the occasion and others will.

                         cwap: grants to states

    Mr. Mollohan. So, how is it going to work? The grant 
program, does this go through the states?
    Ms. Browner. Yes.
    Mr. Mollohan. Do the states handle the grant money?
    Ms. Browner. The states will make applications, yes.
    Mr. Mollohan. The states will make applications to the 
Federal government?
    Ms. Browner. Yes. We are using existing grant authority.
    Mr. Mollohan. It is not a state allocation program.
    Ms. Browner. Some of it is allocated and some of it is an 
application process.
    Mr. Mollohan. So, every state will get an allocation 
amount.
    Ms. Browner. Yes.
    Mr. Mollohan. How much of it is allocation and how much of 
it is application?
    Ms. Browner. This is Bob Perciasepe from the Office of 
Water. He can give you the breakout.
    Mr. Perciasepe. The $20 million increase for the operating 
grants or the so-called 106 Grants, which are authorized under 
106 of the Clean Water Act, is an allocation formula that goes 
to the states for their normal ongoing operations.
    Mr. Mollohan. That is an administrative grant to the 
states.
    Mr. Perciasepe. That is correct. It is to run their 
programs, and the increased work that they would have to do to 
do these basin-by-basin, watershed-by-watershed analyses that 
the Administrator is talking about.
    The increase of $100 million to the 319 Grant, which is the 
Non-Point Source Grant would be doubling the amount that is in 
there. The existing $100 million would continue to be allocated 
based on a formula that we have worked on with the states.
    Every state would continue to get what they have been 
getting. We want to target the additional $100 million, along 
with the agriculture money, to the highest priority watersheds 
on a state-by-state basis.
    So, every state would get more of that, but it would be 
targeted to the priority watersheds, as the Administrator has 
described.
    Mr. Mollohan. Then each watershed would apply to the state 
to receive grants to, what; to study their watershed situation?
    Ms. Browner. It could be for planning or it could be for 
implementation. It would depend on the watershed. I think you 
were saying this. So, let me just make sure.
    We would look to the states to prioritize. So, the state 
would say, this watershed is the most at risk. So, we are going 
to increase funding for this watershed. There might be some 
that you would not fund.
    Mr. Mollohan. So, it would be a state led initiative in 
that sense.

                        nps grants: state match

    Ms. Browner. In terms of prioritization.
    Mr. Mollohan. And you would all be overlooking it. Is there 
a matching requirement to the current $100 million?
    Ms. Browner. Yes. On the 319 Non-Point Source Grants, there 
is a 40-percent match.
    Mr. Mollohan. I am talking about the additional money that 
is going to go to the grant program under this initiative.
    Ms. Browner. There is, but let me just be clear about what 
is considered a match. It can include in-kind work that people 
are doing in the States.
    Mr. Mollohan. You are very flexible about that.
    Ms. Browner. Yes. Thank you.
    Mr. Mollohan. I mean, I take it that is what you were 
saying.
    Ms. Browner. Yes. The State match is not required dollars.
    Mr. Mollohan. You are projecting this to be a $3 billion 
program over five years. Am I understanding that correctly?
    Ms. Browner. No. It is a $2.3 billion program with all of 
the federal agencies over five years.

                  nps: abandoned mine reclamation fund

    Mr. Mollohan. You know, we have a lot of Non-Point Source 
problems in West Virginia. This money, I mean, this money goes 
to studying it. You have got to get on to correcting it. I do 
not think you will ever have enough money to do that.
    I would like for you to. I would like for us to draw down 
on that. We have this Abandoned Mine Reclamation Fund that is 
out there. You are familiar with that; right?
    Ms. Browner. Right. That is not an EPA fund, but yes, I am 
familiar with it.
    Mr. Mollohan. No, it is not. I am just going to ask you a 
little bit about that. There is about $1.6 billion in that 
Abandoned Mine Lands Fund which is collected. Did you know 
that?
    Ms. Browner. I did not realize it had that much money in 
it.
    Mr. Lewis. How much is it?
    Mr. Mollohan. It is $1.6 billion, Mr. Chairman.
    That is money collected from coal production that was 
dedicated to clean-up. The budgeteers are keeping it locked up 
in order to make our deficit look better.
    Ms. Browner. I am not agreeing or disagreeing with that.
    Mr. Mollohan. I am going to ask you though. I mean that is 
really a big part of your responsibilities which is to get 
resources to help clean this up.
    The technical issues are not the hurdles. It is getting the 
money that is the hurdles. Over $250 million a year is 
generated by this fund, but it is not spent in nearly that 
amount.
    I just advise you of this and encourage you. We are going 
to be trying to shake this money lose. To help us do that, we 
are trying to get OMB and the Administration. If we are really 
concerned about cleaning up these areas, this money is there.
    It is for this. It is being used for budget purposes to 
make the deficit look better instead of for the purposes of 
cleaning up the environment. So, we will just call upon you to 
assist in that. Do you think that is something you can do?
    Ms. Browner. We will discuss this with OMB. Obviously, in 
some parts of the country, abandoned mines can contribute to 
polluted run-off problems. I think you raise a valid point 
here.
    Mr. Mollohan. It can. In all coal mine producing areas, it 
does. I mean, it is the number one problem really.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you. Ms. Meek.

                   florida alternative water sources

    Ms. Meek. Thank you, Mr. Chairman. Welcome, Ms. Browner, 
Mr. Hansen. Sallyanne Harper, we are happy to see you again.
    My concern right now is the importance of alternative water 
sources. I am from Florida. We do need some type of alternative 
source development of water in Florida, either reclaiming the 
water that we are already using, or in terms of some way to 
irrigate the large agricultural lands we have there.
    I know Administrator Browner, you and the Chairman, and Mr. 
Stokes have over the years supported this. My question now is 
do you agree that we would continue to try to restore this 
effort of reclaiming this water and certainly adding more water 
to that to try to protect as an alternative source of water in 
Florida?
    What is your stand at this point on that?
    Ms. Browner. I have long believed, that the reuse of 
treated waste water--sometimes referred to as brownwater or 
reclaimed water--is extremely important.
    Pinniellas County, for example, was really at the forefront 
of that effort at Marco Island. The golf courses have been 
irrigated for 20 or 30 years now with reclaimed water.
    We have sought to be helpful across the country with states 
and communities in making use of this reclaimed water because 
we think it is so beneficial to sensible management of our 
water resources and, more broadly, our water supply.
    Florida has a program, at least they did when I was there, 
of encouraging, for example, golf courses across the state to 
take this water as a way of diminishing the amount of water----
    Ms. Meek. That is still in progress.
    Ms. Browner. Right. They were removing more water from the 
Aquifer that was being recharged. EPA has provided some funding 
in various parts of the state for these efforts through grants 
programs.
    Ms. Meek. I guess I should ask your Regional Administrator, 
a little bit later, where this money is going at this point in 
terms of what areas of Florida.
    Ms. Browner. We could provide you with a list. Why do we 
not do that for the record, if that would be okay.
    Ms. Meek. That would be fine.
    [The list follows:]


[Pages 35 - 37--The official Committee record contains additional material here.]



                         water programs at epa

    Ms. Meek. Another interest I have is, in your budget this 
year, you want to spend $2.8 billion on clean water programs in 
1999.
    Ms. Browner. Yes.
    Ms. Meek. That is almost $100 million more than you 
requested for this same program in fiscal year 1998. How do you 
plan to spend that money?
    Ms. Browner. The total water resources include our ongoing 
commitment to the states for wastewater treatment facilities 
and upgrades to those facilities, the new program that you have 
funded for drinking water facilities, and the President's Clean 
Water Action Plan.
    Those are the three big pieces of that program. The Clean 
Water Action Plan is focusing on polluted run-off as opposed to 
the waste water discharges that the historical clean water 
program sought to address. So, it is three programs, broadly 
speaking.

                         everglades restoration

    Ms. Meek. My last question has to do with the Everglades. I 
cannot let you go without asking about the Everglades. What are 
your plans in terms of the continued restoration of the 
Everglades?
    Ms. Browner. Well, we are very proud of the progress that 
has been made. The Administration, across a handful of federal 
agencies, seeks funding again this year for those efforts.
    One important issue that we are focused on today is having 
the Army Corps of Engineers Study done in a timely manner.
    Another issue is the acquisition of what is commonly 
referred to as the Talismen Property. We entered into an 
agreement with the owners of that property, St. Joe Paper 
Company and we have an option to buy it out-right.
    We have recently received appraisals on all of the parcels. 
As we have said, and as the Vice President said in making the 
announcement, we continue to be interested in trades with the 
farming entities that would give us the land we need for 
restoration and give the people of South Florida the water 
quality that they need for a healthy existence, and allow 
farming where appropriate.
    Those discussions should begin shortly. We just got the 
appraisals that we need for those discussions.
    Ms. Meek. Thank you, Mr. Chairman for this round. That is 
it.
    Mr. Lewis. Thank you, Ms. Meek. Mr. Price.

            research triangle park (rtp) construction status

    Mr. Price. Thank you, Mr. Chairman.
    I would like to add my welcome to Administrator Browner and 
your colleagues. We appreciate this chance to review your 
activities and plans. Of particular importance to North 
Carolina and to the national research effort, of course, has 
been the beginning of the construction of the new consolidated 
EPA research facility in Research Triangle Park, North 
Carolina.
    The new campus will allow EPA to fill in the knowledge gaps 
that currently exist in the field of environmental research and 
to ensure that regulation is based on sound science.
    I am proud to say I was present, along with the 
Administrator, when the first shovels of dirt were thrown on 
that beautiful October day of last year. Mr. Chairman, there 
were some very kind words for you at that point.
    I was happy to praise the work that you, Mr. Stokes, and 
our subcommittee did to authorize the entire building as 
originally conceived. So, we do thank you for your support.
    We look forward to working with you this year to obtain the 
final $72 million that is needed to complete the funding for 
this project.
    Mr. Lewis. I thought he was leading up to something else.
    Mr. Price. I knew that would catch you off-guard.
    Ms. Browner, could you give us an update on how the 
construction is proceeding? I am particularly interested in how 
the Agency is proceeding with the additional portions that were 
authorized in last year's bill: the High Bay Test Area, the 
computer center, and the child care facility.
    Ms. Browner. We are moving forward. We are absolutely 
committed to honoring the Congress' direction, if you will, to 
include the High Bay Building, the computer center, and child 
care center in the main facility.
    The initial work on construction is 8-percent complete now. 
We will start the High Bay Building at the beginning of fiscal 
year 1999. So, we believe that we are on track as we were 
directed to be by the Congress, in terms of the overall scope 
of the project.
    Mr. Chairman, if I might just say, it really is a great 
thing we are doing down there. For the first time, EPA is going 
to have a state-of-the-art science facility in North Carolina 
where there are many other important efforts underway in terms 
of environmental sciences, including Duke University, and 
others.
    We really do appreciate the support of this committee. I 
think this is something, quite frankly, that was long overdue. 
Finally, it is happening. The hole is in the ground. 
Construction has started. We really appreciate your help.
    Mr. Lewis. We thought it might work at Palo Alto, but it 
did not quite make it.
    Ms. Browner. We would be happy to have a second one.

               bay city supercomputer move: cost savings

    Mr. Price. We are certainly eager to work with you in 
moving this project forward. We are looking forward to moving 
out of 13 rented facilities at last count, I think, and into 
this consolidated laboratory.
    We are grateful for all the help that has brought us to 
this point. Let me ask a related question about the Agency's 
super computing resources because this is related to the 
construction of the new computer center in RTP.
    It is my understanding that the Agency has been considering 
for some time consolidating its current super computing 
resources in an attempt to gain efficiency and save money.
    OMB has sent circulars regarding consolidation. Madam 
Administrator, your own Inspector General indicated that 
savings could be realized by closing down the Bay City facility 
and consolidating these operations in RTP.
    We are talking about the next five years, to say nothing of 
the out years' savings. The savings over the next five years of 
immediately moving the current computer from Bay City to RTP 
would be over $2 million.
    If you waited for the new National Computer Center to be 
completed at RTP, there would still be savings, but the amount 
of savings over the next five years would drop to something 
under $500,000.
    Now, do those numbers sound right to you? In any case, how 
is the effort to consolidate proceeding and what is the time 
line for a decision on this matter?
    Ms. Browner. As you well know, and as you have reported, we 
have been engaged in a comprehensive analysis of whether or not 
to relocate that facility. We are awaiting some additional 
information before making a final determination. It is not an 
easy decision.
    You are correct that based on what we know today, there 
does appear to be some cost savings. We believe there is some 
additional information that may be made available to us. We are 
trying to get that as quickly as possible.
    Mr. Price. Any idea when the decision could be finalized?
    Ms. Browner. We hope sooner rather than later. As I have 
said, we are awaiting some information. I do not know if we 
have a date yet for when we will receive that information. Let 
me try and get that for you.
    Mr. Price. I would be happy to have that fuller accounting 
placed in the record. I do think we need that. I stress, I am 
not now talking about the out years. The out year savings are 
considerable from this kind of consolidation.
    [The 5-year savings information follows:]

                    Bay City: Timeline, Cost Savings

    EPA has completed the analysis to determine the location of 
the Agency's Supercomputer, currently housed in Bay City, MI. 
The study, conducted by the US Army Corps of Engineers, shows 
that consolidation of the Supercomputer with EPA's National 
Computing Center was the most cost-efficient option, saving the 
Agency $2.4 million over five years, or about $800,000 per year 
after the initial move costs are borne. Additionally, there 
would be substantial savings in the outyears.
    On February 5, 1998, EPA briefed the Michigan Congressional 
delegation about the study findings. On March 13, 1998 Senator 
Levin and Congressman Barcia raised questions about the report. 
EPA is now preparing its response. We anticipate making the 
decision on the location of the Supercomputer no later than 
early summer in order to prevent having GSA extend the current 
lease beyond the December 31, 1998 completion date.

    Mr. Price. What we are talking about is the savings over 
the next five years. Making the move immediately would achieve 
savings in the $2 million range. I know there has been some 
discussion about possibly waiting until this new computer 
center is constructed in RTP.
    There would be some savings if the move takes place then, 
but the savings would actually be less than would be achieved 
by moving now and then having a further move when the center is 
ready to occupy.
    Ms. Browner. Based on the information we have now, we would 
agree with the numbers that you have articulated. There is no 
disagreement with what you have said.
    It is simply that one of your colleagues has made us aware 
that there may be additional information which they are 
supposed to get to us. Once we receive the information we can 
complete the analysis.
    Mr. Price. Well, I would think these are not just numbers. 
These are, of course, genuine dollar savings that we are 
talking about. It also reflects increased efficiency and 
effectiveness of those computer operations.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Price. Mr. Hobson. Mr. Hobson.

                         danis-clarko landfill

    Mr. Hobson. Thank you; welcome.
    Last year, we discussed the Danis Clarko Landfill to be 
sited in Tremont City, Ohio, in my Congressional District. As 
you may remember, the Ohio EPA has granted the Danis Company a 
variance from the state law allowing this landfill to be sited 
over an Aquifer.
    First of all, I want to thank you and your agency for 
meeting with my constituent and for Region Five taking a look 
at this. It had not turned out the way, so far, that I wanted 
it to turn out or the people in the community would like for it 
to turn out, but the Ohio Environmental Review and Appeals 
Commission recently concluded several weeks of hearings on the 
Danis Landfill.
    We are anxiously awaiting the decision of the Commission. 
This is still a contentious issue in my District. I still have 
grave concerns about the unnecessary risk of siting a landfill 
over an Aquifer using the variance technique when other sites 
exist in the area.
    I just wanted to remind you of my concerns and hope that 
the Agency continues to monitor this; not just for my District, 
but for other states and areas where people may be using 
variances over an Aquifer.
    If they are wrong, and the science is not really definitive 
in these areas, we have done something to the next generation 
in an area that is going to be very difficult to clean-up. So, 
I want to thank you for the help from your staff on that.
    Ms. Browner. We will continue to monitor the situation.

              visual anti-tampering vehicle emissions test

    Mr. Hobson. I hope the review board comes out all right.
    I want to ask you another, more contentious, question. I 
understand that the U.S. EPA recently gave preliminary approval 
to the State of New Hampshire to run a visual anti-tampering 
vehicle emissions test instead of the Enhanced Auto Emissions 
Test that was mandated for the state under the Clean Air Act.
    Why was New Hampshire, a state with a more serious air 
quality problem than Ohio permitted to use the visual test, 
when your Agency urged Ohio to eliminate the same type of test 
because it was supposedly ineffective?
    Ms. Browner. When we make decisions about state efforts, we 
look at their plan as a whole; whether it be Ohio or New 
Hampshire.
    In the case of New Hampshire, in terms of the steps they 
are taking within the state to reduce their pollution they 
have, for example, looked to a coal-fired utility for 
NO<INF>X</INF> reductions, which we were able to certify.
    In the case of their other pollution problems, a large 
measure of those are transported. They are not generated from 
within the state.
    Mr. Hobson. Let me ask you this question. I understand 
that. If you use the words ineffective for the test, is this an 
ineffective test?
    Ms. Browner. No. We believe it is an effective test.
    Mr. Hobson. You believe it is an effective test.
    Ms. Browner. Yes. As you all have encouraged us and we have 
sought over the last several years, we look at the whole 
package that the state is presenting and not at simply one 
component.
    If we thought a test that a state recommended or sought to 
have approval on was ineffective, we would not approve that 
portion. In this case, we believe that test is effective. That 
test, when taken with their plan as a whole, gives them the 
level of reductions they need.
    Mr. Hobson. All I will ask you to do is look at the wording 
used with Ohio and see if it is in their overall plan or the 
wording was used that it was an ineffective test and maybe 
somebody needs to change the language.
    I think their impression is that it was not told to them as 
a part of the overall plan, but that the test per se was 
ineffective. Now, maybe it was ineffective in achieving the 
results that you wanted to achieve overall.
    I am not sure about that. But I think the test, what they 
are concerned about is that the test was declared to be 
ineffective.
    Ms. Browner. The Ohio test.
    Mr. Hobson. Well, the Ohio Visual Anti-Tampering type of, 
it is the same type of test that they are using in New 
Hampshire. So, I would like for you to look at that.
    Ms. Browner. Okay, certainly.
    Mr. Hobson. They are saying, hey, you know, we would like 
to do this too. I still get a lot of complaints about going in 
and having your car plugged in and standing. Even though it is 
not always as bad as everybody says, still the perception is 
out there. When your wife has a problem and your staff has a 
problem, it is like, you know, it is a problem.
    Ms. Browner. If we could provide, Congressman Hobson, an 
explantion for the record on what the differences are between 
the Ohio and New Hampshire test, and why one might have been 
determined to be effective and the other ineffective.
    [The explanation on emissions testing follows:]


[Pages 43 - 44--The official Committee record contains additional material here.]



    Mr. Hobson. I think they feel slighted.
    Ms. Browner. In Ohio?
    Mr. Hobson. In Ohio.
    Ms. Browner. Something tells me this is not the only 
reason.

        NO<INF>X</INF> Emission Reduction: Alternative Proposal

    Mr. Hobson. Yes, I know. I know.
    On another area, has the EPA reviewed the alternative 
NO<INF>X</INF> emissions reduction proposal developed by the 
Alliance for Constructive Air Policy?
    Is not this proposal more in line with the recommendations 
of the OTAG because it creates a mechanism for further sub-
regional modeling, while initial reductions are being 
implemented and targets additional reductions to demonstrated 
air quality needs?
    Ms. Browner. I believe we have received that as a part of 
the comment. We have just completed a public comment period on 
the proposed or what is commonly referred to as the proposed 
OTAG SIP call.
    That is actually not its official name, but that will 
suffice for right now. I believe those analyses are a part of 
some of the comments that we received.
    We will be fully reviewing all of the comments we receive 
before making the decision. The final SIP call would not be 
until this fall. So, in finalizing the SIP call, we have to 
review the comments.

            Animal Feeding Operations: Regulatory Oversight

    Mr. Hobson. I have a somewhat rural/urban district. A flag 
just went up in the rural area, as you might imagine. I 
understand that the EPA plans to increase regulatory oversight 
of animal feeding operations.
    The National Association of State Department of Agriculture 
on March 3rd gave their support for state programs that include 
flexibility, sound science, and economic feasibility.
    However, according to the Food and Agriculture Policy 
Research Institute, a consortium of seven land grant 
institutions, the proposed regulations, are not based on sound 
science or on economic feasibility.
    What is the scientific and economic evidence used to 
support the proposed strategic plan? Secondly, I have got 
farmers coming up to me now saying, you know, am I going to 
have to have a permit for the manure on my property.
    Is that the next step? Is that where we are going? These 
are not big feeding operations. I think the alarm bell has gone 
off. Do you want to respond to that a little bit?
    Ms. Browner. This perhaps is an issue concerning other 
Members also. The question I think you pose is to the draft 
strategy which EPA released ten days ago on animal feeding 
operations.
    In that strategy, we lay out the concerns in terms of the 
large number of these facilities and the volume of waste that 
can be generated at these facilities. Less than 25-percent of 
the largest CAFOs, or combined animal feeding operations, 
actually have some kind of environmental permit at this time.
    In this strategy, we laid out a plan to work with all 
affected parties. For example, I met via satellite last week 
with the Council of Pork Producers, and with any number of 
producers, to look at how best to structure a program.
    One of the issues that we need to discuss with all of the 
affected parties is the issue you raise of permits. This is 
actually turning out to be a very complex issue because while 
the animals may be owned by company-x, who sells them in the 
grocery store to you and me, the operation is owned by the 
farmer.
    So, who would actually carry a permit, if a permit became a 
part of the solution? This is probably going to be the case in 
a number of instances. It is something that we are talking to 
all of the stakeholders about.
    We have not made any final decisions in terms of how the 
program would actually be managed on a day-to-day basis. We are 
working very closely with the farming community, with the 
states, and with other interested parties.
    The initial focus would be on the large operations: 1,000 
head of cows or more; 2,500 head of hogs or more; and 30,000 
chickens or more. They generate a lot of waste.
    Mr. Hobson. I know they do.
    Ms. Browner. A lot. Someone once told me, and I think this 
is accurate, that a dairy cow produces 80 pounds of manure a 
day.
    Mr. Hobson. No, I do not think so.
    Ms. Browner. Something on the order of that.
    Mr. Hobson. I think four chickens equal a human being.
    Ms. Browner. If you think about the efforts that we have 
engaged in to deal with human waste, and waste water treatment 
facilities, some of these facilities generate the amount of 
waste that is equivalent to a small city.
    Mr. Hobson. I do not object to looking at this because we 
have had some problems with some large poultry operations 
within my state. I am not objecting.
    I think the manner in which some of this is done, we need 
to recognize that we are after these. My District happens to be 
becoming an area where there are some large hog operations 
coming in.
    We have already had some and there are more. At one time, 
we had a large feeder operation for cattle. I think the thing 
is that we need to make sure that the Agency indicates where it 
is going and it is not all of a sudden you have got every 
little farmer, family farm operation, saying, do I have to get 
another permit? You guys are already messing me up enough on a 
lot of other stuff.
    They feel they already have enough regulations on them. So, 
I think you need to explain dramatically the level of the 
operation that you are after.
    I do not necessarily disagree with some of these large 
operations because they do dramatically change the environment 
in the area in which they are operating; not that they are not 
good business people, but they need to figure out how to 
operate within the rules.
    So, I am not objecting. We need to be sensitive to this 
other side. I just wanted to mention that to you.
    Ms. Browner. As the first step, we have put out a draft 
strategy. It is not even a proposed rule or regulation. We are 
taking public comment on that strategy.
    Mr. Hobson. I have already gotten some.
    Ms. Browner. Good. That is what we need
    Mr. Hobson. You are going to get a lot because there is a 
lot of fear out there of where this is going. I think if you 
address it in the right direction, then you will eliminate a 
lot of it. So, that is why I am raising the question to you 
today.
    Thank you very much.

                     information systems: security

    Mr. Lewis. Thank you, Mr. Hobson.
    Ms. Administrator, one of the ten areas I mentioned earlier 
which EPA has itself identified as a management control 
weakness is information systems security. The whole area of 
information and management generally, and information security 
specifically is one that I believe needs deliberate and 
immediate attention by Congress and many federal agencies, 
particularly EPA.
    As we all know, EPA and other government agencies are more 
and more using information-age technologies to instantaneously 
collect, organize, and globally disseminate massive amounts of 
U.S. product and production facility information.
    Previously, this information was paper filed in different 
jurisdictional offices and made accessible primarily for the 
benefit of government regulatory personnel.
    While there are, of course, considerable benefits in 
providing a means for the general public to access certain 
information relative to our environmental laws, there are also 
considerable risk, including increased loss of competitiveness, 
increased risk of economic espionage, and increased risk of 
terrorism.
    Over the past two years, the President's Commission on 
Critical Information Protection highlighted cyber and fiscal 
threats in the so-called Information Age. Congress recognized 
the threats posed by a startling rise in economic espionage and 
the inadequacy of federal law.
    Thus passed, in the 104th Congress, the Economic Espionage 
Act of 1996. Unfortunately, neither Congress nor the Executive 
Branch have grappled with what I believe is the seed bed that 
nurtures various threats; open source information.
    All foreign government and industry competitive 
intelligence techniques begin with open source information. 
Likewise, does the majority of international terrorism.
    Even as economic espionage and cyber terrorism have moved 
to the public forefront, the U.S. Government has not brought 
the explosion of electronic open source information initiatives 
from regulatory agencies to public dialogue.
    Product and production facilities regulatory agencies were 
not part of the PCCIP work. Government information initiatives 
are, for now, exempt from security under the Economic Espionage 
Act.
    Meanwhile, EPA is proposing to instantaneously collect and 
globally publish, through the Internet, new data points, 
including a variety of materials accounting information.
    Such information, along with product and facility 
permitting data, will reveal material balances, heat rates, 
catalysts, economic break points, inventories, and process 
efficiencies for 66,000 U.S. production facilities.
    Moreover, and perhaps more to the point, EPA is now close 
to making a final decision on its information system for 
disseminating its Risk Management Program Rule for such 
facilities pursuant to section 112(r) of the Clean Air Act 
Amendments of 1990.
    It is my understanding that your current proposal will, 
among other things, essentially place on the Internet, for all 
the world to see and have access to, worst case scenarios for 
all of these facilities, even though the Clean Air Act did not 
in any way require that the Internet be used for this purpose.
    According to AEGIS Research, a contractor hired by EPA to 
analyze the terrorism risk of RMP information, the potential 
terrorism may be increased or decreased by influencing the 
following four factors.
    One, exposure of the source; do the terrorists know that 
the information exists and where? Two, ease of access; how 
easily can a terrorist get the information? Three utility; what 
is the value of the information to the terrorist? Four, degree 
of anonymity; does the method of gathering the information 
allow the terrorist to remain anonymous?
    Internet access places information greatly at the extreme 
positive end for three of these four factors: exposure to the 
source, ease of access, and degree of anonymity.
    The fourth factor, utility of data base, relies on two 
further factors: the content of the data base and the ease of 
searching and sorting the data to uncover the specific pieces 
of information.
    The RMP information in fact contains considerable data that 
would be valuable to a terrorist, including the chemicals used 
and quantities distance to end points, the residential 
population, and the public receptors, such as nearby schools 
and hospitals.
    Once a site is identified, a potential terrorist may then 
access facility layout from aerial photos available at a local 
county office or, in some cases, the Internet itself, and 
thereby determine the ingress and egress routes, chemical 
locations, and physical security arrangements.
    Based on all of these factors, EPA's contractor determined 
that uncontrolled access to RMP via the Internet would increase 
the risk of terrorism seven-fold from amateur, non-local 
terrorists.
    Further, the contractor prepared a few limited 
recommendations that showed how EPA might reduce the risk, 
suggesting that a thorough study of data management 
alternatives, including controlled search on the Internet, 
could result in a solution that would both minimize risk to 
acceptable levels, and meet the public information objectives.
    It is my understanding that EPA has not yet undertaken such 
a project. I really do not want to dwell that extensively, but 
it is a very important to say and, at least, a potentially 
critical subject.
    Madam Administrator, I have a number of specific questions 
regarding these issues of economic espionage, and terrorism, 
many of which I will submit to you for answer later. At this 
time, however, I think it is important to first address the 
most fundamental of questions in this regard. Why in the world 
would EPA propose any such information access via the Internet 
if there is even a hint of economic espionage or terrorist 
problem?

                     information systems: security

    Ms. Browner. First of all, Mr. Chairman, we have not made a 
final decision. We have been engaged in a very extensive 
process about how to make information available, what is 
appropriate, and what would not be appropriate.
    We have looked to an outside advisory committee, a FACA, 
Federal Advisory Committee, organized under the Federal 
Advisory Committee Act. They have had several meetings now.
    Nine out of ten of those committee members have recommended 
that we post some of this information on the Internet with 
restrictions or speed bumps.
    We are analyzing those speed bumps. We have also worked 
very closely with the President's Commission on Critical 
Infrastructure Protection. We have met with the FBI. We have 
met with DOD.
    We understand and take very seriously the concerns you 
0raise. In trying to strike the balance between public access 
and security, we will look towards how to structure it so that 
highly sensitive information would not be available through the 
query.
    One proposal, for example, is that the query, and Internet 
query would be limited to only 15 pre-selected data elements, 
not including a set of sensitive data elements. We would 
exclude those from the Internet.
    We would restrict the query to a sub-set of approximately 
1,000 of these plans, not all of the plans. We would welcome 
any input from this committee as to other speed bumps that we 
should consider in making such a program available.
    The flip side of this is that much of this information, 
while not on the Internet, is publicly available. You can go to 
a variety of locations in your local community and collect the 
information.
    Much of it is available through a FOIA, a Freedom of 
Information Act Request. So, we are trying to strike the 
appropriate balance between public access and security. We 
would welcome any input on this matter.
    Mr. Lewis. Ms. Browner, I gather from your response that 
you see that there is a potential threat or danger or difficult 
circumstance here. I am frankly not red hot for speed bumps. In 
fact, I would take them out of the Capitol garages because it 
really is nuts.
    There are other ways of controlling things. One of the 
things I had mentioned here is that while there is nothing in 
the law at all that suggest that you ought to put this stuff on 
the Internet, the problem with your just initial kind of 
question response is that this information is publicly 
available, yes. You can go to the Library of Congress and get 
lots of information. The Internet is available readily in 
Baghdad.
    Ms. Browner. We do not disagree that there a difference 
between the Internet and the Library of Congress.
    Mr. Lewis. The point, again, is there are people sitting 
and looking at this kind of information. Imagine flows. I 
personally think that the terrorism threat, which is probably 
one of our greatest challenges for the next 25 years or so, is 
as much domestic as otherwise. It does concern me that Baghdad 
and otherwise are sitting there and scratching, I suppose, 
their heads.
    Ms. Browner. We have had conversations about this with the 
FBI and the Department of Defense. Again, if there are any 
recommendations, we would really welcome them.
    Mr. Lewis. I am really, really interested in steps that EPA 
is taking to ensure that increased public access will not 
increase the risk of terrorism. This is a discussion that we 
all need to have in open forum and otherwise. Mr. Stokes.

                     enterprise for the environment

    Mr. Stokes. Thank you, Mr. Chairman.
    Madam Administrator, this January a major report entitled 
The Environment Protection System In Transition was published 
by the Enterprise for the Environment Project of the Center for 
Strategic and International Studies in cooperation with the 
National Academy of Public Administration and the Keystone 
Center.
    In fact, Mr. Hansen was on the Steering Committee and was 
also a participant. I have looked at the report and seen the 
list of participants. You have a very distinguished group of 
participants here.
    I would like to ask Mr. Hansen his impressions of the E4E 
Enterprise for the Environment Effort and what new information 
or prospectus he thinks this report brings to the environmental 
debate?
    Mr. Hansen. Thank you, Mr. Chairman and Mr. Stokes.
    The principal issues that I think are brought forward by 
the Enterprise for the Environment Effort has been first and 
foremost a fundamental recognition of how much progress has 
been made under the current system and that we should not 
retreat from that progress in any regard.
    Number two, the steps required to move forward and continue 
to make the improvements that are necessary for the 
environmental systems are ones that should be taken 
incrementally. They should be taken on a step-by-step basis.
    The report--I had little to do with this, although I am 
very proud of it--complemented the EPA's different steps to 
reinvent itself, to find new ways, as the Administrator has set 
out in the Common Sense Initiative, Project XL, and others, to 
solve our environmental problems in a more cost-effective, 
common sense way.
    I would be happy to answer any additional questions, but 
those are the general impressions of the E4E recommendation, 
essentially saying that we need to do more of what we have 
already charted the course to do.
    Mr. Stokes. I notice that one of the report findings says 
fragmented Congressional oversight of EPA and the complex 
relationship between EPA and other levels of government have 
hindered the coordination, integration, and rational 
application of environmental laws.
    First, do you agree with that observation?
    Ms. Browner. He can answer that.
    Mr. Stokes. Go for it. Do you agree with that observation? 
Does the Administration have any proposal to address it?
    Mr. Hansen. Mr. Chairman and Mr. Stokes, those are issues 
in terms of Congressional organization; an issue that you and 
this body are in the sole position to address.
    Clearly, from the standpoint of the additional comment 
about the broader coordination among Federal Executive Branch 
Agencies, we agree. As the Administrator testified just a few 
moments ago in relation to the work on the Clean Water 
Initiative, the coordination is existing between us and the 
Department of Agriculture, along with the Department of 
Transportation, are indications that this Administration's 
commitment to build those connections among all of the Federal 
agencies addressing common problems.

                          goal-based budgeting

    Mr. Stokes. The report also recommends, Mr. Hansen, that 
the Federal government undertake a well-funded, multi-agency, 
multi-year initiative to improve the quality, collection, 
management, and accessibility of environmental information.
    Can you indicate to us to what extent EPA agrees with this 
recommendation? What is included in the 1999 budget request 
towards this objective?
    Ms. Browner. We do agree, particularly in light of the 
GPRA, Government Performance and Results Act, where each of the 
departments and agencies is directed to present their budget 
based on goals.
    If you articulate a set of environmental and public health 
goals for the country as we have sought to do, then information 
collection will be particularly important for measuring 
progress towards achieving those goals.

   environmental monitoring for public access and community tracking 
                                (EMPACT)

    If you say you are going to have so many watershed plans, 
you have to go out and collect the information to know that you 
have so many watershed plans. We have included in our budget 
throughout the agency a total of $35 million for information 
collection efforts, broadly speaking.
    It would probably be best captured under our EMPACT 
Program, Environmental Monitoring for Public Access and 
Community Tracking. That looks broadly at air and waterways.
    Certainly information is extremely important to this goal-
based budgeting effort and toward monitoring progress of the 
states, the agencies, communities, and industry. We are very 
committed to it.

                   food quality protection act (FQPA)

    Mr. Stokes. Madam Administrator, Congress passed the Food 
Quality Protection Act in 1996, modernizing pesticide 
regulations by mandating that all pesticides meet a tough new 
safety standard that not only protects adults, but also infants 
and children who may be more vulnerable to the toxic affects of 
these chemicals.
    It is my understanding that EPA is currently implementing 
those new health provisions. Tell us what pesticides EPA 
selected to reassess under the act.
    Ms. Browner. We are required under the new Food Safety Act 
to complete a review of existing chemical intolerances. The 
final year I is 2006. We do it in thirds essentially. We are 
working through the reassessment of 9,700 tolerances within ten 
years.
    The law also directs us to do reviews based on what are 
referred to as common mechanisms, to look at categories of 
products that use a common mechanism to be effective. We are 
currently looking at how best to do that; to focus on that 
common mechanism as required under the statute.
    This is a large undertaking and we are the first to admit 
it. We are on track as of this time to honor the requirements 
of the statute. It will require, and I should be very clear 
about this, a tremendous amount of stakeholder involvement.
    We need the participation of the Department of Agriculture, 
which is working closely with us. We will need the 
participation of State Agriculture Commissions. We will need 
the participation of farmers. We will need the participation of 
manufacturers.
    This is going to take everybody coming together. One place 
we have already made some important progress is just 
understanding what the exposures are in terms of the diet of 
our children today, as compared to 10, 15, 20 years ago?
    Children's diets are an extremely important piece of 
information to undertaking this effort.

              FQPA and SDWA Amendments: Bipartisan Support

    Mr. Stokes. In the last days of the 104th Congress in 1996, 
two substantial environmental laws were enacted: The Food 
Quality Protection Act and The Safe Drinking Water Act 
Amendments.
    Both of these measures had strong bipartisan support. I am 
sure it is no coincidence that both measures also have integral 
public health aspects. At the risk of over- simplification, it 
sometimes seems the most successful environmental bills are 
those that transcend politics and achieve broad support based 
on generally recognized threats to public health.
    Why do you think these measures were successful? 
Conversely, why do you think others, such as Superfund 
reauthorization did not seem to be able to get out of the 
partisan category?
    Ms. Browner. I would say that in the case of both, drinking 
water and food safety, there was bipartisan recognition. There 
was broad stakeholder recognition that they were outdated laws 
which needed to be modernized.
    Food safety, in some instances, parts of it had not been 
changed in over 25 years. It reflected a knowledge of science 
that had been surpassed. We know a lot more today.
    In the case of drinking water, there was a recognition that 
the rewrite in 1986 responding to the concerns at the time was 
no longer adequate to the concerns of today. So, first was the 
bipartisan recognition.
    I would also say that we were extremely fortunate to have a 
number of governors, mayors, environmental organizations, and 
Members of Congress. It was a bipartisan effort to craft 
responsible pieces of legislation.
    That is the way to do this. It is not an either or. It is 
not an us versus them. It is everyone sitting at the table to 
do just that. As I said with respect to Superfund, we were, I 
feel, making progress in the bipartisan conversations of last 
week.
    Unfortunately, a mark-up was scheduled for today. It was 
Mr. Boehlert's view that he could not move that mark-up. So, 
those conversations have ceased. But if we are going to get 
there on Superfund, it is going to be in the exact same way we 
got there on drinking water and food safety.
    It is going to be a group of people at the table working 
through individual issues and then stepping back and looking at 
the program and the legislation in its entirety to determine 
whether it provides the level of protection that we all think 
are important.
    It is not an easy thing to do, but it can be done, as you 
have said.

                            lead-based paint

    Mr. Stokes. Sure. One other question and then I will yield 
back to the Chair. Ms. Browner, your statement indicates that 
protecting children's health is a top Administration priority.
    Ms. Browner. Yes.
    Mr. Stokes. That the 1999 budget includes an $8 million or 
33-percent increase.
    Ms. Browner. Yes.
    Mr. Stokes. I understand one facet of the increased effort 
is to target and prevent childhood lead exposure using funds in 
both the Environmental Programs and Management, and the State 
and Tribal Assistance Grants Account.
    As you probably know, reducing lead levels in children has 
long been one of my priorities and concerns. Can you just 
elaborate a little bit more on this aspect of the initiative 
indicating the levels of funding and how they will be used?
    Ms. Browner. Yes, Mr. Stokes. As you are well-aware, we 
still have a million children in this country with elevated 
lead levels in their blood. There is absolutely no reason why 
any child today should experience an elevated lead level.
    We have a number of programs designed to address this 
problem. We are working very closely, for example, with the 
Department of Housing and Urban Development, looking at their 
housing stock.
    We have some areas in the country where 80-percent of the 
low income housing stock has elevated levels of lead, 
contamination, or lead dust in them. We are continuing to work 
with parents so they understand the steps that they can take to 
prevent their children from being exposed to lead.
    Most recently, our effort has focused on a cooperative 
agreement that we achieved with the realtors to notify 
purchasers where information is available with respect to lead 
hazards in a home or an apartment being sold or rented.
    These efforts ensure that the parent can be an active 
participant in addressing those problems. It will require an 
important public education effort, because many times, 
unfortunately, we have seen the problem made worse because of a 
lack of knowledge on the part of the parent or the care 
provider.
    We have all heard the stories of the parents who bought a 
house and then proceeded to sand the lead paint and essentially 
poison their children over the course of the next several years 
while they thought they were upgrading their house.
    Mr. Stokes. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Stokes. Mr. DeLay.

                             global warming

    Mr. DeLay. Thank you, Mr. Chairman.
    I apologize to the Committee for coming and going, 
particularly today of all days. I like being present for Ms. 
Browner's testimony.
    Tuesdays are leadership days. We are in all kinds of 
leadership meetings all day long. So, I will be coming and 
going, Mr. Chairman. It is good to see you again, Ms. Browner.
    I want to direct my questioning, again, as is always my 
concern, to common sense regulations and good science, 
particularly good science. I have always had great concern that 
policies are being made on political reasons rather than good 
science.
    Global warming is one of those things that bothers me 
greatly. I understand that the EPA is moving more and more 
towards priority setting in its activities. Just what 
importance would you place on global warming as compared to, 
say, toxic waste, or children's issues, or pesticides?
    Ms. Browner. I would say, and as I said in my opening 
statement, global warming or climate change is one of the 
greatest environmental and public health challenges we face as 
a nation.
    Mr. DeLay. More important than challenges we face with 
toxic waste or pesticides?
    Ms. Browner. I think that it is important to understand 
that in some communities the immediate issue of a toxic waste 
site may be the most pressing problem.
    For a family with a child who has experienced lead 
poisoning, that may be the most pressing problem. We have to 
maintain our efforts across an array of problems. When we step 
back and look at it from a national perspective, one of the 
greatest challenges is climate change.
    Mr. DeLay. So, I guess what you are saying is climate 
change is more important.
    Ms. Browner. I did not say that.
    Mr. DeLay. Well, you said what people in local communities 
think, but what does EPA think? What does the Administrator at 
EPA think?
    Ms. Browner. Part of our responsibility is to people in 
local communities. It is also to look broadly at the challenges 
and to disperse the resources that Congress makes available to 
us to honor the laws that Congress passes; to be responsive to 
a set of issues.
    Congress, in authorizing the Clean Water Act, the Clean Air 
Act, Superfund, the Food Quality Protection Act, and the Safe 
Drinking Water Act, has given us a list of authorities to 
address a list of problems.
    We make use of all of those. Climate change, we believe, is 
an area where we must increase our activities, given the 
magnitude of the problem. We do not suggest, nor does our 
budget suggest, that it comes at the expense of safe food, of 
toxic waste clean-up, of safe drinking water, of clean air.
    Now, there are some opportunities to work with the climate 
change issues to receive not just long-term benefits to prevent 
problems, but also to receive immediate benefits. For example, 
more energy efficiency not only helps us address the climate 
change problem, it gives you air quality benefits today that 
are important to people in communities across the country.

                            PRIORITY-SETTING

    Mr. DeLay. I do not know what all that means, but I come 
back to the point that I understood that the EPA is setting 
priorities.
    Ms. Browner. Yes.
    Mr. DeLay. If you are setting priorities, in your 
priorities, which is the highest priority? Is it climate change 
or pesticides or toxic waste?
    Ms. Browner. We have 13 major laws that Congress has 
directed us to implement.
    Mr. DeLay. I am aware of those laws, but which is the most 
important?
    Ms. Browner. We would not pick one over the other.
    Mr. DeLay. So, you are not setting priorities.
    Ms. Browner. We are setting priorities within what Congress 
has told us to do. You have given us 13 laws to implement. You 
have told us to act responsibly within each of those statutes 
and we are doing that.
    Mr. Delay. Well then, what does it mean, setting 
priorities?
    Ms. Browner. It means, for example, in the Clean Water Act, 
looking at ways to establish goals and measure progress. One 
example would be to look at the number of combined sewer 
overflows; to evaluate how many of those could be corrected 
within a certain time; what resources would be required.
    Another example would be to look at the issue of lead 
levels in children. To set a goal of reducing the number of 
children who experience elevated lead levels over a period of 
x-number of years; to design a program to do that. That is what 
goals and prioritizing means to us.
    Mr. DeLay. With each of the 13 authorities given to you by 
Congress, you are setting priorities within each of those. Of 
the 13, which is more hazardous to the United States or to the 
globe? You are setting priorities within the 13 statutes.
    Ms. Browner. It is a combination. It is working within the 
individual statutes and what Congress has told us to do. Many 
of those statutes include time frames within which we are to 
act; whether it be to set regulations, to implement programs, 
to achieve production reductions.
    Similarly, we look across the broad lay of the land, if you 
will, and through the budget, for example, by requesting 
resources as we do for climate change to address problems that 
may fall across an array of statutes.

                              KYOTO TREATY

    Mr. DeLay. Well, let me switch to something else. Maybe I 
can just get you to answer yes or no. Under Secretary of State, 
Stuart Eizenstat, recently testified before the Senate that no 
new authority is needed to implement the Administration's plan 
to address global warming, except for the Emissions Trading 
Program.
    He then stated that there is no Administration intention to 
implement without ratification, either back door or anything 
else. Do you agree with both of these statements?
    Ms. Browner. I am not familiar with the statements in their 
entirety. If I understand the thrust of them, yes, I agree. I 
am more than happy to look at the statements in their entirety.
    Mr. DeLay. Well then, is EPA doing anything to implement 
through regulatory programs or whatever?
    Ms. Browner. We are doing exactly what we have been doing 
for the last several years which is working with the business 
community and partnership to find the cost effective 
reductions, the energy efficiencies.
    For example, the Green Lights Program, Energy Star 
Programs. This budget request does in fact include an increase 
for those programs. Those programs are designed both to have 
immediate benefit.
    They do result in reductions of greenhouse gasses and 
frequently in cost savings to the businesses that participate 
in the partnership with us.
    Mr. DeLay. Do you feel that they implement the Kyoto 
Treaty?
    Ms. Browner. They will achieve greenhouse gas reductions. 
There is no secret about that. That has been our effort for the 
last five years to work on voluntary partnerships with 
industry. That is what is maintained in this budget. I do not 
see that as a back door to Kyoto, no.
    Mr. DeLay. Okay. So, what you are saying is you are not 
doing anything to implement Kyoto.
    Ms. Browner. Kyoto sets out very specific requirements, as 
you are well-aware. This budget request would allow us to 
expand our partnerships with the private sector to reduce 
greenhouse gasses. It is not a back door to Kyoto, no.
    Mr. DeLay. So, you are saying, no, you are not implementing 
Kyoto.
    Ms. Browner. The treaty, no. We are reducing greenhouse 
gasses. A 48 million ton reduction would be achieved with 
funding of this budget request.
    Mr. DeLay. I understand that. I want to be very specific 
about implementing a treaty without a ratification.
    Ms. Browner. Senate ratification.
    Mr. DeLay. So, would you unequivocally pledge to this 
committee that for as long as you are Administrator the EPA 
will not directly or indirectly propose or seek Administration 
authority to propose any legislation, rules, or regulations 
that place limits on any domestic carbon dioxide emissions 
before the Senate ratified the Kyoto Protocol?
    Again, I would just like a simple, direct yes or no to 
answer this question.
    Ms. Browner. We have requirements under the Clean Air Act, 
as passed by Congress.
    We are committed to continuing those efforts. None of them 
specifically speak to carbon dioxide. In terms of whether or 
not I would, as Administrator, propose legislation to the 
Congress, I am part of an Administration.
    I will work under the President's direction as a part of 
that Administration. It is up to the President to determine 
what he may or may not recommend to Congress, not me. I do not 
make legislative proposals to this body.
    Mr. DeLay. Well, I understand that. A legislative proposal 
is one thing. What I am talking about is making proposals, 
rules, regulations, promulgating rules and regulations, 
actually that would implement the Kyoto Protocol before the 
Senate ratified the protocol.
    Ms. Browner. Congressman DeLay, the President as well as 
Mr. Talbot and Mr. Eizenstat have laid out what they will do 
vis-a-vis the treaty. Obviously, we honor that.
    I just do not want anyone to think we have misled anybody 
here. You do have a budget request that is also in keeping with 
what the President has said. We will continue to form voluntary 
partnerships with the business community, with those leaders in 
the business community who are interested in doing what they 
can in a cost-effective, common sense way to reduce greenhouse 
gasses.
    We will continue that. That has been ongoing. It, in some 
ways, pre-dates this Administration. Mr. Reilley was engaged in 
this. We have sought to expand those very successful business 
partnerships. We will continue to do that. We ask this 
committee for money to do that.
    Mr. DeLay. I guess what I am hearing is that the President 
might at some point in time, with or without your approval, try 
to implement the Kyoto Protocol.
    Ms. Browner. The President has been very----
    Mr. DeLay. Why would you pledge not to implement the 
protocol until the Senate ratified it?
    Ms. Browner. The President has been very clear and has his 
representatives on that issue. So, nothing in that has changed.
    I just do not want you to say that you were not aware that 
included in EPA and other agencies and departments' budget 
request was money for the voluntary business partnerships that 
do result in greenhouse gas reductions. That is all I am 
saying. It is just that simple.
    Nothing in our commitment, vis-a-vis the Senate and 
ratification, has changed, nor has anything changed in our 
commitment made many years ago that continued from prior 
administrations to work in partnership with the business 
community. You can do both. They are not mutually exclusive.
    Mr. DeLay. Well, Ms. Browner, the Vice President in his 
book, Earth in the Balance, particularly on page 325, refers to 
the fact that automobiles emit greenhouse gasses. It calls the 
internal combustion engine a ``moral threat to the security of 
every nation that is more deadly than any military enemy we are 
ever again likely to confront.''
    President Clinton said, ``many previous threats pose clear 
and present danger. Global warming is far more subtle, warning 
us not with roaring tanks or burning rivers, but with invisible 
gasses, slow changes in our surroundings, increasingly severe 
climatic disruptions that thank God have not yet hit home for 
most Americans. But make no mistake, the problem is real and if 
we do not change our course now, the consequences sooner or 
later will be destructive for America and for the world.''
    Well, if America's present course really is so 
``destructive,'' if global warming really is a mortal threat 
deadlier than any likely future military adversary, then why 
would you not be willing to bend the rules a bit and let the 
political chips fall where they may and implement the Kyoto 
Protocol, in advance of ratification of the Senate?
    Ms. Browner. The President has given his word and we will 
honor that word. It is just that simple.
    Mr. DeLay. Okay. Well, could not a case be made that it 
would be morally irresponsible to let constitutional scruples 
stand in the way of saving the world from a climate 
catastrophe?
    Ms. Browner. We can debate the Constitution if you would 
like. I am sure we will find examples on all sides.
    Mr. DeLay. I think you see a different Constitution than I 
do.
    Ms. Browner. I do not think so. You seem not to be 
persuaded by that case.
    Mr. DeLay. Why? Is saving the Constitution more important 
than saving the planet or is it because our course is not 
really so destructive after all?
    Ms. Browner. If you are questioning my commitment to the 
Constitution----
    Mr. DeLay. I did not say anything about that. I am just 
trying to establish a clear answer from you once and for all 
about where you are coming from and where you are headed.
    Ms. Browner. I have been very clear in my response, with 
all due respect.
    Mr. DeLay. Well, with all due respect, it is hard to 
understand your responses.
    Ms. Browner. Let me try again.
    One, I support the Constitution.
    Two, the President has been clear in his statements to the 
Senate about the treaty and ratification of the treaty. The 
Administration continues to stand by those.
    Three, the President has been equally clear that it is 
important to continue our partnerships with the business 
community to find the cost effective, common sense ways to 
achieve greenhouse gas reductions and we are doing that; 
nothing more or less.
    For example, you raised the issue of cars. This 
Administration has had a tremendously successful relationship 
with the automobile industry.
    Just several weeks ago, the Vice President joined me and 
the Big Three, as well as the foreign manufacturers in an 
announcement of a tailpipe emissions reduction which is 70-
percent cleaner.
    That is good for every single person in this country who 
cares about the quality of the air they breathe. Similarly, we 
are working through the partnership for a New Generation of 
Vehicles, which is a partnership with industry.
    Mr. DeLay. Ms. Browner, I am not talking about all of that. 
I am talking about the Kyoto Protocol and whether you are going 
to implement it.
    For an agency that does not have legal authority to 
implement the Kyoto Protocol, whether you call it 
implementation or not, the following strikes me as a series of 
actions whose funding is in serious jeopardy.
    Page 15 of the EPA's First Strategic Plan required by the 
Government Performance and Results Act states as EPA Goal No. 
6, ``the U.S. will lead other nations in successful, multi-
lateral efforts to reduce significant risks to human health and 
eco-systems from climate change.''
    In the discussion of Goal No. 6, your plan states, ``U.S. 
greenhouse gas emissions will be reduced to levels consistent 
with international commitments agreed upon under the Frame Work 
Convention on Climate Change, building on initial efforts under 
the Climate Change Action Plan.''
    Now, is that not implementation?

                       KYOTO TREATY RATIFICATION

    Ms. Browner. That assumes ratification of the treaty.
    Mr. DeLay. Does it say anywhere in your strategic plan 
``assuming ratification of the treaty?''
    Ms. Browner. That is inherent. You cannot act or implement 
the treaty outside of ratification. That is what the President 
has said. There is nothing in this that disagrees with that; 
nothing.
    Mr. DeLay. It is your request for money to accomplish this 
for next year.
    Ms. Browner. Our request for funding is to build our 
partnerships in the Green Lights Program, in the Energy Star 
Program to work, for example, on TVs that use less energy, on 
VCRs that use less energy.
    It is to work with the industrial sector to achieve a more 
efficient use of energy; to double the rate of energy 
efficiency improvements; to work with the transportation sector 
on a Partnership for a New Generation of Vehicles.
    These are activities that pre-date the Kyoto Agreement. 
These are activities that, in many instances, pre-date this 
Administration. These are activities that the business 
community welcomes. I would hope that we would see bipartisan 
support.
    Mr. DeLay. Why would you need so much money for these 
voluntary programs, if you are not trying to implement Kyoto?
    Ms. Browner. We work in partnership with the business 
community which is something you have certainly counseled us 
many times to do.
    Mr. DeLay. But your stated goal is to implement the 
international agreement.
    Ms. Browner. The question, as I understand it, is whether 
or not this Administration will make an effort to implement the 
various points of the Kyoto Treaty absent ratification? The 
President has been very clear on that issue and nothing in this 
changes that; nothing.
    Mr. DeLay. Mr. Chairman, I appreciate the Committee's 
indulgence. The President has been very clear on a lot of 
things that he turns around immediately on when it suits his 
purpose.
    Mr. Lewis. Thank you Mr. DeLay. Ms. Kaptur.

                    clean water state revolving fund

    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome, Administrator Browner. I have to say, I have been 
in Congress for a little while now and deal with a lot of these 
agency and department heads.
    I give you 100-percent for always returning your phone 
calls, for trying to be responsive to local communities, even 
when they are not the mega communities of the country. It is 
appreciated and it is noted. We also thank your staff.
    I do not know what is going to happen to you when you 
complete your tenure at EPA, but you know the Regional 
Administrator from out there in Chicago that we had to deal 
with all of those years became President of Lithuania. I do not 
know what your future holds, but I have a hunch it is very 
good. Now, as you know, I represent the bath tub of the Great 
Lakes, Lake Erie. We have lots of swimming, lots of fishing.
    I just asked George Wilson, my very capable staff 
assistant, I said, when was the first Earth Day? I know I lived 
then, but when was it? He said he recalled it was 1970.
    I just have to say in view of some of the more technical 
questioning that has gone on, and I know Congressman Stokes, 
the Dean of our Delegation, would agree that Lake Erie looks a 
lot better than it did. (Other parts of the country will have 
to defend themselves.) It is at least half clean now, but we 
are not finished with the job. We know that the whole concept 
of environment in our own lifetimes has been enlarged in the 
minds of the American people and the people of the world.
    That has been a very, very good accomplishment. So, at the 
same time as we may question aspects of this budget or any 
other budget, we do live, I think, in a country that has grown 
up in this last quarter of the century. You obviously have been 
a leader in that regard.
    I'll ask some of the questions I have, and I have a few 
here, then I will wait for the second round.
    We still are struggling with the issue of clean water in 
our area. The City of Toledo, for example, has an old sewage 
treatment plant, the Bay View Sewage Treatment Plant, which 
really needs to be enlarged. When we run into trouble and in 
fact get cited by EPA and end up in court and all of the rest. 
We have these sewage overflows.
    Essentially, the problem is the plant is not big enough to 
handle all of the run-off and the sewage. There is a lot of 
lake flushing that goes on as a result. There are some 
technical projects that are being pursued through the 
cooperation with the locality and EPA to build these big 
holding basins under the city.
    Essentially, you have got this little pip-squeak of a plant 
trying to handle all of this. My question is, where in the 
budget, and I know we are not the only community like that, 
where can a community like mine get help when its facilities 
are really over taxed? Where are they going to get the kind of 
money that would be required to expand the plant?
    Ms. Browner. There is included in this budget the Clean 
Water State Revolving Fund. That money is distributed among the 
states according by a formula approved by Congress.
    The funding level that we are requesting would have that 
revolving fund revolve nationally at $2 billion per year in the 
year 2005. So, that is where they go to get the money. They go 
to the state.
    We give the money to the states. The total for the drinking 
water and clean water is $1.850 billion, which is divided among 
the states. Then the states allocate it to the individual 
projects.
    Ms. Kaptur. But there is no proposed increase in this 
budget. Is it not pretty much flat in that program?
    Ms. Browner. It is honoring the $2 billion commitment. One 
of the difficulties here is the Clean Water Act. I do not want 
to bring it up. It has not been reauthorized.
    So, we are working outside of that context, given that the 
President made a commitment several years ago to the states to 
see the Clean Water Fund revolve at $2 billion. This funding 
request is consistent with that commitment.
    Ms. Kaptur. So, strategically, how would that help a 
community like ours access greater resources than it currently 
has to deal with basic hardware?
    Ms. Browner. Over $1 billion will be divided among the 
states, if this funding request is approved, specifically for 
waste water.
    Ms. Kaptur. All right. And that you say would not happen, 
though, until 2005?
    Ms. Browner. No, I am sorry. The money is handed out each 
year to the states based on the Congressional appropriations. 
When we have completed our current commitment in the year 2005, 
it runs somewhere around $1 billion plus each year.
    In the year 2005, the total amounts of loans that would be 
available will be revolving at $2 billion. Each year, there is 
an appropriation which is then divided up among the states 
based on a formula.
    Ms. Kaptur. All right.
    Ms. Browner. Then the projects go get it from the state. 
Your state should have a list of projects that they are looking 
to fund. They prioritize and then they provide the money as it 
becomes available.
    Ms. Kaptur. I am going to take that portion of the 
testimony and give it to our local mayor and president of the 
city council.
    Ms. Browner. We will check and see the project you are 
concerned about.

                         dredged material reuse

    Ms. Kaptur. Our local newspaper just did some pretty good 
reporting for a change on what our situation is with basic 
hardware for waste water disposal in our community.
    One issue I wanted to bring to your attention because your 
Agency is involved, the Army Corps of Engineers is involved, 
and the Department of Agriculture is involved.
    Being a Great Lakes representative, for years we have 
struggled with this clash between EPA and the Army Corps on 
disposal of dredged material. Really, it has been at an impasse 
for a long time.
    They reach these little agreements at the state level and 
the regional level, but the fundamental problem is that we are 
always going to have this dredged material. The question is, 
are we going to continue to fill in CDFs, which obviously EPA 
has wanted over the years and which are very expensive.
    We challenged the Department of Agriculture and it took one 
decade to do this; one decade. This member batting her head 
against the wall on three different committees.
    We finally got the Army Corps through its Vicksburg, 
Mississippi research site, and the USDA, to take samples from 
three different places around the country, including the Great 
Lakes, New York, and there is one other place that they are 
doing, to test the level of toxic material.
    The findings are extremely interesting. Depending on where 
the dredged material is from, obviously, the heavy metals and 
so forth have different levels. We have technologies to lock in 
those metals.
    We very much want to be able to reuse these dredged 
materials. My only comment here this morning is that we believe 
there are end users for these materials, such as Scotts and 
other companies, that are looking for organic compliments.
    I would just encourage you and members of your staff who 
are responsible in these areas to work with our office to take 
a look at what the Corps is doing.
    We really think we have something here that is very, very 
important. Long-term, this will be environmentally useful and 
save hundreds of millions of dollars in our current disposal 
practices.
    I think it will get you out of the loop you are in which is 
just clashes with the Corps. So, if we had not worked on it for 
a decade, I probably would not mention it, but after awhile you 
just start to do these things and try to help others benefit 
from the efforts that we have put in.
    So, I would just commend that information to you and ask 
for EPA's cooperation in this to find a new answer for the 21st 
Century and stop wasting all of this money on legal battles and 
building these CDFs where they are not necessary.
    Ms. Browner. Thank you.

           animal feeding operations: federal and state roles

    Ms. Kaptur. I also wanted to ask a question. Mr. Hobson 
talked about industrial agriculture. One of my other major 
assignments here is agriculture.
    This industrial agricultural issue where we have these mega 
facilities, including Somo in Ohio, has certainly caught my 
attention. One of my questions is how do you view the federal 
versus the state role of EPA in regulating these facilities? 
How often do you leave it up to state discretion versus 
regional intervention?
    Ms. Browner. As we move forward from here, one of the 
important discussions that will take place is the appropriate 
balance between EPA and the states.
    It is generally our desire to see the states handle issues 
such as this on a day-to-day basis when the resources and the 
technical know-how are available.
    I actually think that we have been working with people in 
your state on this issue looking at how to best structure the 
federal state relationship.
    I want to be very up-front about it. That is one of the 
issues that will be the subject of great discussion as we 
listen to people on our draft strategy, as we finalize that 
strategy and then move into proposed and final rulemaking.
    Ms. Kaptur. Ohio will be one of the big agricultural 
states. Lots of these mega companies are coming in. I would 
have to say that the response that the State has been exceeding 
slow in my judgment.
    Others in my state may choose to disagree with me. I really 
think that EPA, in these discussions, has got to maintain a 
federal role. There ought to be some way for concerned 
citizens, township trustees, people without a lot of legal 
clout frankly to get their voices heard earlier; particularly 
where fines may be applied; whether it be your agency or other 
federal agencies.
    Some of these plants ought to be on a watch list. So, I 
would encourage you on in your efforts here. I hope you will 
keep our office informed. I think my five minutes may be up, 
Mr. Chairman. I thank you very much and I will wait for the 
second round of questioning.
    Mr. Lewis. Thank you, Ms. Kaptur. Mr. Frelinghuysen.

                      superfund: new jersey sites

    Mr. Frelinghuysen. Administrator Browner, first of all, I 
want to thank you for visiting my Congressional District.
    We have more Superfund sites in New Jersey, specifically in 
my District than any other in the nation. So, your physical 
presence at one of those sites that I have constantly talked 
with you about, Pepe Field, was a thrill for the locals and for 
me.
    We appreciate the news that you brought with you. I want to 
commend you for your hands-on approach, but also the work of 
your staff and Region II. They have been out there whenever I 
have been out there. I suspect and hope that they are out there 
when I am not out there.
    Ms. Browner. They are.
    Mr. Frelinghuysen. We have so many sites to clean-up that 
there is nobody that does not live within five miles of one of 
these Superfund sites. I want to thank you for your time and 
effort.
    Ms. Browner. Thank you.
    Mr. Frelinghuysen. It was a horrible day. You flew up and 
God only know. I assume you got back safely.
    Ms. Browner. Well, I am here.

                     superfund: funds spent to date

    Mr. Frelinghuysen. A few questions that relate to the 
program, some of which I have asked before, but I think are 
good for the public record.
    Can you give me an idea of how much money has been spent on 
the Superfund Program to-date? We often have this debate in the 
public arena about Federal money versus potential responsible 
party dollars.
    I think the public benefits by knowing what they put 
forward in their own tax dollars and what responsible parties 
put forward.
    Ms. Browner. About 75-percent of clean-up costs are now 
covered by responsible parties; the parties who have agreed to 
enter into a consent decree or whatever mechanism to undertake 
the clean-up.
    The total amount to-date, going back to 1981, the private 
party expenditures have been approximately $14 billion. The 
government expenditures approximately $17 billion.
    Mr. Frelinghuysen. Thank you for that response.
    I know you had some questions prior to my arrival. I had a 
conflicting hearing. So, I apologize for not being here during 
your opening remarks. Relative to your overall budget, do you 
anticipate you will spend all of the money we gave you? Will 
there be any carry over funds?
    Ms. Browner. There will be some carry over funds, but that 
is accounted for.
    Mr. Frelinghuysen. Could you tell us what the carry over 
amount is?
    Ms. Browner. For Superfund?
    Mr. Frelinghuysen. Yes.

                       superfund: reauthorization

    Ms. Browner. In fiscal year 1997 it was $85 million.
    Mr. Frelinghuysen. I also understand you commented on the 
need to reauthorize Superfund and that you had spent a lot of 
time and effort in that regard. I commend you for it. Are all 
the parties at the table, so to speak?
    Ms. Browner. There is no table, well, as of today. We were.
    Mr. Frelinghuysen. But prior to today, were all parties at 
the table?
    Ms. Browner. The discussions that I referred to involved 
the Transportation Infrastructure Committee, Mr. Boehlert's 
subcommittee. The parties at the table included EPA and other 
federal agencies; Mr. Borski and Mr. Boehlert.
    There were other people there too. I think Mr. Young had a 
representative there. Mr. Schuster had representatives there, 
but the primary parties were EPA, Mr. Borski and Mr. Boehlert.
    Mr. Frelinghuysen. So, you are not giving up on the 
process, since I did not have the benefit of hearing what you 
said earlier.
    Ms. Browner. No. I apologize. We would gladly go back to 
whatever table, whenever, to discuss whatever. We continue to 
want to see a bill. We were obviously disappointed. I think we 
made some real progress.
    I do not want to speak for Mr. Boehlert or Mr. Borski but, 
in my opinion, we made some progress. We found some common 
areas of agreement. Mr. Boehlert has decided to go forward with 
a mark-up this afternoon. As we understand it, we will not 
support the marked up bill. We will oppose it.

                   superfund: funds spent for cleanup

    Mr. Frelinghuysen. Would you comment briefly on, and I am 
sure you are familiar with the September 1997 GAO Report about 
how Superfund dollars are spent and their contention that 44-
percent of every Superfund dollar goes towards the Superfund 
clean-up?
    Ms. Browner. I would like to respond to that.
    Mr. Chairman, this is an issue that has been raised by 
other Members. I think that it is important that we set the 
record straight here.
    The GAO had done, I think, ten studies of Superfund in 
fiscal year 1997. Several of them have gotten a lot of 
attention; this one in particular. I think the GAO study says 
that only 49-percent of the appropriated dollars actually go to 
clean-up.
    I think it is important to understand what they did in this 
study. We disagree with this study. The easiest way for me to 
explain it is, if you were building a house, you would have the 
cost of hiring the contractor, buying the wood, buying the 
windows and all of that.
    You would also say that inherent in the cost of that house 
was hiring the architect, doing the soil test, hiring the 
engineer, getting the permit to run the drinking water to the 
house.
    In the GAO study, if you equate it to a house, the only 
thing they are counting is hiring the contractor. They do not 
count the architect. They do not count the engineers. They do 
not count the analysis.
    You cannot build that house without all of that other 
activity. If you take all of that activity rightfully necessary 
to have a site cleaned up, and this would not include the 
lawyers which people ought to ask about, the number is actually 
78-percent of the budget that goes to clean-up. So, we do have 
a disagreement with GAO. Perhaps they did not intend to do 
this, but the appearance they create is that only 48-percent 
goes to ``clean-up.''
    We could not be at Pepe Field if the studies had not been 
done. Those studies should be properly accounted for in the 
expenditures and in the statements about what it costs to 
clean-up a site.

             brownfields: prospective purchaser agreements

    Mr. Frelinghuysen. All right, fair enough.
    You had in your opening comments or remarks a comment 
relative to expanding and strengthening your brownfields 
partnership.
    On page 39 of your budget justification concerning 
brownfields you state, ``the EPA will address liability 
barriers in the Brownfield Program by issuing comfort status 
letters or prospective purchaser agreements in appropriate 
instances which will facilitate sustainable redevelopment of 
these properties.''
    Are these comfort letters and purchaser agreements legally 
binding? Does the EPA retain the right to sue individuals that 
purchase brownfield property? If they are not legally binding, 
do you think that a comfort letter is sufficient in ensuring 
potential buyers that they will not be held liable?
    Ms. Browner. That is the purpose of the letters for 
prospective purchasers. The issue in brownfields is parties who 
had nothing to do with the prior contamination want to come in. 
They address the modest clean-up issues, and then redevelop the 
site.
    We have worked very closely with the American Bankers 
Association and any number of institutions, the developers, 
realtors, et cetera, that represent these parties to craft 
these letters to give them the protection they think is 
necessary to proceed with the project.
    We are using them. People are taking the letters and using 
them. By all accounts, it is working. How many of the letters 
have we issued? Do you know? This is Steve Herman.
    Mr. Herman. I am not sure how many we have issued. The 
agreements are binding.
    Ms. Browner. The agreements are binding.
    Mr. Herman. I am the Assistant Administrator of the Office 
of Enforcement and Compliance Assurance.
    Mr. Frelinghuysen. So, the contracts are legally binding. 
The comfort letters are not?
    Mr. Herman. The comfort letters are not binding, but they 
have been found acceptable by the bankers and by other 
developers in terms of giving the reassurance they need. They 
provide EPA or others at the site with the assurance that if 
something totally unexpected happens we can act.
    Thus far, they have been actually fairly successful. We 
have been able to move ahead on several large projects in 
Philadelphia and some other places on the basis of the comfort 
letters.
    Ms. Browner. We use what is called a Prospective Purchaser 
Agreement. That is the binding one.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. I will have 
additional questions later.
    Mr. Lewis. We will be back this afternoon, of course.
    I wanted to clarify though for you; earlier as you were 
talking about the reauthorization of Superfund. The deadline is 
May 15.
    After Mr. Boehlert's committee would work on it, there is 
another committee of jurisdiction which is the Commerce 
Committee. Such an action would then have to go to the floor. 
Then it would have to go to the conference.
    We are out for three weeks in April. So, there is a little 
bit of a problem. Mr. Mollohan.

                air quality standards: inhofe amendment

    Mr. Mollohan. Thank you, Mr. Chairman.
    Madam Administrator, it has been reported that you have 
recently reached an agreement with Senator Inhofe with regard 
to the National Air Quality Implementation Plan. Is that 
accurate?
    Ms. Browner. Mr. Inhofe and I have discussed implementation 
of the new public health air standards. He has now attached an 
amendment to ISTEA. We do not oppose that amendment.
    Mr. Mollohan. Does that amendment represent an agreement 
between you and he? Does it reflect your concurrence as to the 
particulars that are contained in the amendment?
    Ms. Browner. The amendment reflects the implementation plan 
that we announced as a part of the new public health standards 
last summer.
    Mr. Mollohan. So, you agree with the provisions of the 
amendment.
    Ms. Browner. Yes.
    Mr. Mollohan. Your last statement would imply to me that it 
does nothing more than affirm what you intended.
    Ms. Browner. Correct.
    Mr. Mollohan. Is that correct?
    Ms. Browner. That is correct.
    Mr. Mollohan. You really gave a lot here; did you not?
    Ms. Browner. Well, it is very important to many people to 
see it in legislative language as opposed to a Presidential 
Executive Order. We worked with Mr. Inhofe and others on the 
Senate side to achieve that.
    Mr. Mollohan. The last point I would like to make out of 
that is do you affirm your agreement with that implementation 
plan, and the five-year monitoring schedule, and the three-year 
implementation for non-compliance areas irrespective of the 
enactment of the ultimate enactment of that amendment?
    Ms. Browner. Absolutely. We stand by the implementation 
plan which was laid out in great detail and provided, I think, 
to every Member of Congress and put into Congressional Record, 
embodied in a Presidential Memorandum.
    Mr. Mollohan. Thank you. Also, a part of thatagreement, I 
understand, and may be a part of your intention to have the Federal 
Government pay for the monitoring activities of the states.
    Ms. Browner. Yes. We had already made that agreement and in 
fact worked very closely with this subcommittee last year to 
honor that agreement.
    You provided some additional dollars during the 
appropriations process. This spells it out. The amendments 
spells it in one sentence saying that is the case.
    Mr. Mollohan. All right. Thank you.
    Ms. Browner. Thank you.

                ozone transport assessment group (otag)

    Mr. Mollohan. I would like to ask you a couple of questions 
about the Ozone Transport Assessment Group, OTAG. Who are we 
going to tag, kind of what that is all about.
    The starting point for my question is that one of the 
operative words there and that is assessment. There are lots of 
messages conveyed in titles we give to things.
    I think the Ozone Transport Assessment Group kind of 
presumes that there is transport. Of course, that is given. The 
question is what kind of transport; how much transport; how 
far; quantities; qualities; and then what is the chemistry 
involved of any transport within what ranges?
    I am concerned that EPA might make or might be making 
decisions about what kind of emission reductions are required 
in, say, the high valley or in the transporting states, even 
Mississippi I guess we are looking at.
    Ms. Browner. Mississippi was a part of OTAG.
    Mr. Mollohan. Yes. What you are assuming----
    Ms. Browner. Mississippi was not one of the states. They 
were a part of the process. Every state east of the Mississippi 
was a part of the process.
    Mr. Mollohan. You understand that I really do not even 
care.
    Ms. Browner. Okay. I do not want anyone from Mississippi to 
suddenly care.
    Mr. Mollohan. Sorry.
    Ms. Browner. There will be a special edition of Inside EPA 
tomorrow.
    Mr. Mollohan. I, of course, do because they are putting so 
much loading in there that it is causing all of these problems 
for all of these states. If we could just reduce for 
Mississippi, we could solve the problem.
    So, I would like for you to talk a little bit about the 
monitoring results and how you are assessing those results and 
what kind of premises that is laying for decision making on 
your part with regard to emission reductions in different 
areas.
    Ms. Browner. The OTAG process, the Ozone Transport 
Assessment Group, was made up, as I have said, of the states 
who worked over a two-year period to evaluate information, 
modeling information, air quality data, and then made a series 
of recommendations to EPA as to how to address the transport 
issue.
    Mr. Mollohan. The whole idea is to help states in the 
Northeast. I mean the premise being that there is some 
transport of ozone to the Northeast that is making it hard to 
achieve compliance with their state implementation plans with 
regard to those.
    Ms. Browner. I would state the premise just a little bit 
differently.
    Mr. Mollohan. Okay.
    Ms. Browner. But you sort of have it.
    Mr. Mollohan. Well, you state it.
    Ms. Browner. The premise is that one state's pollution is 
contributing to a pollution and a public health problem in 
another state. That may happen in the Northeast. It may happen 
in other areas. That is the premise of the effort. Chicago to 
Michigan is another area where that might happen.
    Mr. Mollohan. To find out to what extent is that a correct 
premise.
    Ms. Browner. Right. The states spent, as I said, two years 
looking at very complicated modeling, which we would be happy 
to demonstrate to Members of this committee. It is actually 
quite interesting to watch. You can see it.
    Mr. Mollohan. I would be fascinated with that.
    Ms. Browner. We would be more than happy to set-up a 
demonstration.

                       ozone pollution dispersion

    Mr. Mollohan. Is not one of the things you found in that 
modeling exercise is that the transport has, I do not know 
exactly how I am going to say it, but there is a direct 
relationship between the impact of the emission and the 
distance to which it is transported?
    In other words, that there is a diminished affect, a 
lessening effect the farther away you get from the source.
    Ms. Browner. What the states found--this is their effort 
that they then brought to us--is that within some air sheds 
pollution is moving x-distance and in other air sheds it is 
moving y-distance. It was a very complex effort.
    Mr. Mollohan. Are you able to talk about that?
    Ms. Browner. The further you get away from a source--and in 
some air sheds that may be 200 miles, in another air shed that 
may be 400 miles--you ultimately get dispersion.
    There is always going to be the phenomenon, whether it is 
water or air, that dilution changes the pollution. Some people 
would say the solution to pollution is dilution. So, you do 
have some effect. If I might give you just a second on where we 
are in the process.
    Mr. Mollohan. Sure.

                              otag process

    Ms. Browner. The states went out and gathered data and ran 
these complex models. Then they made a proposal to EPA in terms 
of what reduction levels would be necessary to achieve the 
public health goals or to achieve the public health standards.
    We then issued a proposed notice of rulemaking, which we 
are now taking comment on, that would require states to make 
adjustments in their state implementation plans based on the 
work that the states did.
    We have not finalized that rulemaking. That would happen 
this fall. Then there would be one year for the states to 
rewrite their plan.
    Mr. Mollohan. Okay. Thank you.
    Ms. Browner. Okay.
    Mr. Mollohan. I appreciate knowing all about it. To what 
extent, getting down to the particulars, did the modeling show 
with regard to distance and the effect of over distance and the 
impact of the source in the receptor area?
    Ms. Browner. That is not a question that can be answered 
generically. We would be more than happy if you have a specific 
air shed you want an answer on because it will vary.
    Mr. Mollohan. I am glad to hear you say that because I 
think if you deal with this on specific air sheds and specific 
sources, it would be a lot better process.
    Ms. Browner. Some have suggested that it be dealt with. As 
you know, the northeast states have filed litigation saying 
deal with it on a site-specific basis.
    Mr. Mollohan. Do you agree or disagree that the problem 
with the proposal is that the OTAG modeling strongly suggests 
that the airborne transportation of ozone is only a concern 
within a radium of 150 miles?
    Ms. Browner. Absolutely not. I do not agree with that 
statement. I do not agree that there is an error, if you will, 
in the proposed notice of rulemaking.
    We are taking comments. We have not made a final decision. 
We will review all of the comments, but at this point we would 
not say there is an error or not.
    Mr. Mollohan. What do you mean an error? Tell me about 
that.
    Ms. Browner. I thought you had said that there was an error 
in the notice.
    Mr. Mollohan. No, I did not say that.
    Ms. Browner. I apologize. Then I misheard you.
    Mr. Mollohan. I did not say that.
    Ms. Browner. Okay. I apologize.
    Mr. Mollohan. I said, do you agree that the transport of 
ozone is only a concern within a range of 150 miles and that 
the modeling in this showed that?
    Ms. Browner. No. We cannot agree to that across theboard. 
In some areas, it will be greater.

            sip requirements: northeastern states compliance

    Mr. Mollohan. To what extent have these northeastern states 
complied with their SIP requirements?
    Ms. Browner. All of the northeastern states now have in 
place a SIP plan that they are working on.
    Mr. Mollohan. To what extent have they achieved compliance?
    Ms. Browner. We would be more than happy to provide you 
with that on a state-by-state analysis. They all have different 
deadlines, different agreements, but we can provide that to 
you.
    [The information follows:]


[Pages 71 - 108--The official Committee record contains additional material here.]



    Mr. Mollohan. All I am asking you is have all of the New 
England states met their SIP requirements?
    Ms. Browner. They all have in place their plans.
    Mr. Mollohan. I know that. Have they achieved compliance 
with those plans?
    Ms. Browner. Some of----
    Mr. Mollohan. I mean, that is just a yes or no, ma'am.
    Ms. Browner. It is not a yes or no and I will tell you why.
    Mr. Mollohan. Okay. Please do that.
    Ms. Browner. Because they have deadlines within their SIP 
plans and some of those dates have not come to pass, but that 
does not mean that they are out of compliance with their SIP.
    Mr. Mollohan. I am not saying they are out of compliance 
with their SIPs. Have they achieved the reductions set forth in 
their SIP?
    Ms. Browner. They are on track to achieve them in the time 
frames provided.
    Mr. Mollohan. Okay. Well, I just want to understand that 
without good science, I mean you fight this really, but the 
mid-western and the high valley states or is this presumption 
that emissions from there are contributing to, let us say, 
ozone in the northeast?
    That may or may not be true. But to impose emission 
reduction requirements without understanding to what extent is 
that true, over what distance is that true, without knowing the 
particulars of that can be, first of all, it is wrong just to 
assume the problem.
    That is why we are doing the modeling and not to be precise 
about that imposes tremendous economic hardship on an area that 
has already assimilated an awful lot of statutory and 
regulatory activity.
    So, I would simply encourage an openness with regard to 
what is the science here and to try to factor in the science 
results and the modeling, when you were so adamant about 
saying, no, there is no affect over distance, and no, I do not 
agree. It is just kind of the approach to it. All we are really 
asking is to be more precise about it and to establish these 
relationships in a more definitive way, instead of kind of the 
Chicken Little, the sky is falling, as we did with the acid 
rain.
    I mean obviously the conclusion of the report that 
something to the effect that the more NO<INF>X</INF> that is 
reduced, the greater the benefit. I mean, you know, who cannot 
agree with that?
    That is really not the issue. The issue is if we are trying 
to address a problem of the northeastern states achieving 
attainment, and we are trying to factor in well what part of 
the problem is caused by long distance transport, that is a 
very precise sort of question which needs good science, and 
good modeling, and a real understanding before you impose 
blanket 85-percent across the board emission reductions, or in 
West Virginia's case 44-percent emission reductions. So, that 
is all we are asking is a little precision.

                              sip process

    Ms. Browner. That is the process we are in now, which is 
for every state, every industry that could be affected, to give 
us any additional information.
    I just want you to understand that we spent many years 
sitting with your state and many other states up here. This is 
not Chicken Little. This is based on a volume of data that is 
quite extensive.
    Mr. Mollohan. Amendments to the Clean Air Act, you know, we 
were in the middle of the air quality study when you imposed 
that and the results were really not supporting.
    I say we are in the middle of that and you are agreeing, as 
I understand it. I am going to wait until after recess to ask 
you about that.
    Ms. Browner. What am I agreeing to? If I could know what 
you think I have agreed to?
    Mr. Mollohan. No, no, no. I am going to tell you so you can 
think about it. I will do that.
    Ms. Browner. Okay. That would be helpful.
    Mr. Mollohan. I would like to ask you what you have agreed 
to with the northeastern states in the suit and the settlement. 
So, when you say we are in the middle of this study and then we 
are agreeing on----
    Ms. Browner. I am sorry?
    Mr. Mollohan. I said we are in the middle of this process.
    Ms. Browner. I did not say study.
    Mr. Mollohan. I understood you to say that.
    Ms. Browner. I said we are in the middle of a process.
    Mr. Mollohan. Okay. We are in the middle of a process.
    Ms. Browner. Taking public comments.
    Mr. Mollohan. So, for you to go and make settlements and 
agreements with the Northeast that affects this process before 
we are done with that process.
    Ms. Browner. Well, no, actually; we can explain that.
    Mr. Mollohan. Well, I look forward to you doing that.
    Thank you.
    Mr. Lewis. Thank you Mr. Mollohan.
    I must say that Mr. Mollohan was carrying us through a 
process I know was not totally comfortable.
    Ms. Browner. I am fine. I am totally comfortable. I am 
fine.
    Mr. Lewis. One could go through the same process, though, 
relative to global warming and some would take you through 
that. There are 2,500 scientists who would agree with one side, 
but some people would say that there are 2,500 scientists who 
would agree with the other side; another argument.
    At any rate, the Gentle Lady, Ms. Meek, has been very 
patient.

                          budget summary chart

    Ms. Meek. Thank you, Mr. Chairman.
    As a neutral party, I can say I went through this same 
argument last session; the question of the Administrator here 
about these same principles. So, I am well-versed on these 
kinds of matters.
    I would like to commend the Administrator for the view the 
public has of EPA. I think that is good. The Washington Post 
has shown that civil servants rank more highly with thepublic 
than we do as elected officials.

                          budget summary chart

    We certainly want you to keep that distinction. We want EPA 
to work to get even higher on this ranking in terms of public 
support. My question, though, is one that has to do with your 
chart, Madam Browner, that you have at page 12 of your budget 
summary.
    I want you to explain to me how this graph works. They did 
not make these kinds of graphs when I was coming though school. 
Tell me what that means in terms of Trust Funds. I cannot seem 
to get a handle on it.
    Ms. Browner. If I cannot explain this, if they have to 
explain it to me, I am the first to agree we should take this 
chart out.
    Ms. Meek. Okay.
    Ms. Browner. I think I can explain it. Okay, I got it.
    Ms. Meek. All right.
    Ms. Browner. The gray section of the chart, the bottom 
dollar amount, is the total amount for what we refer to as 
water infrastructure. That would be the Clean Water State 
Revolving Fund and in the later years the new Drinking Water 
Revolving Fund.
    For example, in 1999, the $2 billion plus, every dime of 
that goes out to the states to be divided on a formula basis to 
improve drinking water, to improve waste water. The next piece, 
the black on the chart, the $2.1 billion in year 1999, is what 
is commonly referred to as the Trust Fund Programs.
    The lion's share of that is the EPA Superfund Program. The 
only other thing really in there is the Leaking Underground 
Storage Tanks, the LUST Program.
    Those are carried as a Trust Fund because a tax 
historically has been collected and placed in a trust fund for 
the fund of those programs. So, that is Superfund and Leaking 
Underground Storage Tanks.
    The white portion of the chart is everything else we do, 
from food quality, to right to know, to children's health, to 
research and development, the work we do with universities, 
everything else we do.
    So, if you really think about money to the states for 
water, drinking water, waste water, Superfund, underground 
storage tanks, and everything else, including other money we 
give to the states.
    There is other money in this pot up here that goes to the 
state.
    [The budget graph follows:]


[Page 112--The official Committee record contains additional material here.]



    Ms. Meek. I am satisfied with that because I did not 
understand anything before your explanation.
    Ms. Browner. I agree that we could have done a better job 
on that chart.

                              trust funds

    Ms. Meek. How do you handle your trust funds?
    Ms. Browner. There are essentially three fees that 
historically have been collected that go into two different 
trust funds. Two of those are not being collected and have not 
been collected for two and a half years now.
    There is a tax on chemical feed stock and a percentage of 
the corporate environmental income tax that has been used to 
fund Superfund. Those fees have not been collected for two and 
a half years.
    The fund still has money in it. Collections were higher 
than people had anticipated; as well as interest and repayments 
to the fund. Since January 1996, those fees and taxes have not 
been collected.
    Ms. Meek. Thank you. That was one of my questions. I can 
wait for the others until after the break.
    Mr. Lewis. Well, you know, you might very well want to 
complete your questions for this round. We are going to recess 
as soon as you are through until we come back again at 2:00 
p.m.

 historically black colleges and universities (hbcu) participation in 
                                  star

    Ms. Meek. All right. My next question, Ms. Browner, has to 
do with your training program. You have the Fellowship and 
Research Grant Program.
    Ms. Browner. Yes.
    Ms. Meek. Tell me, what is going on in that? It is so cold 
in here, Mr. Chairman, I am losing my voice. Tell me what is 
going on with Historical Black Colleges and Universities in 
that program?
    Ms. Browner. We work with HBCU's through the Science to 
Achieve Results Program, the STAR Program. The STAR Program has 
been a huge success. It allows us to access the scientific 
efforts, research activities of individuals outside of the 
Agency where we think that work may be of benefit to us.
    It is a competitive grants program. We solicit applications 
through the HBUC's quite actively.
    Ms. Meek. How many do you have?
    Ms. Browner. We will get you the answer.
    Ms. Meek. All right.
    [The statistical information on the STAR Program follows:]

                       HBCU Applications to STAR

    In fiscal year 1997, EPA received a total of 32 
applications from HBCUs under the STAR program, including 10 
under the STAR grants program and 22 under the fellowship 
program.

       post-doctoral research: participation by african-americans

    Ms. Browner. We do have another program for what we call 
our Post-Doc Initiative.
    Ms. Meek. Is that the Post-Doctoral Program?
    Ms. Browner. Yes; to bring people into the Agency. In STAR, 
the people stay outside of the Agency and continue at their 
university in their graduate program.
    The Post-Doc Program is to bring in 50 post-docs to the 
Agency for three years to work with us on areas of mutual 
concern. There, we are working to ensure that the minority 
academic community is appropriately represented.
    Ms. Meek. The reason why I am asking these questions is one 
is the fact that I am not sure this time. I remembered your 
figures from the past, just how many African-Americans you have 
in some of these programs because I am sure you should be 
trying to grow your own.
    Ms. Browner. We are trying.

                       minority employment at epa

    Ms. Meek. When I look at the people who are with you today, 
I do not see very many black faces. They may be back home, but 
they are not here. So, it seems you have some efforts.
    Ms. Browner. Yes, we do.
    Ms. Meek. I just needed to know to what extent you have 
people in those programs.
    Ms. Browner. We do have a number of efforts to work 
withHBCU's and other minority academic institutions. We have also had 
programs within the Agency to ensure that qualified people of color 
have equal opportunity for advancement.
    It is important to us to both make sure we have senior 
managers and that we are bringing in more recent college 
graduates. We have a number of efforts to do that. Ten and a 
half percent of our SESers are now minority.
    Ms. Meek. Excuse me, madam. When you say ``minority'' I am 
specifically asking for black Americans.
    Ms. Browner. I can give you that.
    [The information follows:]

                      African-American SES at EPA

    EPA currently has 17 African-American SESers: 12 male and 5 
female.

    Ms. Meek. Minority is a very large category.
    Ms. Browner. Right. I can give it to you as the total 
Agency. Of total Agency African-American females is 14-percent 
of the Agency. African-American males are 4-percent of the 
Agency. That is just African-American. Then if you total out we 
also have Asian Pacific, Hispanic, Native-American.
    Ms. Meek. I guess my final statement is that these things 
work together. I am not taking a cursory view toward this. I am 
very serious about my interest in this. It is not just to 
provoke some kind of answer from you that will make me happy.
    Ms. Browner. I know.
    Ms. Meek. I am just trying to say that these programs 
should be working toward a goal in terms of improving the 
participation by black Americans in EPA. In the past, it has 
not had such a good reputation in that regard.
    I need to say for the record that there are many black 
Americans who have outstanding scientific training and could 
work very well in EPA. We also are concerned about our many 
communities that are left with so many environmental problems 
which I spoke to you about at the very beginning.
    Most of the waste dumps and all of those places you are 
talking about and some of the esoteric descriptions you are 
making, these are people in these inner city districts, inner 
city areas, that we need to focus on.
    So, you do need to supply yourself with people in the 
Agency who understand this problem. I do not care what color 
they are as long as they understand the problem.
    Ms. Browner. If I might ask if we could take some of your 
time to sort of give you a more detailed briefing on the 
efforts of the last several years to reach out and to bring in 
more minorities, particularly African-Americans.
    We had a very serious effort in this regard, if we might 
show you. We are making process. By no means do we think it is 
as good as it should be, but we do have an effort underway.
    Ms. Meek. I am glad to hear that because there is a 
reciprocal benefit, both for those communities and for the 
Agency.
    Ms. Browner. Definitely; absolutely.
    Ms. Meek. Thank you. That is all.
    Mr. Lewis. Thank you, Ms. Meek.
    This session has gone on about 15 minutes or so longer than 
I expected. The committee will be adjourned until we reconvene 
in this room at 2:00 p.m.
       critical infrastructure protection: president's commission

    Mr. Lewis. The meeting will come to order.
    Ms. Browner, what role did the EPA play in the President's 
Commission on Critical Infrastructure Protection?
    Ms. Browner. If I might ask Tim Fields to respond to the 
question in terms of our participation on the RMP issue.
    Mr. Lewis. Mr. Fields.
    Mr. Fields. Yes. Thank you very much. I apologize for 
getting back late. We have been working very closely with the 
Critical Infrastructure Group to talk about those other issues 
you raised earlier about the balance between the accessibility 
of RMP information and the security concerns you raised.
    We have been having a dialogue with the FBI and CIA as 
well. We are consulting with them on this issue. We want to 
make sure we have a diversity of opinions. Most people agree 
that Congress intended that there be an accessibility of 
certain of this information, but appropriate security 
safeguards need to be maintained.
    So, the dialogue has been that we want to get advice. We 
are still having further meetings with this group as well as 
others right now to try to get a consensus opinion as to what 
information can be made available, and at the same time make 
sure that the national security interests are protected.
    The safeguards that Carol referred to this morning are one 
way. We want to make sure that when we do ultimately agree on 
something, that it has the support of all of the security 
agencies as well, such as the FBI, the CIA, and the Critical 
Infrastructure Group. That dialogue is continuing. No final 
decisions have been made.
    We are getting everybody's opinions. We want to make sure 
that, the ultimate decision on the availability of RMP 
information reflects the views of all of the stakeholders 
involved in this dialogue.

                open source information: access to data

    Mr. Lewis. Let me go at it from another direction and maybe 
broaden it a little. Do you follow any pre-determined procedure 
to consult with other agencies or perform necessary analysis in 
order to make judgments on the value of proposed open source 
information to terrorists, or agents of economic espionage?
    If you do, will you explain what that procedure is? If not, 
why do you not have such a procedure?
    Mr. Fields. Well, this is virgin territory, as you know. As 
Carol said, we formed the FACA Group to advise us on this 
issue. We brought together environmental groups. We brought 
together industry people, people in the national security arena 
to get some input on this issue and information resource 
management experts. We wanted to hear from all walks of life. 
We do not really have a protocol at this point.
    We want to make sure that we carry out the requirements in 
the law about the availability of data, but at the same time 
make sure that critical national security interests are 
protected and that terrorists do not get access to this data.
    So, we are trying to consult with everybody. This is 
something we never had to deal with before. We are trying to 
make sure we take into account the best advice from the 
national security experts in making an informed judgment on the 
availability of their RMP data.
    As you know, the RMP data would start coming in June 1999, 
the deadline pursuant to the regulations. So, we essentially 
have a little over a year to make a judgment as to what we are 
going to do.
    We do not want to make a precipitous decision. We have got 
to make sure that these critical national security interests 
are reflected in our ultimate decision. We have been giving it 
a lot of thought.
    No decision has been made. We are trying to make sure we 
consider everybody's point of view in deciding what information 
is made available regarding the risk management plans.

                         rmp rule: omb guidance

    Mr. Lewis. I consider this whole subject area to be of 
critical importance. I want it to be raised at a much higher 
level in terms of general concern around this place than it has 
been. Has OMB provided any guidance relative to the RMP Rule?
    Mr. Fields. OMB has been involved in the development of the 
RMP Rule. They have been involved with us on that. We have 
worked very carefully with the personnel at OMB on the content 
of the rule.
    We are discussing with them now this whole issue we are 
chatting about right now, which is what information should have 
been made available? What can be made available on the 
Internet?
    They have been intimately involved in the rule itself which 
we issued in 1996, as well as the implementation stage we are 
in right now trying to decide how do we put in place the 
procedures to receive this information in June 1999.
    So, we have had dialogue with OMB, as well as other parties 
that we talked about earlier.
    Mr. Lewis. Have they, by that I mean OMB, provided any 
general guidance to decrease the risk of economic espionage and 
terrorism from open source information issues?
    Mr. Fields. They have not provided any guidance to us in 
that regard.
    Ms. Browner. They have been involved, but no written 
guidance.
    Mr. Fields. No guidance; just dialogue. Everybody has been 
talking about the pros and cons of this. A lot of intense 
dialogue is going on, on this issue. OMB has been involved in 
that discussion, but no guidance.
    Mr. Lewis. What other agencies collect or utilize sensitive 
open source data that may be of interest to terrorists?
    Mr. Fields. I do not know the list. We can get that 
information and supply it for the record. I do not know the 
list of all of the agencies who provide this kind of 
information.
    Mr. Lewis. I am interested in knowing agencies that provide 
information to make the data available, et cetera, that might 
be of interest.
    Mr. Fields. We will be happy to supply that for the record, 
sir.
    Ms. Browner. We will check with OMB and provide whatever 
they have.
    [The information follows:]

                 Sensitive Data: Other Federal Agencies

    EPA was informed by OMB that they do not have a listing of 
agencies that collect or utilize sensitive open source data 
that may be of interest to terrorists. OMB referred EPA to OMB 
Circular A-130, Management of Federal Information Resources, as 
the guidance document for handling of sensitive open source 
data. In addition, EPA has a chapter devoted to information 
security within our Information Resource Manual. The 
authorities which govern our policies include: Office of 
Management and Budget (OMB) Circular A-130, Management of 
Federal Information Resources; Computer Security Act of 1987; 
Privacy Act of 1974, as amended; Paperwork Reduction of 1995 
(P.L. 104-13); Trade Secrets Act, 18 U.S.C. Section 1905; The 
Freedom of Information Act of 1974 (5 U.S.C. Section 552).
    The Risk Management Plan (RMP) data will assist state and 
local governments responsible for chemical emergency 
preparedness and prevention. It will also be useful to 
environmental and community organizations and the public in 
understanding the chemical risks in their communities. EPA has 
examined options other than the Internet for disseminating RMP 
data. Since October 1996, EPA has worked closely with all 
stakeholders, through the Accident Prevention Subcommittee and 
the Electronic Submission Workgroup, to find a common ground on 
this issue and to strike a balance between security concerns 
and the public right to know. We have come a great distance 
towards resolution, although we have not reached a full 
consensus. In terms of timing, EPA will begin receiving RMPs in 
January 1999. To be ready to accept RMPs and make them 
available to the public, as required by the Clean Air Act, we 
are moving forward with system development. At the same time, 
we will continue to work to find a balanced solution.

                 rmp rule: data management alternatives

    Mr. Lewis. Why have you not undertaken a project to 
thoroughly study various data management alternatives as 
suggested by your contractor?
    Mr. Fields. That is not something that we have dismissed. 
We have looked at that issue. We have not decided one way or 
another whether or not to do that. That is still an issue and 
still open.
    We are looking at all of the best options for how we handle 
this. No final decision has been made on how we dispose of the 
recommendations that have been made by the contractor in this 
regard.
    Mr. Lewis. Above and beyond just raising the level of 
cognizance of this problem around, you are very close to the 
point of rulemaking here. Timing, of course, is very important.
    I would want to make sure that we have examined every 
avenue of information possible before we get to the point of 
rulemaking or finalizing rules.
    Mr. Hansen. Mr. Chairman, I might add that on behalf of 
Carol and me, we have asked Tim to be able to make sure that we 
are not proceeding with any approach on this, in terms of just 
dissemination of the information, until we are satisfied that 
the national security issues have been fully addressed.
    That is a part of why we are back in further discussions 
with both the FBI and the CIA to ensure that those people who 
are expert in this field have informed us on whether our steps 
are appropriate. That is something that Carol and I have felt 
very, very strongly about.
    Mr. Lewis. Okay. So, you will not, for example, put worst 
case scenario information on the Internet until you have such 
assurance. Do you have such assurance? Will you have such 
assurance?
    Mr. Fields. Yes. That is our plan.
    Mr. Lewis. I am not trying to be argumentative here. It is 
a very sensitive subject.
    Ms. Browner. Chairman Lewis, if there are some individuals 
that you think it would be helpful for us to meet with, we are 
more than happy to do that. I mean, obviously you have a 
tremendous knowledge on this.
    We could benefit from that. If there are other individuals 
out there who have raised particular issues, if we could hear 
from them that would be great.
    Mr. Lewis. We will talk to you about it.
    Ms. Browner. Okay. That would be great.
    Mr. Lewis. I do have additional questions on the same 
subject area. I do not want to belabor it, but it is very, very 
important.
    I have asked questions about agencies, et cetera, but maybe 
that can be better handled as I talk with people. The other 
venue I have is the Intelligence Committee. I would like to see 
what their concerns are. Mr. Mollohan.

       no<INF>X</INF> emissions: petition by northeastern states

    Mr. Mollohan. Thank you, Mr. Chairman.
    Ms. Browner, I just want to give you a chance to talk a 
little bit about this agreement with the Northeast on the 126 
petitions that have been filed.
    Let me just introduce or read in this. In the New York 
Times of February 25th, it reports, ``Compromise is reached on 
powerplant emission in Mid-west. Environmental Protection 
Agency in eight northeastern states have reached a compromised 
schedule for requiring electric utility plants in the Mid-west 
to cut down on smog causing emissions that drift eastward and 
pollute the air over Pennsylvania, New York, and New England, 
state officials said today.
    ``The Agreement could lead to controls on emissions of 
nitrogen oxides which form smog from coal-fired powerplants, in 
the mid-west as early as 2003, four years earlier than was 
likely under the approach favored by the Agency.''
    Could you just comment on this process and what kind of 
compromise was or was not reached as reported in this article?
    Ms. Browner. Just through memory, I believe the quote is 
from a state individual and not an EPA individual. So, that 
would be their characterization of what happened.
    Mr. Mollohan. I am just asking for yours.
    Ms. Browner. The northeast states exercise their rights 
under the Clean Air Act. Essentially, I guess the easiest way 
to think about it is that they sued us to force us to require 
reductions from specific plants that they believe are 
contributing to their air pollution problem.
    Many of those plants, as you point out, under their 
scenario, are in the Ohio Valley in the Mid-west. We believe 
that the process that we have been engaged in at the state's 
leadership under OTAG is the way to get the best answer.
    We negotiated a resolution of that matter with the 
northeast states for the time being. The lawyers all use very 
careful words that essentially sets the litigation aside. It 
does not remove any of their ultimate rights, which was 
important to them, as you can well-understand.
    It sets that litigation aside while we work in the OTAG 
process with all of the states. If the OTAG process should 
fail, obviously the northeast states retain their rights under 
the Clean Air Act.
    I am using the OTAG process to refer to a number of steps 
that we have discussed earlier instead of just using it as a 
very broad explanation. Our hope is that the process will be 
successful and that the 126 petitions would not be reactivated.
    Mr. Mollohan. That they would fold it into whatever 
decision that comes out of the OTAG process.
    Ms. Browner. Exactly. That is the time frame that was 
agreed to. The way it was structured is that the time frame is 
merged at this point. As I said before, if they are unhappy 
with or believe that somehow or another OTAG has failed them, 
they do retain their rights and could re-exercise. They are 
sort of held in abeyance for the moment.
    Mr. Mollohan. All right. Thank you, Mr. Chairman. I thank 
the Administrator. I look forward to working with you on all of 
these issues, the clean water issues. I think it is $1.6 
billion there in that Abandoned Mine Fund. We have got to work 
on that.
    Mr. Lewis. Thank you, Mr. Mollohan. Mr. Walsh.

               fqpa implementation: minor use pesticides

    Mr. Walsh. Thank you, Mr. Chairman. Good afternoon.
    I have a letter that was sent to Dr. Lynn Goldman from 
Chairman Smith of the Agriculture Committee. I would like to 
ask a question or two regarding the Food Quality Protection Act 
implementation as regards certain chemicals and pesticides.
    The issue is minor use pesticides that are used in 
specialty crops and the inability of the industry to replace 
those and the difficulty of replacing some of those, and the 
result in economic impact on farmers.
    The letter, and I will quote it. It says,

    In order to meet the deadlines and comply with the 
requirements of the law, we are advised that EPA plans to use 
default assumptions which will result in numerous cancellation 
of tolerances beginning as early as 1998.
    We believe this action is unnecessary and that the law 
clearly provides the Agency with broad authority to delay the 
effective date of an order or regulation to provide registrants 
and others the opportunity to develop data to support the 
continuation of the tolerance.

    Could you comment? Could you give us an EPA response to 
that?
    Ms. Browner. As required by the law, we have to assess or 
reassess over 9,700 tolerances over the next ten years. We do 
them sort of a third, a third, and a third. That is the easiest 
way to think about it. By 2002, 6,467, or 66%, will be 
reassessed and by 2006 all 9,700 tolerances will be reassessed.
    We are in the process of reassessing existing tolerances. 
We base the reassessment on the best available science, as the 
law requires. This reassessment is required because today we 
have much better information about human dietary intakes and 
human exposures.
    We have notified the pesticide industry of our reassessment 
methods. We will be making these evaluations. To help make the 
best decisions we have encouraged the pesticide industry to 
provide data to us so that we can have the benefit of 
scientific information they have.
    We will make these tolerance reassessment decisions based 
on the available science. This does require the cooperation of 
industry.
    If they do not want to give us information, then that is a 
really serious problem. I do not know that it is fair to put 
the public's health and their protection at risk. This Congress 
voted unanimously to strengthen the food safety law and to give 
us authority.
    Many in the industry supported that bill. Now, they need to 
provide information to us. Some have been forthcoming. We need 
all of them to be forthcoming.
    Mr. Walsh. In many cases, these pesticides we are talking 
about are minor use pesticides. In many cases, there are small 
manufacturers that produce them. There is a concern that they 
may not have the resources to comply with your request for that 
information.
    Ms. Browner. We have a special minor use effort underway 
and have created a minor use team with an ombudsman.
    So, we are making ourselves more available to small 
manufacturers or producers. We are also working closely with 
USDA. If there are other things people think we could do, vis-
a-vis minor uses in our outreach efforts, please let us know 
and we will do what we can.
    We have taken very seriously the questions raised by 
farmers, by companies, and Congress vis-a-vis minor use.

                  onondaga lake: municipal compliance

    Mr. Walsh. I will leave that one for now. Just one other 
question or comment regards the Onondaga Lake project in my 
District where EPA has been very, very helpful and supportive 
on the constructive Onondaga.
    Ms. Browner. Is it a Great Lake?
    Mr. Walsh. No. I am told only the Senate can do that. The 
House does not yet have that power. It is a wonderful lake 
though. It is getting better every day thanks to your support.
    Ms. Browner. Thank you.
    Mr. Walsh. The County is responsible for something called 
an MCP, Municipal Compliance Plan for the clean-up of the lake. 
All of the parties have agreed to that.
    Ms. Browner. Yes.
    Mr. Walsh. The County is a little concerned though that 
their share of the burden or the ratio is 55/45. It is their 
understanding and they are a little concerned that EPA has just 
or is about to pass regulation that would allow for contracting 
with not-for-profits or NGOs who could participate in these 
projects.
    That their share would be or the ratio would be 
dramatically different. It would be perhaps 95/5. That is 
something you would be willing to work with the County on?
    Ms. Browner. Yes. Let us talk to them and see.
    Mr. Walsh. Okay. I will leave it at that. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Walsh. Ms. Meek.

                          deep injection wells

    Ms. Meek. Thank you, Mr. Chairman.
    Administrator Browner, you are very much aware of the many 
problems we have in Florida. Many municipalities in Florida, 
particularly in South Florida, dispose treated domestic waste 
water through what you call or what is known as Class I Deep 
Injection Wells.
    Many of these wells are suspected of fluid movement out of 
the permitted injection zone. The Florida Environmental 
Protection Agency working with the waste water disposal 
industry recently proposed a regulatory solution to this 
problem, which involved reclassifying injection wells as Class 
V wells.
    The EPA rejected this proposal. Can you shed some light on 
this decision for me?
    Ms. Browner. Yes. Unfortunately, it would not be 
appropriate for me to do that. When I was the Secretary of the 
Florida Department of Environmental Regulation, I had an 
opinion on this set of issues.
    Under the ethics laws, I am therefore not allowed to be 
involved in the issue. That would be viewed as a conflict of 
interest.
    Ms. Meek. Well, did you tell them you were the best?
    Ms. Browner. Well, I am more than happy to tell you what my 
opinion was five years ago. I do not know that the people who 
worked on this compromise would be happy to hear it. So, with 
that, maybe Bob Perciasepe could answer the question.
    Ms. Meek. Thank you.
    Ms. Browner. There are very few of these issues left. Early 
on, there were many of them, but unfortunately this is one.
    Mr. Perciasepe. I appreciate the invite to come up here. I 
am not completely familiar with the specific issue of these 
wells. However, we can get back to you for the record on that.
    Clearly, there is an issue between permanent long-term 
contamination of the very important aquifers in Florida versus 
other controls. There is a difference between a Class I and a 
Class V regulatory regime and what you can be allowed to put 
into the wells.
    So, our regional offices are probably very involved with 
that. We will research that and we will get back to your staff 
on that.
    Ms. Meek. Thank you.
    Ms. Browner. In fact, our Region IV Administrator, John 
Hankinson, is actually in town today. We can make arrangements 
for him to join us at tomorrow morning's hearing and answer the 
question.
    Ms. Meek. Thank you. Thank you very much and thank you, 
sir. My other question is regarding the EPA Brownfields 
Program.

                              brownfields

    Ms. Meek. What efforts has EPA undertaken in coordinating 
the Brownfields Program with the IRS to facilitate the 
resolution of some of these tax liens which you have placed on 
Brownfield Projects.
    Sometimes these liens often encumber these projects and 
they delay efforts for us to clean them up. So, my question is, 
it has been very difficult for the City of Miami, particularly 
in one or two areas in my District, for these tax liens to be 
cleared up and the brownfields could be cleaned up.
    I am just wondering if you are familiar with these 
contaminated sites and working with the residents on them. We 
have been working with them. There is a lot of anxiety on the 
part of these residents because of the potential health impacts 
living around these sites.
    I just want to know if you have any plans or any programs 
or any funding that is available for local public health 
assessments? What kind of effective risk communication do you 
have in these brownfields areas?
    One more thing. This is sort of a trifurcated question. Has 
there been any coordination with HUD in terms of trying to work 
this out?
    Ms. Browner. Going backwards; yes. We work closely with HUD 
and actually a number of federal agencies on the brownfields 
efforts.
    For example, we will shortly announce the showcase 
communities which will be a group of communities who have 
competed for a program. That brings together, I think, 13 or 14 
different federal agencies to address the brownfields problems.
    Even outside of that program, we have been working closely 
with HUD and others. We have also worked with the IRS. The 
issue that has been tremendously successful is included in the 
balanced budget agreement.
    It is a tax cut for companies or individuals who undertake 
the clean-up of a brownfield site and the redevelopment. They 
can take a deduction on the clean-up cost. I think that was 
cost out in the balanced budget agreement at approximately $2 
billion over five years.
    We think it is a very important step. It is now available 
at sites across the country to parties across thecountry. In 
terms of the lien issue, that will tend to be federal or it could also 
be state and local issues. Sometimes you have state and local liens on 
properties for failure to pay state and local taxes.
    In those instances, obviously that is a difficult situation 
for us to address. In the case of liens in terms of federal 
taxes that may be owed, I know we have had conversations with 
the Department of Treasury about this. We will continue to try 
and resolve them where appropriate.
    Ms. Meek. We have been able to work with the state and with 
the local entities. Many times they have forgiven these things 
and they have been worked out. It is the IRS that we have not 
been able to work with.
    Ms. Browner. If there are some specific ones we need to 
check on, just if you could give us the descriptions we would 
be happy to do that. I do not know that we can promise absolute 
resolution, but we are certainly happy to discuss them with the 
IRS and to see if there is a resolution that can be 
forthcoming.
    I think it would be extremely useful to know if the state 
and the local government have forgiven their liens on these 
sites.
    Ms. Meek. Only one that I am aware of.
    Ms. Browner. Okay. I know that is a multi-level government 
challenge.
    Ms. Meek. Right. I think, Ms. Browner, those are the major 
questions that I needed to ask. My major concern, naturally, 
number one is the brownfields and the clean-up and some of the 
impediments which have caused us not to be able to go forward 
with redevelopment.
    Everyone has a good idea. They want to redevelop these 
areas. I come to my Chairman and I ask for money. Sometimes, he 
will give me a little crumb. But when he gives me the crumb, 
then sometimes I cannot match it.
    I cannot do it if there are so many blockages and 
impediments in redevelopment. So, tell me if there is some 
initiative that I can propose that would relieve some of these 
blockages if it cannot be done on the level of the agency.
    It remains the fact that I will have to call some names 
like Winwood, which is the poorest community in my District; 
primarily Hispanic, very, very poor and we cannot clean it up. 
Those waste sites are there.
    They are a health impediment. I would like to be able to 
move off that if I can, but I need some help in terms of where 
do we go from here----
    Ms. Browner. Well, the most important thing at this point 
in time is support for the budget request. Included in the 
budget before you is $91 million for the Brownfields Program.
    That would include assessment, pilots, a revolving loan 
fund, the establishment of a fund that would allow low interest 
rate loans to be made so that the developers could come and do 
the assessments, do the clean-ups and the redevelopment. If 
they could not access other capital, this would make available 
some capital; the Brownfields National Partnership.
    This is, I think, one of the really great successes of this 
Administration. Right now, when I go out and I talk to mayors 
and I visit communities what I hear is, please make more grant 
dollars available. So, we are here asking for that.
    Ms. Meek. All right. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lewis. Sometimes I think my world is crumbling. I 
think, as the Administrator knows, that in the past the 
Committee has not gotten into the special designation for 
Brownfield Programs, per se.
    We would like to continue on that with that pattern. So, I 
know that you will be very sensitive to the Gentle Lady, 
regardless of that.
    Mr. Knollenberg.

                          pm research program

    Mr. Knollenberg. Mr. Chairman, thank you.
    Ms. Browner, how are you? Welcome.
    I want to talk about NO<INF>X</INF> a little bit. The last 
time around in the bill we had allocated some $49.6 million for 
Particulate Matter Research. The report directed the EPA to 
within 30 days of October 10, to enter into a contract and 
then, of course, design a near and long-term PM research 
program.
    For the record, can you tell me the status of the near term 
research program? Is it on schedule?
    Ms. Browner. Yes. In fact, I think, against what many 
people thought would be a deadline we could not meet, with the 
good assistance of the Chairman's staff and others, we did in 
fact meet that deadline. We are on track.
    We expect that the National Academy of Science Report on 
the short-term research will be available as was planned in 
March 1998 and the long-term research plan in November of 1998. 
It really was a very good effort involving a lot of people up 
here to move it through the contracts process in an expeditious 
manner.
    Mr. Knollenberg. How much was addressed to near term 
research?
    Ms. Browner. There is no breakout at this point because we 
are waiting for the plan to come back. Then based on the plan 
the dollars will be allocated between the short term and the 
long term.
    Mr. Knollenberg. Forgive me if I am wrong about this, but 
was it not true that 30 days after the 10th of October, there 
was to be a determination made and then there was four months 
which would be if we calculate forward something like the 10th 
of March?
    Ms. Browner. We were supposed to enter into the contract 
for the National Academy of Sciences to develop the short term 
research plan. We did enter into that contract. Now, we are 
waiting for the results of that effort to come back.
    Mr. Knollenberg. So, when will that be, do you estimate?
    Ms. Browner. March 28th.

                     pm research: funding breakout

    Mr. Knollenberg. March 28th. How much money has been 
obligated internally intramurally within EPA out of this $49.6?
    Ms. Browner. It is all for the Academy's recommended 
efforts. This is Henry Longest who is the Acting Assistant 
Administrator for the Office of Research and Development.
    Of the $23 million extra that Congress provided, all of it 
will be directed to research projects in accordance with the 
NAS recommendations.
    Mr. Knollenberg. Now, this is extramural. I think it is 
considered outside the Agency and therefore extramural. How 
much goes to HEI? We have already entered into some.
    Ms. Browner. Right; about six.
    Mr. Knollenberg. Six?
    Ms. Browner. Yes.
    Mr. Knollenberg. Let me ask it this way. What is the total 
amount EPA anticipates for NIEHS?
    Ms. Browner. Maybe I can back-up for a second and give you 
the global answer. This might work a little bit easier. The 
total enacted operating plan for PM research is $50 million.
    There was a base request from EPA of $27 million. Congress 
added $23 million giving us a total of $50 million. So, $23.6 
million is being held in the intramural pot. HEI is at 
approximately $6 million. The centers that we are required to 
fund at approximately $8 million. RFAs at $5.6. We can provide 
this to you.
    In addition to the $50 million for PM research, there is 
another set of centers that you all earmarked for a total of 
$5.2 million. Obviously that is proceeding apace. That was 
earmarked to places like Johns Hopkins, and Lovelace, and the 
Jewish Lung Center.
    [The information follows:]

                               PM Funding

    The reports that the Academy will be preparing will provide 
guidance that covers all of the $50 million Particulate Matter 
research activities, both long-term and short-term research, 
and both research that we fund extramurally and research that 
is conducted intramurally in our EPA laboratories.

                              cafe program

    Mr. Knollenberg. Okay. Thank you.
    Since Kyoto, I have seen a great deal of commentary about 
the impact of the agreement signed, but of course not ratified 
by the Senate, that directly impacts the auto industry.
    There is increased talks about CAFE standards and changing 
those standards, especially among the light trucks. What role 
do you see CAFE playing in reducing global warming?
    Ms. Browner. We think the CAFE Program, to-date, has been a 
tremendously successful program in terms of increasing fuel 
efficiency and fuel economy.
    Mr. Knollenberg. You do know that 53-percent of new vehicle 
sales are not small cars. They are not cars. They are trucks.
    Ms. Browner. Under the CAFE definition, that is correct.

          partnership for a new generation of vehicles (pngv)

    Mr. Knollenberg. Are you going to change it?
    Ms. Browner. I think Congress would have to change it. That 
is in the law. At this time, we are focusing our efforts in 
terms of automobile efficiencies on the Partnership For a New 
Generation of Vehicles, which has a goal of a three times more 
efficient vehicle.
    We are working very closely with the automobile 
manufacturers on that. The President has also included in his 
budget tax incentives designed to encourage the purchase of 
more fuel efficient cars.
    I believe the first one is a $3,000 tax credit for an 
automobile that is twice as efficient. Then it drops down to 
$2,000 or it goes up to $4,000 for three times as efficient.

                             nuclear power

    Mr. Knollenberg. I would like to quiz you a bit on those 
numbers, but that would take some time. Therefore, in my 
limited time here, I want to get into nuclear energy.
    As you know, Japan is a strong supporter of the Kyoto 
agreement. There is some justification for their support. Japan 
has a thing that greatly advantages them over us and it happens 
to be nuclear power.
    They have some 44 existing commercial nuclear plants. They 
intend to construct 20 more. A great number of American 
contractors are over there doing just that. In the U.S. there 
appears to be no similar plant at all.
    In fact, we have 107 plants now. They are not really 
recertifying a great number of those. So, we are reducing now. 
You and I both know that nuclear power is clean. If there was 
anything at all that we could do to increase nuclear use. I 
believe we may be going down the wrong path if we do not talk 
in terms of considering seriously nuclear power.
    It does not emit any greenhouse gasses. If that is the 
magic about this whole thing, somehow we have to attack that. I 
wonder, what is EPA doing, if anything, to encourage the use of 
nuclear power as a part of this goal to reduce greenhouse 
gasses.
    Ms. Browner. The EPA does not, I think as you are well-
aware, have primary jurisdiction over the nuclear industry. 
That is handled through the NRC. They work closely with that 
industry and do the evaluations of the existing facilities and 
the decommissioning, et cetera.
    From our perspective, to the best of my knowledge, I think 
this is what you were saying, there are now no plans within the 
nuclear industry to build additional nuclear facilities within 
the United States. I know of none at this point in time.
    Mr. Knollenberg. Is there any justification for doing that?
    Ms. Browner. The nuclear issue we are involved with is the 
disposal of nuclear waste. We are responsible for certifying 
the disposal site and ensuring its long-term environmental 
safety.
    I think all of us have a concern about the fact that, at 
this time, we do not have a site that has been certified that 
does meet the standards. We are working on that process. In the 
meantime, we are seeing the waste stored in facilities that 
were not designed to store it over a long period of time.
    We are committed and have included in our budget funds for 
us to do our portion of that review. I think it would be penny-
wise and pound-foolish. Now, the Department of Energy is also 
involved with the nuclear issue.
    Mr. Knollenberg. We will see you tomorrow.
    Ms. Browner. Excuse me?
    Mr. Knollenberg. Is it not tomorrow that we see you or is 
it next week?
    Ms. Browner. I will be back tomorrow.
    Mr. Knollenberg. Have we already seen you?
    Ms. Browner. No. I was here this morning.
    Mr. Knollenberg. No. Do you not appear before Energy and 
Water or you do not?
    Ms. Browner. No.
    Mr. Knollenberg. We saved you.
    Ms. Browner. I am with you guys tomorrow.
    Mr. Knollenberg. You are back with us.
    Ms. Browner. I am happy to be there.
    Mr. Knollenberg. We will revisit this thing tomorrow then. 
Just in closing, I do think, well, it may be beyond the scope 
of your administration, of your function.
    I think it is interesting that there is no thinking, no 
discussion about nuclear energy. Frankly, it should be 
considered as an alternative. France, as you know, gets 75-
percent of its power through nuclear.
    Japan has over 40%. It is going to rise. We are sitting 
hovering at 20%. I am not trying to shoot down the folks in 
West Virginia either about coal. I am just suggesting that we 
really should look at that.
    Again, I thank you for appearing. Thank you very much.
    Mr. Lewis. You know, it is out of order, but the Gentleman 
is making a very interesting point. Sometimes we have in our 
zeal to find perfect solutions to problems, especially 
environmental problems, we end up going down pathways that 
sometimes take us over cliffs.
    I am reminded of the drive from Los Angeles to Palm 
Springs. One day you might have an opportunity to do that. In 
the old days, we were really interested in alternative energy 
because things were bad. The mountain sides are filled with 
these windmills that produce a little bit of energy out there 
somewhere for the grid, but my God the whole country side is 
polluted.
    Probably we should get some smart people, with these issues 
behind doors sometimes and talk about nuclear energy. You know, 
we have gone over that cliff and cut off that option.
    Ms. Browner. I think the Department of Energy, as a part of 
their budget, may have some money for new reactor design and 
things of that nature. I am not well-versed, obviously, in 
their budget.
    Mr. Lewis. Mr. Price.

                       animal feed lot operations

    Mr. Price. I thank you, Mr. Chairman.
    Administrator Browner, I know you are familiar with the 
problems that North Carolina and other states have had with 
nutrient pollution in streams and rivers.
    You recently proposed stricter regulation of concentrated 
animal feeding operations as one way to help states respond to 
this problem. I am proud to say that North Carolina's current 
standards for these operations, which were arrived at through a 
long political struggle, already surpass the measures proposed 
by the EPA. I hope you will look at our experience and the 
progress we have made when you finalize those new regulations 
for large operations.
    Ms. Browner. With all due respect, if I might just clarify. 
At this point in time, we have not proposed any standards. We 
have proposed a draft strategy.
    We have laid out how we would hope to proceed in terms of 
involving stakeholders, looking at the appropriate roles, vis-
a-vis EPA and the states. Your state is very actively involved 
in this. We have not put any standards on the table at this 
point in time. That will flow from the strategy.
    Mr. Price. From the strategy that you have launched.
    Ms. Browner. Yes.

                               pfiesteria

    Mr. Price. Well, one situation that has brought a lot of 
this into focus, of course, was last year's outbreak of the 
toxic form of pfiesteria in Maryland, North Carolina, and 
Virginia.
    Both Maryland and North Carolina have adopted stricter 
water quality protection requirements, particularly with 
respect to non-point source pollution. In North Carolina non-
point source pollution has had the most negative affect on the 
Neuse River in Eastern North Carolina.
    The state has recently promulgated new basin-wide 
regulations to help reduce the levels of nitrogen and other 
pollutants in the Neuse.
    How has your agency been working to encourage states like 
North Carolina and Maryland in their efforts to implement 
basin-wide initiatives to reduce nitrogen and other water 
pollutants? Could you expand on how EPA's role in such 
activities will change under the Clean Water Action Plan?
    Ms. Browner. We have been providing money through the 
traditional Clean Water grants program, Section 319, and other 
programs to the states. We have also provided pfiesteria 
research money to North Carolina and other states that have 
experienced that particular problem.
    Under the President's Clean Water Action Plan, we are 
requesting an additional $145 million of which $120 million 
would be made available to states and tribes for and watershed 
planning, and watershed implementation to address non-point 
source pollution problems.
    Mr. Price. Now, as you assess the needs for this support, 
to what extent do you expect to focus on areas where pfiesteria 
has been a problem?
    Ms. Browner. We will be working with all of the states. 
Obviously for states where pfiesteria has been a problem we 
will concentrate on the problem. In other parts of the country, 
algae blooms, for example, have been a problem.
    We have had a host of challenges. I would imagine that in 
states with pfiesteria concerns, they will rank those 
watersheds higher. It will be up to the state to make that 
decision.
    Having visited with your Governor and Governor Glendening, 
and Governor Gilmore briefly on these issues, I would imagine 
they will be ranking those watersheds higher, but it will be up 
to them.
    Mr. Price. It will be a matter of state determination.
    Ms. Browner. The states will be looking at which watershed 
is experiencing the greatest challenges; which ones need the 
highest concentration of effort.
    Mr. Price. Well, to what extent will EPA have the 
discretion to focus on areas of particular concern and 
particular need?
    Ms. Browner. We work with the states to determine that. It 
is a real partnership between us and the states.

                   food quality protection act (fqpa)

    Mr. Price. All right. The Neuse Initiative, of course, is 
relatively new. It has not, to this point, had a great deal of 
federal support. Clearly, it is an area that warrants 
concentrated attention.
    We are very encouraged with the initiative that is underway 
just this year. It would seem to me that any national strategy 
under the Clean Water Action Plan ought to give attention to 
this problem.
    Let me turn briefly to the implementation of the Food 
Quality Protection Act. I would like to hear your assessment of 
how the implementation is going with that, including any 
problems you have encountered and whether the resources 
provided to you are sufficient for the task of meeting the Food 
Quality Protection Act's goals and deadlines. If you have a 
general comment, then I have a couple of more specific 
questions.
    Ms. Browner. No. Why don't you ask your specific questions.
    Mr. Price. All right. Dangerous products and uses should be 
eliminated as quickly as possible, when we identify ones that 
do not meet the new standards.
    The organophosphates have been identified as the class of 
pesticides posing the most concern. I commend you for focusing 
on these pesticides first.
    Along with the duty to remove unsafe products, the Agency 
also has the responsibility to bring new and safer products to 
growers as the older less safe products are phased out.
    Any gap between de-registering products and new 
registration of their safer substitutes will put a squeeze on 
many family farmers and other farmers who survive on very thin 
margins.
    That is what I would like to ask you to focus on just for a 
moment. I am concerned that perhaps you have concentrated on 
that first task, eliminating the less safe, existing products 
without providing sufficient attention to the latter task, 
which is registering new and safer products.
    Tell me if this is right. I am told that it takes 22 months 
for the EPA to approve a new reduced risk product and as long 
as three our four years for routine new product approvals. 
This, of course, is of concern to farmers of major crops like 
corn, rice, cotton, and is perhaps of even greater concern to 
minor crop farmers.
    Ms. Browner. By reduced risk pesticides, I think you are 
referring to bio pesticides. We give priority attention to 
these safer alternatives and have cut the review time down to 
an average of 14 months compared with 38 months for the more 
conventional pesticides. We have also made progress, 
registering new products under the new law. I can give you sort 
of a first year accomplishment.
    We registered 28 new active ingredients, made 90 tolerance 
decisions, and had 422 Section 18s. I mean, we believe we are 
responding in an appropriate time frame to the industry when 
they bring us a safer alternative, or when they bring us a new 
product registration, or a new amended use registration. In the 
last one--in FY 97--we did 3,560 amended use registrations.
    Mr. Price. These new products that have been approved, are 
they primarily biological products?
    Ms. Browner. Of the 28 new pesticides, 15 were bio 
pesticides, and 4 were reduced risk chemicals. That does not 
add up to 28. This is Dr. Lynn Goldman, the Assistant 
Administrator for the Office of Prevention, Pesticides and 
Toxic Substances. The rest of them were conventional?
    Ms. Goldman. Conventional.
    Mr. Price. Conventional chemical pesticides.
    Ms. Browner. Yes; conventional.
    Mr. Price. I wonder if you can elaborate on those figures 
you just gave and maybe provide the Committee with a detailed 
review by product and month of your new product reviews over 
the past year?
    Ms. Browner. Certainly.
    [The information follows:]


[Pages 131 - 133--The official Committee record contains additional material here.]



    Mr. Price. I think that will be very helpful to us.
    Do you think there is anything to the complaint which I 
have heard from time-to-time that pressures for dealing with 
existing products are draining resources from new product 
reviews? Is there anything to that at all? Is it a problem that 
you have felt any need to address?
    Ms. Browner. I think that, as is always the case with a new 
law, you need the start-up time. You have to figure out how to 
do things differently based on the new requirements and the 
law.
    So, there is some start-up time. In terms of the new 
products, the registration of new pesticides, we are now up and 
running. We have that program going. It will just improve from 
here with time.
    I want to be clear that any time you get a new statute, we 
need the time to get everything organized the way we are 
supposed to be, and we did that.
    In terms of the issues of review of existing tolerance is 
where I think you are hearing something, there, in particular 
with respect to the organophosphates, we were told by Congress 
specifically to look at the common mechanisms of toxicity.
    In other words, look at a group of pesticides that work in 
the same way. In the case of organophosphates, they work on the 
central and peripheral nervous system of the bug. So, we are 
doing that.
    I think you would agree that this is something that is 
going to demand a lot of stakeholder participation. We are 
looking at how best to ensure that and what kind of approach we 
should take to ensure transparency in stakeholder 
participation.

                           fqpa: review time

    Mr. Price. Well, back to the question of the review times. 
You are telling me that the average review time for the new 
reduced risk product is now 14 months?
    Ms. Browner. That is correct; for the biological, right.
    Mr. Price. For the biological. Overall, what would the 
figure be? Twenty-two months has been suggested.
    Ms. Browner. That is fairly close as an average. Fourteen 
months is the average time for a reduced risk pesticide.
    Mr. Price. And for routine new product approvals, three to 
four years has been suggested as the average review time. You 
said 38 months. Is that right?
    Ms. Browner. Yes, for conventional.
    Mr. Price. Do you realistically expect those averages to be 
reduced?
    Ms. Goldman. I am Lynn Goldman. I am Assistant 
Administrator for the Office of Prevention Pesticides and Toxic 
Substances. The average review times have decreased very 
sharply over the last five years.
    We used to see an average time of between five to six years 
for any new chemical registration. We are now down to anywhere 
between one year, in the case of a biological, to about three 
years for a conventional chemical pesticide.
    This is an improvement over the past, but we think we still 
have room for further improvements. We have worked within the 
program to make the data requirements clearer to the companies.
    We have worked with the companies to ensure that the 
packages that come in are acceptable at the very beginning. We 
used to have up to about 30 cycles per review; 30 times a 
package would come in and would go back out.
    We now have about five cycles per review; five or six. That 
is still an unacceptable number of review cycles. We still have 
a way to go. Our efforts to reinvent the process have been 
effective. We are going to continue to do that.
    Mr. Price. Are you satisfied with the transparency of that 
process; the understanding on the part of all concerned as to 
what they need to do, where the data is coming from, and what 
kind of data needs to be furnished?
    There is some frustration, as you well know, in the grower 
community with a perceived lack of transparency, in the review 
both of existing and new products. Are those problems that in 
your view need further attention?
    Ms. Browner. We believe that the pesticide companies 
understand the data requirements, but that we have much to do 
to make the whole process more transparent to the growers and 
other pesticide users and also to consumers and the public 
interest groups who are concerned about the process.
    We have a lot to do to make the process more transparent 
for all of the involved parties.
    Mr. Price. With respect to, the review of existing 
products, is it true that no notice and request for public 
comment has been published on this process?
    Ms. Browner. Several notices have been published. We 
published in January of 1997 a notice that lays out the kinds 
of information that we need to do a registration.
    Mr. Price When was that done?

                          fqpa: review process

    Ms. Browner. January 1997; a notice to all of the pesticide 
companies. Then in the spring of 1997 we published two things: 
we published a plan for the tolerance reassessment process. We 
also published a complete implementation plan for the act; all 
of the steps that we are going through to implement the act, 
including advisory committee processes, science review 
processes, and FACA processes that are public. In August we 
published a plan for the tolerance reassessment process.
    Those committees have not only met, but documents that we 
have prepared, such as the science policies, which deal with 
how we are going to review data, have all been placed in the 
docket prior to those meetings.
    They have been publicly available. In fact, we have had a 
lot of participation, probably again better from the chemical 
companies than from some of the other stakeholders. I think 
that we still need to get more involvement from the farming 
community.
    Mr. Price. All right. Well, it is at least a perceived 
problem. I certainly would welcome suggestions from you in 
terms of this committee's work on how we could help address the 
problem of a perceived lack of transparency in the review of 
existing and new products.
    Ms. Browner. Actually a California farming group of 
representatives recently raised this issue too. We would 
appreciate any advice the Committee or Members may have on how 
to better involve the farming community.
    We are doing great in terms of the chemical companies, but 
that is one piece of the universe. There is the user community 
out there. It is a community that is a little bit more 
difficult to access than the chemical companies.
    They have all got lawyers here. So, we appreciate any 
advice that people have on how we might improve our 
communication. We actually had a very productive meeting with 
some of the California growers. They had some thoughts. We are 
going to be following up on that, but other thoughts would be 
helpful.
    Mr. Price. We look forward to hearing from you.
    Mr. Lewis. Mr. Price, it occurs to me that the point you 
are raising is an important one. There are organized groups who 
represent farmers around here who have lawyers who are 
addressing the question quite the way we would. So, we might 
talk about how we can communicate with them and encourage them.
    Ms. Browner. Not to belabor this, but one of the issues is 
what a chemical or what a pesticide is allowed to be used for.
    Then there is what actually happens out in the field. Now, 
hopefully both are the same, but sometimes the farmers are 
doing something within the allowable use, which is a little bit 
different than the manufactured use.
    That kind of information is invaluable to us. It, quite 
frankly, has to come from the farmers. It turns out, for 
example, California has very good information in that respect. 
Other states do not. Perhaps there is a way to use their 
process to provide us with some of the practical real use 
information.
    Mr. Lewis. Absolutely. We need to know how the products are 
actually used so that we do not necessarily assume the worst 
case scenario; assume the most polluting sort of use.
    I am sure it is true in other places, but a marriage has 
been long established between the farming community and the 
University of California-Davis, the University of California-
Riverside, et cetera, and I know that is true elsewhere. The 
amalgamation of sources is interesting.
    Well, Mr. Frelinghuysen.

                     coal plant use in the midwest

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    I made a passing shot at Mr. Mollohan as he left sayingthat 
I might salvage the coal burners; what they are doing to their clean 
air in the Northeast in his absence.
    I would like, Madam Administrator, your view of the recent 
analysis published by the Northeast States Coordinated Air Use 
and Management Group that found that since deregulation of the 
wholesale power market, utilization of these grandfathered coal 
plants in the mid-west has increased.
    Have you read that report? Would you agree with those 
findings? How can we ever comply if it is difficult enough to 
comply now? We have all of this air coming down and suffocating 
us in the northeast.
    I am sure Mr. Mollohan will rise up at some point, Mr. 
Chairman. Administrator, for the public good, would you make 
some comment on that issue?
    Ms. Browner. We have data suggesting similar results, if 
you will, or similar increases. I do not know that we have 
completed a thorough review of that study per se. We share the 
general concern raised by that study.

                           brownfields: ppas

    Mr. Frelinghuysen. Well, it was one of four or five states 
that wants to comply with the Federal Clean Air Act. Life is 
made a lot more difficult by not standing the tide of all of 
this garbage that goes way up into the atmosphere and comes 
over towards the northeast.
    We will be watching you as carefully as some of those coal 
burning states will be watching you. We appreciate the work you 
do. I want to get back, just for a second, to an issue I raised 
earlier on brownfields.
    It was a little bit confusing to me in your response 
relative to the issuing of comfort or status letters or 
prospective purchases agreements. The term in your budget page 
39 was ``in appropriate instances.'' I want to know what that 
term means.
    Ms. Browner. There are two different things. Maybe we can 
sort this out.
    Mr. Frelinghuysen. I know there are purchaser agreements 
which are contracts.
    Ms. Browner. PPAs, right.
    Mr. Frelinghuysen. Then there are comfort letters. I 
understand from some of the authorizers that this is one of 
these liability issues that people are not able to get their 
hands on.
    Therefore, you have used the term ``in appropriate 
instances'' to sort of give yourself some more flexibility. 
What does that term mean?
    Ms. Browner. It does mean that there may be instances where 
a prospective purchaser agreement is not appropriate.
    An example is a sham movement of property to try and 
suggest that the prospective purchase had nothing to do with 
the prior contamination, but in fact did have something to do 
with the prior contamination.
    Mr. Frelinghuysen. So, what you said earlier was rather 
positive. That you had actually worked a lot of things out with 
the financial institutions and the banking industry, but in 
some instances you are leaving yourself some ability to cover 
yourself.
    Ms. Browner. Where there is inappropriate behavior, where 
there is the appearance of perhaps illegal behavior, no one 
appreciates us condoning those kinds of activities where people 
are making sham property transfers to avoid appropriate 
liability, where there are incomplete assessments of the 
problem.
    This has to be done to be fair to all of the parties, in 
accordance with a set of procedures. We are more than happy to 
provide that.
    We could also give you the ones we have entered into and 
show you what the terms of those have been. We could also try 
and give you those where, for various reasons at this time, we 
have rejected the PPA request.
    Mr. Frelinghuysen. I would be interested in seeing some of 
those. Thank you very much.
    [The PPA requests follow:]


[Pages 139 - 164--The official Committee record contains additional material here.]



                     pm monitors: state cost share

    Mr. Frelinghuysen. Relative to clean air; while the 
President's fiscal year 1999 budget request for EPA is growing 
by 6-percent, state 105 Grants, known as Section 105 Grants, to 
implement existing Clean Air Act Programs are declining.
    My state, New Jersey's, fiscal year 1997 was cut by 12-
percent from fiscal year 1996 levels. The fiscal year 1998 
grant was cut an additional 5-percent.
    However, the state is required to maintain the same level 
of matching funds year-after-year, regardless of the decline in 
federal funding. Could you explain the overall decline in state 
grants?
    Ms. Browner. First of all, the overall amount of money that 
we will provide or spend on behalf of the states is going up. 
Let me explain what I mean by that.
    Under the Clean Air Act, the states are required to cost 
share for the purchase of monitors. It is a 60/40 split. We are 
not seeking that 40-percent cost share from the states for the 
PM monitors for the country.
    The PM 2.5 monitors for the country are going to cost 
almost $100 million, $98.3 million. So, the state's share would 
have been $40 million. We are not going to require that $40 
million from the states.
    We are providing for that in the EPA budget, not from the 
states. So, I understand that they look at one line and they 
see an adjustment, but I think you have to step back and look 
at the picture as a whole. What you see when you look at the 
picture as a whole is in fact more money being spent by EPA on 
behalf of the states to honor the Clean Air Act.
    Mr. Frelinghuysen. So, on the issue, many of the states 
talk about the flexibility issue. You are actually giving them 
flexibility by not having to come up with as much money. So, 
they have a degree of flexibility.
    Ms. Browner. Yes, yes. Congress is essentially saying to 
the states that we are going to pay 100-percent. The states 
could have been required to pay $40 million. Based on what 
Congress and the Administration have done, the states will not 
pay that $40 million. That is a lot of money.

                   performance partnership agreements

    Mr. Frelinghuysen. Sure is. Federal and state partnerships; 
I want to discuss for a minute the National Environmental 
Performance Partnerships.
    As you know, these partnership agreements negotiated 
between the EPA and the states are a new way to plan and 
measure the success of environmental efforts and programs.
    The program system provides mechanisms for states to 
prioritize environmental activities based on jointly developed 
environmental goals tailored to each state.
    This program also provides the public with a greater 
ability to participate in environmental decision making 
sincethey have become more aware of state environmental conditions and 
trends.
    New Jersey is one of the first six states to negotiate a 
performance partnership with the EPA. In 1995, Governor Whitman 
was the first governor to sign an agreement on behalf of the 
State.
    There are now 38 States I understand voluntarily 
participating in some aspect of this new national system. 
Needless to say, we support the endeavor and have enjoyed 
working with you.
    My first question is if this program is intended to provide 
the frame work for an environmental management system based 
more on environmental results with a true sense of partnership 
between the EPA and States, to what extent have we begun to 
realize the intended benefits? Are you pleased with the rate of 
progress?
    Ms. Browner. Yes. In fiscal year 1997, we actually had a 
total of 47 States participating. We anticipate we will hit 47 
or more for fiscal year 1998. We are very excited.
    I think the large number of States participating is a 
testament to how much they appreciate this flexibility. I think 
everyone is happy with this.
    If someone was unhappy, that would be news to us. You 
should tell us and we will go talk to them. I think the high 
level of participation demonstrates the great success.
    Mr. Frelinghuysen. During the partnership negotiations 
between the States and the EPA, many States, including mine, 
suggested to the EPA that certain State reporting requirements 
are no longer useful or are not providing any environmental 
benefit.
    In some instances, EPA's response is that certain reporting 
requirements are required by Congress and cannot be eliminated 
or changed. Is this true? How can we work with you to identify 
some of those requirements?
    Ms. Browner. We have a very large effort underway. Many 
States are participating. One is the one-stop reporting effort 
through our Reinvention office.
    The goal to streamline all of that. At this point in time, 
we would not, I think, make any recommendation to Congress in 
terms of changing any individual law.
    We may come to that at some point in the future and in that 
case we will be back up here. At this point, we believe we can 
work within the existing law.
    Part of this involves taking advantage of where we find 
ourselves in the information systems of today. It is 
modernizing practices of the last 25 years for the way we move 
information today.
    It has been a large undertaking by both us and the States. 
Quite frankly, some States are better able to undertake it than 
others. That is a part of the challenge we face.
    Mr. Frelinghuysen. Relative to the issue of information 
dissemination, what plans does your agency have to assure that 
the States have that capacity to collect, interpret, and 
disseminate critically important environmental results 
information?
    Ms. Browner. Through PPG, they can target that as an area 
of priority for them and use resources accordingly.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    I have a few others for the record as well.
    Mr. Lewis. Thank you, Mr. Frelinghuysen. Mr. Stokes.

          center for environmental information and statistics

    Mr. Stokes. Thank you, Mr. Chairman.
    Madam Administrator, last fall the National Academy of 
Public Administration issued a major report titled ``Resolving 
the Paradox of Environmental Protection.'' Many of its 
recommendations are echoed by the E4E Report.
    One of NAPA's specific recommendations is that EPA should 
reconstitute its Center for Environmental Information and 
Statistics outside the Office of Policy, Planning, and 
Evaluation and endow it with the stature, independence, and 
resources to develop and maintain a national monitoring system 
that will produce objective, credible, and reliable data.
    Although the report does not mention it, a model for this 
could be the Energy Information Agency which is constituted as 
a separate entity within the Department of Energy.
    It has come to be recognized as a source for energy 
information used by all involved parties. First, do you agree 
with this recommendation? If so, why does the Agency not do 
more to implement it?
    Ms. Browner. Just to make sure I understand, the analogy to 
the Energy Information Agency, that was actually created by 
Congress. Within our existing resources, and within existing 
statutory authority, we looked to create a center; a one-stop 
shopping, if you will, for environmental information and 
statistics. What is far more important to me is making that 
happen than where it is housed in the Agency.
    We collect huge amounts of information from the States, 
from local governments, and from regulated parties. We are 
streamlining it and it is still huge amounts.
    It should be information that is available for those who 
want to understand environmental conditions and public health 
consequences. That is what is really important here. It is 
getting it into a usable data base for any who want to access 
it.

                 fqpa: organophosphates and carbonates

    Mr. Stokes. Let me come back now to an area that I got into 
an area I got into peripherally this morning. I did not get 
time. I was skipping around a little bit trying to get in 
several different questions. I had asked you some questions 
relative to the Food Quality Protection Act of 1996.
    The next question I wanted to ask was why has EPA elected 
to consider organophosphates and carbonates first? I will ask 
you whether you will give the Committee some exhibit of these 
pesticides and their use and how people are exposed to them.
    Ms. Browner. First, under the requirement of the new law, 
we are required to look at aggregate exposure and at chemicals 
that rely on a common mechanism of toxicity. In the case of 
organophosphates, the common mechanism is to attack the central 
and peripheral nervous system.
    The issue and the exposures in terms of the public health 
protection, vis-a-vis organophosphates, include dietary, 
household use, and drinking water. Those are the three that we 
are looking at and collecting data on.
    No decision has been made with respect to the 
organophosphates. We are in the very early phases of looking at 
how we would proceed and what the stakeholder process would be. 
But we are required under the law.
    We think that makes sense. We think that was a very 
sensible thing that Congress did and it had broad bipartisan 
support. If you have two products on the market and their 
common mechanism of toxicity is identical, then do those 
reviews together.
    We do not want to replicate the effort over and over again. 
Where that ultimately leads is not resolved at this point in 
time. We are simply beginning the process, articulating a 
strategy of how we would proceed. It is a game plan, if you 
will.
    The thing to remember about organophosphates is if they 
work that way on bugs, then they arguably have a similar way of 
working, whether or not it is on humans. The effects can be of 
a similar nature, obviously not as bugs die. We are not 
suggesting that.
    Mr. Stokes. It is relatively final.
    Ms. Browner. Yes.

                        carbon dioxide emissions

    Mr. Stokes. Let me go now to an area that you had 
considerable discussion on with one of my colleagues this 
morning. I think I would like to pose a question or two to you 
in that area, perhaps from a little different perspective.
    There appears to be a growing body of evidence in the 
scientific community. The earth's climate is warming and will 
continue to do so unless levels of carbon dioxide resulting 
from extensive use of fossil fuels are reduced.
    Although analysts may disagree on future amounts and timing 
of additional carbon dioxide loading in the atmosphere, is 
there not general agreement that concentrations of C02 have 
been rising fairly steadily since the advent of the Industrial 
Revolution?
    The research performed by Profession Keeling has shown that 
carbon dioxide concentrations have increased from just over 300 
parts per million, 40 years ago, to 362 parts per million 
today.
    Ms. Browner. Yes, yes.
    Mr. Stokes. That is correct.
    Ms. Browner. Mr. Stokes, if I might just add, every ton of 
carbon we put in the environment in the air today will be there 
50, 60, 70 years from today. That is a very long after life. It 
stays up there for a very, very long time.
    Mr. Stokes. It is my understanding that when the corporate 
average fuel economy standards were developed years ago, 
special consideration was given to light trucks. The thinking 
at the time was that there were not too many such trucks.
    Many of them were used for farm work, not highway and city 
driving. Then, of course, obviously things have changed. In 
responding to drivers' wishes for larger, potentially safer 
vehicles and recognize the existence of abundant supplies of 
relatively inexpensive gas, domestic and foreign makers have 
flooded the markets with mini vans, light trucks, and sport 
utility vehicles.
    Some estimates indicate that nearly one vehicle out of 
every two falls into this category. For the most part, these 
vehicles weigh more, pollute more, and use more energy than 
other vehicles. Is the Agency and the Administration concerned 
about the growth in the number of these vehicles?
    What, if anything, are you doing or do you propose to do in 
response?
    Ms. Browner. Two things. When you think about the 
challenges that face us with respect to climate change, the 
emissions we are concerned about fall into roughly three 
categories, transportation being an important one.
    Another one is manufacturing and the other is office and 
household use. That is the general way to think about it.
    Within the transportation sector, the President's budget 
includes two important provisions. One is funding in the EPA 
budget for the Partnership for a New Generation of Vehicles, a 
cooperative venture between the automobile manufacturers and 
federal agencies to develop a three times more fuel efficient 
engine.
    The President has also included in his budget a tax 
incentive package which will become available in three years. 
It will be to a consumer a tax credit for the purchase of a car 
that is twice as efficient as cars today in a similar category.
    So, there are in the President's five year $6.3 billion 
climate change proposal a number of components that focus 
specifically on the transportation sector, using positive 
market incentives and economic tools to stimulate the 
development of the new technologies that will be necessary.

                       children's health centers

    Mr. Stokes. Let me ask you a question about an area that I 
think we touched on lightly. I would like to try and get a 
little more detail from you on it.
    Your statement indicates that in cooperation with the 
Department of Health and Human Services, EPA intends to 
establish six children's environmental research centers. The 
reason I am delayed here is because I am next door with the NIH 
and other Health and Human Services people. I wanted you to 
tell us a little more about this effort, including the cost 
sharing arrangements with HHS, the selection and location of 
the centers, and the areas of specialization of the centers, 
and any use of any non-federal resources.
    Ms. Browner. The current funding levels would have an equal 
match between EPA and HHS. It is $5 million each for a total of 
$10 million. EPA and HHS have received approximately 30 
applications for these centers.
    We are currently reviewing these external peer reviews and 
they are ongoing. We would hope to select the centers at some 
point this summer. We think this is going to be a tremendously 
valuable part of our effort to ensure that when we set public 
health and environmental standards, we take into account 
particularly the children.

                              brownfields

    Mr. Stokes. One of the things I did was ask you a couple of 
questions about, or at least a question about, is the 
brownfields efforts. As you know that is something that has 
been very important to me and Cleveland.
    Of course, Cleveland has been one of the lead pilot cities 
in that effort. Last year you began the effort between HUD and 
EPA. Can you talk about it a little bit and give us some feel 
for where we are and what we are doing?
    Ms. Browner. One of the efforts with HUD has focused on our 
showcase communities. It is an Administration-wide effort and 
has been hugely successful. I think that the first round of 
applications had to be narrowed down to 40, out of which 
something on the order of a dozen or so will actually be 
selected.
    So, that just gives you sort of a sense of how many 
communities were interested in participating in this effort of 
bringing together EPA and HUD. We will be announcing those in 
early April and getting those communities up and running.
    We continue to have a tremendous amount of success in our 
grants program in the EPA pilot assessments. Just as you 
mentioned, the Cuyahoga Community College has just been 
incredible. We are very, very pleased with that.
    Mr. Stokes. I am glad to know that things are progressing 
very well. How many of your brownfield sites nationwide have 
received assistance from both HUD and the EPA?
    Ms. Browner. We may have to respond for the record. I can 
tell you how many we have provided. If we could respond for the 
record, because we are going to have to talk to HUD. Can we 
respond for the record?
    Mr. Stokes. Sure.
    [The information regarding brownfield sites follows:]


[Pages 171 - 173--The official Committee record contains additional material here.]



                           minority business

    Mr. Stokes. If I can have another moment or two, Mr. 
Chairman. One of the areas that you and I have always spent a 
great deal of time on is areas related to diversity; 
particularly with reference to the Agency's approach to 
employment diversity, as well as seeing that those who do 
business with the EPA also reflect diversity.
    Bill Finister who has just left and who I think is probably 
one of the finest public servants I know----
    Ms. Browner. Agreed.
    Mr. Stokes. Bill was scheduled to meet with me on two 
different occasions and on both occasions those meetings were 
canceled because of other reasons. So, we have not had a chance 
to get the kind of a briefing from him that I want.
    I understand he has now left. If you can talk about this a 
little bit for me and if you will supply me some information in 
the record, I will appreciate it. Let us talk about some of 
these areas.
    Ms. Browner. You and I, as you have said, discussed this 
many times. There was a goal that we have set of 8-percent 
Federal assistance in terms of minority and women-owned 
businesses. In fiscal year 1996, we awarded 11.6-percent of our 
dollars to these businesses.
    So, we have significantly surpassed the 8-percent goal. 
Obviously, it is our intention to continue those efforts and to 
see that further expand. It is something we have to remain 
vigilant at. As you know, we have set up a number of processes 
within the Agency to ensure that we were doing this. We will 
continue to do that. I think we have made some real progress, 
thanks to your assistance and oversight.

                       minority employment at epa

    Mr. Stokes. In terms of the personnel.
    Ms. Browner. In terms of the personnel, we have also made 
some progress. I think that one of the programs that we are 
talking to you all about funding this year is the Post-Doctoral 
Program, which will be another opportunity for us to reach out 
to minority post-doctoral students and bring them into the 
Agency for a three-year program and show them what the Agency 
has to offer.
    Hopefully, we will then look to them for long-term 
employment. We are continuing our outreach efforts at HBCs. 
Again, it is something that we have to remain vigilant at.
    It is not something that is simply solved in the course of 
months or years. It means being out there and actively pursuing 
minorities.
    Mr. Stokes. What about SES positions?
    Ms. Browner. SES positions, we now have 17 African-American 
SESers; 12 male and 5 female.
    Mr. Lewis. What about in the hires?
    Ms. Browner. In the hires, we hired three minorities into 
the SES as of February 14, 1998.
    Mr. Stokes. If you will just expand upon all of this for me 
in the record, I would appreciate it.
    [The information follows:]

                         SES Positions by Race

    EPA has 17 African-American SESers; 12 male and 5 female. 
As of February 14, 1998, we hired three minorities into the 
SES; an Asian male, an African-American male and an African-
American female.

    Mr. Stokes. I appreciate your remaining sensitive to and 
responsive to my concerns in this area. We can provide Asian 
Pacific, Hispanic numbers.
    Ms. Browner. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Stokes.
    Ms. Browner. We have the HUD information if you would like 
for us to provide that now.
    Mr. Stokes. Okay.
    Ms. Browner. Forty-seven of the 121 EPA Brownfield pilot 
communities have received some assistance from HUD through 
EZEC.
    Mr. Stokes. Okay. If there is anything further on it, then 
just provide that for the record for us please. Thank you.

                               salton sea

    Mr. Lewis. Ms. Browner, one of the most important 
environmental problems, as well as potential projects in the 
country is getting a good deal of attention as a result of a 
crisis in the west.
    The Salton Sea has come into focus in a special way. It is 
a challenge that we have been talking about dealing with for 
decades it seems. It continues to go unattended, let alone ill-
attended.
    It is suggested that if we wait five years to try to begin 
to solve this problem that the Sea will be all but dead and it 
would be too late to solve the problem. I think your people are 
somewhat familiar with that history.
    A project is beginning to move forward that would have us 
look at several alternatives ranging from a dike alternative, 
which is apparently the least costly.
    It essentially would cut off a section of the sea and pump 
out high saline content of some form, all the way to an 
international project that would recognize it, and flow from 
the new river that comes across the Mexican Border, a 
significant factor.
    At any rate, I am very interested in your comments now 
about the Salton Sea and any discussions you may have had. Then 
from there, we will be talking about a good deal more I am sure 
as the months go forward.
    Ms. Browner. I share your concern about the Salton Sea. I 
have had an opportunity to become better informed. It is a 
large undertaking and a large challenge. It may well be one of 
the most significant problems we have faced in recent memory.
    Obviously, we are all familiar with the temperatures in the 
Delta and the Everglades. Those are areas where activities have 
been ongoing for some time as compared to the Salton Sea. 
Secretary Babbitt did establish an Interagency Management 
Committee which I think you are aware of.
    Mr. Lewis. Yes.
    Ms. Browner. We are a part of that. We are on the Science 
Committee which holds its first meeting on March 24th. We will 
look forward to that and to how we can best facilitate all of 
that.
    We do have the dollars that were provided to us in the 
appropriations process. We will be disbursing those in the next 
several months. In the budget before you, and there may be 
additional things we should focus on.
    I can tell you what is in there now based on what we know. 
I think all of us are learning as quickly as we can. We do have 
money in here for construction of Mexicali I and II which 
should be beneficial.
    There are some smaller projects focused on untreated 
wastewater discharges into the New River which should also 
help. We have funding for an evaluation of an evaporation basin 
to help address salinity.
    We need to hear from people what else we should be 
evaluating. I think we are all learning very quickly here and 
trying to gather all of the necessary information.
    Mr. Lewis. Let me mention, just for the record, so that you 
can think about this. Within the proposed legislation which has 
been introduced and will begin to go forward from both bodies, 
there is a proposal for a consortium of universities to help us 
evaluate where we have been with all of this. There have been a 
dozen or so studies done over the years and a lot of money 
expended there, but nothing ever resulting.
    So, they essentially are given the responsibility, we hope, 
through some of this initial funding to focus upon all of those 
recommendations and maybe help us synthesize that and give us 
some direction.
    There is a Salton Sea Authority which is a long-
established, more localized kind of interest out there who are 
resisting such outsider independent evaluation. I would ask you 
to focus on that a bit.
    Ms. Browner. Okay.
    Mr. Lewis. Because there is a broader picture than just the 
already established interest. It is an item before us. I must 
say, looking beyond that localized approach might end up 
costing us more money over time, but it also might solve 
different problems, too, over time.
    Ms. Browner. I apologize for asking you a question, but has 
the Administration been asked to review the legislation?
    Mr. Lewis. I cannot answer that question, but they 
certainly should be asked. We would ask you to carry that back 
as a matter of fact.
    Ms. Browner. Okay. We will do that.
    Mr. Lewis. If it is not already being done.
    Ms. Browner. Okay.

                reporting requirements: paperwork burden

    Mr. Lewis. We talked about information and volumes of 
information just awhile ago. Another side of the broad issue of 
information management which deserves I think an extended 
discussion is how the gross of information gathered by the EPA 
has impacted the Agency itself, as well as the businesses from 
which the Agency collects information and use it.
    It is fairly well-understood that EPA is among the Federal 
government's most active collector of governmental and business 
information, ranging from emissions of pollutants into the air 
to levels in amounts of pollutants in industrial, commercial, 
and municipal waste water discharges, to the quantities of 
hazardous waste and the byproducts generated, stored, recycled, 
treated, disposed of, and industrial and commercial facilities.
    In 1994, businesses and state and local governments filed 
more than 4.5 billion reports required by 308 different EPA 
reporting requirements. According to EPA estimates, these 
reports required almost 86 million hours to complete.
    According to the General Accounting Office, this annual 
paper work burden associated with EPA reporting increased over 
177 million hours by the end of fiscal year 1996. That is a lot 
of hours.
    In terms of what this has meant for providing annual 
appropriations, spending for such information gathering in 
fiscal year 1994 amounted to between $50 million and $100 
million, by our calculations.
    About $25 million of this was for right to know programs. 
For fiscal year 1998, that number has grown to nearly $400 
million, of which about $200 million is for right to know.
    Although the new 1999 budget justification format makes it 
somewhat different to determine the precise corresponding 
numbers, our best guess is you are requesting about $450 
million for such information gathering this coming fiscal year 
under the specific strategic plan goals of water, pollution 
prevention, global, cross boarder, and right to know. We have 
already discussed how the collection and use of such 
information through the Internet poses significant national 
security and economic questions.
    We are looking at in this regard has to do with reporting 
burdens and the quality of the information collected and 
maintained by the Agency.
    More specifically, EPA does not appear to have a 
comprehensive inventory of health, safety, and environmental 
information that is currently reported by business, 
governmental, and tribal entities.
    Yet, EPA continues to expand reporting requirements and has 
active environmental advisory groups engaged in identifying 
``data groups.'' More reporting and more expense with little, 
if any, improvement of information management might be that 
conclusion. Reports indicate that data quality, for example, 
requires great attention.
    Errors regarding industry performance necessitate expedited 
corrections through an efficient error correction process. Yet, 
it is my understanding that no such process exist.
    In addition, it is incumbent on the Agency to see that 
information is presented in a meaningful context so as to avoid 
public misinformation.
    Finally, it is obviously important for the Agency to 
provide proper information and stewardship. Yet, not only has 
the EPA Inspector General reported that computer security was 
wholly lacking, as I indicated earlier, but even EPA has 
admitted to the loss or mismanagement of hundreds of product 
registration files that were claimed confidential by the 
businesses involved.
    Just as before, I have numerous questions which I would 
like to have you respond to for the record. Initially, however, 
could you please tell the Committee whether the Agency has a 
comprehensive list in one place of all the information it 
collects?
    In other words, could you go to one resource and find out 
what information EPA is collecting, from whom, and at what 
frequency?

             reinventing environmental information program

    Ms. Browner. Well, a part of the problem, as you well know, 
Mr. Chairman, is we function under a variety of laws that have 
a variety of requirements in terms of the information we should 
collect. We are in the process, through our Reinventing 
Environmental Information Program, REI, of looking at where we 
can streamline the reporting, where we can rely on reporting 
received perhaps under one statute to meet the needs of another 
statute.
    This is no small undertaking. It is important to understand 
that we have already reduced the burden on the regulated 
community to fill out forms by over 20 million hours.

                 toxic release inventory (tri) program

    Many of the increases that you pointed to in the course of 
the last year or two have been in the TRI Program, the Toxic 
Release Inventory Right to Know Program. It is true, we have 
asked more companies to report about more chemicals that they 
are releasing.
    We have also established an easy reporting system. We now 
actually will have those reports on floppy disks. That is also 
the case in the NPDES Program, the reporting and the permitting 
program for pollution discharge point sources into waters.
    There, we have a program where we have what we call ``good 
actors.'' Those who have routinely been in compliance with 
their requirements can report less frequently than those where 
we have an ongoing set of problems or an ongoing set of 
questions, if you will, violations in some instances. So, weare 
engaged in this effort.
    Part of the challenge is the fact that we do operate under 
so many different statutes that lay out so many different 
requirements. Merging them into a whole is not without its need 
for a comprehensive effort.
    Additionally, states, in some instances, collect a whole 
other set of information. So, we have engaged with the states 
to see how much we can rely on what they have, and how much 
they can rely on what we have.

                    sector facility indexing program

    You raised a long list of issues for which we would love to 
respond to for the record. But this issue data accuracy that 
you raised is an issue that has come up in our Sector Facility 
Indexing Program.
    This deserves a lot more discussion, but the short answer 
is that this information is provided to us by the regulated 
facilities.
    If they have reason to believe there is something wrong 
with what they are giving us, then I think we would all agree 
it is incumbent on them to verify their information before they 
pass it on to us.
    I think we have an equal burden to ensure when we take that 
information, in whatever format, we make it available to the 
public in an accurate manner. It is their air and water. A lot 
of the questions that have come up have to do with some in 
industry saying, yes, but perhaps what they have been given was 
not accurate. Well, we do not generate the data. We get it from 
industry. They deliver it to us or they deliver it to the 
states who deliver it to us.
    So, there is a lot of effort underway here. We will be more 
than happy to give you a detailed explanation for the record.
    Mr. Lewis. My constituents might say you have got to do a 
better job of picking out who you are asking questions of; 
whether they have got accurate information. In other words, you 
cannot really just lay it off on somebody else, I do not think.
    Ms. Browner. Not completely, and we are not trying to do 
that. The regulated industry is responsible for monitoring 
their air emissions and giving us that monitoring data.
    Mr. Lewis. My question was, you do have one central source 
or one location where we can access information?
    Ms. Browner. We are continuing to develop that.
    Mr. Lewis. As you were initially responding to that 
question you indicated that there were more hours, not fewer 
hours of reporting.
    Ms. Browner. Well, I think in some programs, for example, 
the Public Right To Know Program, you are correct. The public 
is getting more information. We would not in any way suggest 
that we think those are unwarranted hours. It is the public's 
air and water. They do have a right to know.
    Mr. Lewis. One of our difficulties that you have heard me 
wax before about how important it is that we address the 
environment. It is a segment of our public interest that is 
very, very significant and important.
    Over the years, often times voices dominate the debate. So, 
the great people in the middle kind of lose confidence and 
interest otherwise.
    I think sometimes when we over do or overload the 
requirements and requests, we lose a big piece of the 
population, as well as our own credibility. I just urge us to 
be cautious about continuing to expand that volume of flow and 
so on.
    Does EPA have an inventory of all of the information 
resources, public documents and software tools that it has 
produced, endorsed, or funded over the years?
    Ms. Browner. This is Al Pesachowitz, the Acting Assistant 
Administrator for Administration and Resource Management.

                information systems: public information

    Mr. Pesachowitz. I am Al Pesachowitz, the Acting 
Administrator for Administration and Resources Management. We 
do have an inventory of all our systems where we collect data 
through automation or store data through automation.
    We also are participating in the Government Information 
Locator System which provides information as to where you can 
find the majority of information at EPA.
    Mr. Lewis. Stay right there for just a moment. My next 
questions may be for you. How are the Agency's information 
resources being managed? Who at the Agency is responsible for 
the overall quality and integrity of EPA information resources?
    Mr. Pesachowitz. I am also the Chief Information Officer 
for EPA.
    Mr. Lewis. Okay. Who at EPA decides what does and does not 
go on the Internet? What standards, information, quality in the 
context of such decisions?
    Mr. Pesachowitz. Our current policy is that a division 
director has to approve what information goes on the Internet 
for EPA.
    The Administrator asked about a year ago for us to take a 
special look at how the Internet is designed. We went back in 
and redesigned our Internet so that it is user-friendly.
    We are also undertaking an effort to review those documents 
that are on the Internet to ensure that they are not old 
documents and whether they should not be purged from the 
system.
    Mr. Lewis. You have heard the questions earlier about our 
concerns about terrorism and so forth. Since the Agency has 
emphasized the importance of the public's right to know, what 
steps are being taken to obtain an understanding of the 
priority information needs of the average citizen?
    How much, if any, research and analysis the public needs 
has EPA conducted? How much have you spent on those efforts?
    Mr. Pesachowitz. I cannot answer probably the last part of 
that. Although our Center for Environmental Information and 
Statistics, as well as my own office have undertaken a number 
of focus group meetings with the public to try to determine 
public need for information and the extent of that need.
    We get about 20 million Internet hits per month now on our 
Internet site. So, it is an indication that there is a great 
deal of interest in the environmental information.
    Mr. Lewis. Are these from groups or environmental 
activists?
    Mr. Pesachowitz. It is the general public. We do have the 
ability for the general public to provide feedback to us 
through the Internet on those sites.
    Ms. Browner. Mr. Chairman, just so we have given you all of 
the information, we cannot tell how many of those people are 
repeat visitors. There is no way for us to discern that. At 20 
million visits a month, I think the clear indication is that 
there is a huge public desire for the kind of information that 
we have.
    That puts on us a real burden as to how we present it. I 
mean, we just created a new watershed program, giving people 
information on 2,000 watersheds. In one month, we had 2 million 
people visit their watershed.
    Mr. Lewis. Two million people, and/or organizations and/or 
hits.
    Ms. Browner. It would be 2 million hits. That is a pretty 
remarkable figure.
    Mr. Lewis. It comes under the category that it is nice to 
be wanted.
    Ms. Browner. Or it means you do something people care 
about; same thing.
    Mr. Lewis. If or when EPA is made aware of misuses or 
mischaracterization of environmental data by third parties, 
what steps does or is EPA prepared to take to stop such 
behavior and prevent its reoccurrence in the future?
    Ms. Browner. I can tell you from some personal experiences. 
We have contacted organizations where we believe they have 
inappropriately analyzed or interpreted information that is 
available and made that clear to them. Al, do you have 
something to add?
    Mr. Pesachowitz. No. I do not have any other thing to add. 
We often times are asked if there is a publication of 
information. Often times we are asked by news media 
organizations if we agree with those numbers or whatever itis 
and of course respond if we think it is wrong.
    Mr. Lewis. Do you plan to remedy all of the major problems 
identified within your information processes before continuing 
to collect new business, or governmental information, or data 
never before collected?
    Mr. Pesachowitz. I would only say there that we are 
obviously going to continue to try to correct all our 
deficiencies on the information management side.
    That does not preclude the fact that we may need to collect 
additional data and new data. In fact, probably the newer data 
we collect are collected in a more efficient and effective 
manner than the previous data.
    Mr. Lewis. In the area of trying to probe what we are 
investing in this whole subject area, I am asking questions 
about how much are we investing in information.
    Mr. Pesachowitz. Basically, EPA's last submission to the 
Office of Management and Budget included, I believe, about $430 
million in information resource management activities at EPA. 
That is everything including people, hardware, and systems 
development.
    Ms. Browner. Right.

                  INFORMATION SYSTEMS: BUDGET REQUEST

    Mr. Lewis. How much additional resources does the 1999 
budget request?
    Mr. Pesachowitz. I would have to go back and check for the 
record. I would have to gather, again, the 43(a) we just 
submitted. We have to go back to our programs to do that again 
for the 1999 budget.
    Mr. Lewis. Okay.
    Ms. Browner. Mr. Chairman, there is no intention to mislead 
you, but let me explain what the complication is here.
    The numbers Al is looking at are based on efforts, for 
example, where we have a statutory requirement to collect 
certain information. He is looking at what it cost us to do 
that.
    In terms of some of the Right To Know programs, and 
Internet information, like Surf Your Watershed, that number is 
not captured in your total, right?
    Mr. Pesachowitz. Some is and some is not.
    Ms. Browner. That is the concern. Is the impact captured?
    Mr. Pesachowitz. Yes; a portion of impact is captured as 
well.
    Ms. Browner. A portion of impact. So, may we respond for 
the record and try and tease this out for you because it is a 
little complicated.
    Mr. Lewis. As you do that, that is okay.
    [The information follows:]

                        Data Management Funding

    The FY 1999 President's Budget Request is $441.1 million in 
the Agency's FY 1997/1998/1999 report to OMB on Information 
Technology Systems; as required by OMB Circular A-11, Exhibit 
43. This represents a decrease of $2.2 million over the FY 1998 
Operating Plan level of $443.3 million.

    Mr. Lewis. I have got a number of other questions in this 
subject area that I would just as soon put in the record and 
appreciate it. Al, thank you for coming up.
    Ms. Kaptur is not going to come back if I do not call on 
her pretty soon. Ms. Kaptur.

                         STATE REVOLVING FUNDS

    Ms. Kaptur. Mr. Chairman, thank you. I apologize, I had a 
concurrent hearing over in Agriculture where I am Ranking 
Member. I am very apologetic to our witnesses here today.
    I just wanted to go back to a question I asked earlier 
about the funding that is available through the State Revolving 
Funds for infrastructure improvements at the local level.
    Based on the numbers you gave me, and I was sitting over in 
my other committee dividing this out. If there are $2 billion 
or $10 billion by 2005 or whatever the year is, then that means 
for the 50 states, it would be about $200 million.
    If all that money were there to loan out and you had good 
loans across the country, that would be about $200 million per 
state in that year. Now, we know that it is a revolving fund. 
Money is being paid back.
    The costs of building onto this treatment plant would use 
all of that up, as I understand it, just for my little 
community. Now, if we divide it by Congressional Districts, 
there are about $23 million.
    So, I guess my question really is if you require major 
infrastructure improvements, like a major expansion to a 
treatment facility for waste water, and I guess there is a 40-
percent match.
    If you have a $300 million bill minimum, where are you 
supposed to get the money to do that?
    Ms. Browner. First of all, let us set the record straight. 
It is a 20-percent match for the SRF.
    Ms. Kaptur. It is a 20-percent match, okay.
    Ms. Browner. By the state.
    Ms. Kaptur. By the state.
    Ms. Browner. The states create the pot of money that is 
then loaned to the local community. So your state legislature 
appropriates a chunk of money that then goes into this pot.
    If the President's budget request is met, the amount of 
money we would provide Ohio in just one year to the pot for 
just wastewater--not including drinking water--is $61 million 
in one year.
    That is the amount of money that would go into your pot. 
The state would add a 20-percent match. So, in one year, you 
would have something on the order of $73 million, if I did my 
math right. Plus, you have repayments coming in that can be 
loaned out again.
    We can call Ohio and find out what they are revolving at 
right now. Remember, this is happening every year and you are 
getting repayments every year. The money is going back out.
    Whatever capital investment may be necessary, you do not 
spend it in one year. It is probably a multi-year plan to 
address this problem, with expenditures over an extended period 
of time.
    Ms. Kaptur. I think what would be very helpful to our 
community is if I could share with someone in your office the 
projected costs of this thing.
    Then we want to look at how realistic is this. If I 
understand my District, I can understand the rest of the 
country. I am sure they are facing the same problems.
    Ms. Browner. We will have Bob Perciasepe sit down with you. 
He is the head of the Office of Water.

                   BROWNFIELDS: SHOWCASE COMMUNITIES

    Ms. Kaptur. All right. I appreciate that very much.
    The second question has to do with the imminent 
announcement of the showcase communities for brownfields around 
the country. There are about 15 agencies that are involved in 
the selection of these. My question is where is the money 
coming from since it is not a separate line item?
    Ms. Browner. We are each providing dollars.
    Ms. Kaptur. So, each one is.
    Ms. Browner. Yes.
    Ms. Kaptur. Where within EPA would that be coming from?
    Ms. Browner. From our Office of Solid Waste and Emergency 
Response. It is a part of our operating plan that you all have 
approved.
    Ms. Kaptur. Do you have a sense of how much EPA's 
contribution would be in the fiscal year?
    Ms. Browner. For each community that is selected as a 
showcase community, EPA will provide $200,000.
    Ms. Kaptur. What would be the most important criteria EPA 
would use in selecting the first batch of communities?
    Ms. Browner. EPA did not make the selection on its own. EPA 
was one of the 15 agencies that voted on the applications. EPA 
was one. We had no greater weight to this than the others.
    Ms. Kaptur. EPA's share would just be $200,000. Then there 
is a HUD share.
    Ms. Browner. You got it, right. You got it.
    Ms. Kaptur. So, what would be your estimate if a community 
is in the top ten, how much is expected for brownfields?
    Ms. Browner. More than $1 million per city for the showcase 
communities. That will vary depending on the applications that 
they were going to spend it on.
    Ms. Kaptur. Now, I know you could only be one of 15 votes, 
but when EPA cast its votes, what were you looking for?
    Ms. Browner. Tim cast our vote. I think all of the agencies 
used career employees to cast their votes. Tim has been there 
for 26 years, before there was an EPA to be at.
    Mr. Fields. Just briefly. The 15 agencies all voted. They 
looked at different factors. We looked at the extent of 
involvement in brownfield activities within a particular city 
or a community.
    We looked at the relation between the local entity and the 
state government in terms of coordination on brownfields. Does 
the state have a voluntary clean-up program to oversee the 
clean-up of brownfield sites within that city?
    We looked at the involvement of the local community in that 
city. All of those factors were considered in deciding. Again, 
the final decisions have not been made. Hopefully the 
announcement will be made in the next two or three weeks.
    Those are the kinds of considerations that EPA looked at in 
deciding our votes. Obviously the other agencies looked at the 
extent of their involvement. For example, HUD. They would look 
at whether there was some significant HUD involvement in this 
particular community.
    Were there some programs proposed in the application that 
would support HUD's agenda? The Economic Development 
Administration and Commerce were involved. The Department of 
Labor looked at job training initiatives that might be going on 
in the city. So, each of the 15 agencies looked at these 
applications from a different perspective and brought these 
perspectives to the table in deciding on which communities 
ought to be designated as brownfield showcase communities.
    Ms. Kaptur. Let us say that a community is awarded funds 
this year, do they have the right to apply again next year? If 
a community is not awarded funds this year, will there be a 
subsequent reapplication?
    Mr. Fields. Right. The Brownfields Showcase Communities 
Program is meant to be a two-year program. So, if a community 
is designated this year, they would not be able to apply next 
year. We want to make sure it is open to others.
    As Carol said, there are a dozen or so people that we will 
be designating this time. We want to make sure that other 
people can compete next time. So, the people selected in 1998 
would not be able to apply in 1999.
    Ms. Kaptur. If a community were not selected, they 
obviously are still eligible for the EPA brownfield existing 
program.
    Mr. Fields. Assessment Grants Program.
    Ms. Browner. Those are about $200,000.

                CONTAMINATED SEDIMENT RECLAMATION/REUSE

    Ms. Kaptur. Thank you. That is the most clarification I 
have ever had on this. It is deeply appreciated. Thirdly, I 
wanted to ask, Madam Administrator, have you ever personally 
visited, and I know you travel everywhere, any site in the 
United States where waste water is being treated and then 
pasteurized and turned into organic material that is then used 
as a soil compliment?
    Ms. Browner. Wastewater or sewage sludge?
    Ms. Kaptur. Sludge.
    Ms. Browner. I have been to a lot of places. I cannot 
believe I have not been.
    Ms. Kaptur. It did not impress you in any case if you do 
not remember it.
    Ms. Browner. The competition is stiff. There are those 
Superfund sites.
    Ms. Kaptur. I would like to extend a personal invitation to 
you to visit a community in the United States. I wish it were 
my own, but there are others where the entire amount of 
municipal waste is being reprocessed where organics are 
preserved and where that product is then obviously pasteurized 
and reused.
    Ms. Browner. Okay.
    Ms. Kaptur. I know you travel a lot. As you look for sites, 
I think once you see what is happening, it truly is very 
impressive.
    Ms. Browner. Mr. Perciasepe tells me that 50-percent of the 
wastewater treatment facilities are doing it. I have been to a 
lot of wastewater treatment facilities. But I would be happy to 
look at this invitation.
    Ms. Kaptur. They are pasteurizing and reusing?
    Mr. Perciasepe. I do not know if pasteurize is right.
    Ms. Browner. It all has to be cleaned up.
    Ms. Kaptur. I realize that, but then what do they do with 
the end product?
    Ms. Browner. They reuse it.
    Mr. Perciasepe. Land application.

                             METHYL BROMIDE

    Ms. Kaptur. Okay. Finally, I wanted to ask, do you believe 
that there will be acceptable alternatives to methyl bromide 
when the actual date of discontinuation occurs? If not, what do 
we do?
    Ms. Browner. We and the Department of Agriculture have been 
funding the development of alternatives. I apologize. I do not 
know the total funding amount this year. We can get that number 
for you.
    We are working to ensure that those are available. If 
history is any guide, we should get there. It is an all-out 
effort to do just that.
    Do not forget, under the new schedule in 2005 there is an 
essential use exception if it is necessary. So, there is an 
inner mechanism existing.
    [The information follows:]

                Methyl Bromide: Research on Alternatives

    In FY 1998, the Office of Atmospheric Programs has 
allocated $120,000 on methyl bromide alternative development 
grants. In FY 1998, USDA has allocated $15 million to the 
development of alternatives to methyl bromide.

    Ms. Kaptur. I thank you for that.
    Mr. Chairman, I appreciate it. We will submit some 
questions for the record on what has been happening at the 
U.S.-Mexico Border post-NAFTA; particularly the number of 
certified plant, additional plant applications, for the water 
and waste water treatment.
    Mr. Lewis. Ms. Kaptur, we are going to be here tomorrow as 
well. Mr. Frelinghuysen.
    Mr. Frelinghuysen. I do not know whether I am batting 
clean-up, but I have got the word to keep it brief. So, I 
understand, Mr. Chairman, that Mr. Tim Fields started with the 
Agency in 1971. Is that right?
    Mr. Fields. Yes, sir.
    Mr. Frelinghuysen. The employee count in 1971 was 7,100 
employees. I want to know whether or not there was any relation 
between your length of service and the fact that the population 
of the EPA doubled in 20 years. So, now the work force is 
18,375. Is that right?
    Ms. Browner. Yes.

                  hazardous substance research centers

    Mr. Frelinghuysen. Well, we are going to get some of your 
off the record comments after this meeting as to why we had 
this population explosion. Thank you for your service for 26 
years. We appreciate it.
    Madam Administrator, I have one last question. It relates 
to the hazardous substance research centers. Can you tell me 
what is currently being spent in the fiscal year 1998 monies on 
hazardous substance research centers?
    I have written you on that issue. It is still a little 
cloudy from your responses as to what we are spending, what the 
funding levels are.
    Ms. Browner. As I understand it, we will be spending $5 
million for five centers; $1 million each. That is my 
understanding. That is in fiscal year 1998, which I think is 
what your letter requested.
    Mr. Frelinghuysen. We have got that information at this 
moment. We thank you very much. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    I, too, was intrigued by Mr. Fields' length of service. I 
have been talking a lot with Carol otherwise about the word 
``environment.'' In my head, that is about 30 years ago. So, 
you must have discovered it in college or something like that.
    Ms. Browner. He was in grade school.
    Mr. Lewis. Ms. Browner, we appreciate your working with us 
today. We will be adjourning for this evening and closing down.
    We will reconvene tomorrow morning at 9:30 a.m. and run 
through the completion at sometime around noon right here in 
this room. So, we are adjourned until then. Thank you very 
much.
                                         Wednesday, March 11, 1998.

                   Regional Haze: Implementation Plan

    Mr. Lewis. The meeting will come to order.
    Mr. Stokes was here a while ago but is now next door. He 
suggests it will be fine that we went forward, since we have a 
lot of ground to cover and he will be back a little later. 
Thank you, Mr. DeLay, for being here.
    Ms. Browner, we had a wonderful day yesterday, maybe we can 
proceed in a similar fashion today. On July 31, 1997, the EPA 
issued a proposed regulation to address what is commonly 
referred to as regional haze. The purpose of the regulation is 
to improve visibility in 156 parks and wilderness areas 
referred to as Class I areas in the Clean Air Act in 35 States 
plus the Virgin Islands.
    The goal of the proposed regulation is to achieve natural 
background levels in Class I areas; that is visibility which is 
not affected by manmade air pollution. This proposed regulation 
would establish a target of one deciview improvement per decade 
to be achieved in each Class I area until natural background 
visibility levels are reached.
    As I understand it, one deciview equates to approximately a 
10 percent decrease in air-borne particulate concentrations 
whether they be from natural or manmade sources. Several 
decades of emissions reductions will likely be needed to reach 
background levels in most Class I areas. Like the new ambient 
air quality standards for fine particulates, commonly referred 
to as PM 2.5, the proposed rule for regional haze would 
similarly require the control of fine particulates.
    However, such controls would come on a faster schedule than 
PM 2.5 in some areas, will affect more areas of the country, 
and will likely require greater emissions reductions to reach 
background levels. To add distant sources of regional haze of 
perhaps hundreds of miles from Class I areas may be subject to 
emission controls.
    I understand that EPA has calculated that the benefits of 
achieving the first deciview of improvement exceed its cost, 
although two-thirds of the benefits come from assumed health 
improvements even though the purpose of the rule is not to 
improve public health.
    I believe I am correct that EPA has not analyzed the cost 
and benefits of ultimately attaining natural background 
visibility levels. Not surprisingly, industry and at least 16 
States have questioned the need for the regional haze rule, 
arguing that other requirements under the Clean Air Act 
amendments will continue to improve air quality visibility 
without such a new program.
    Under any circumstance, 43 or 44 States have submitted 
comments and either individually or collectively have argued 
that if EPA is to continue with this proposed program, 
significant changes are needed to make the program flexible, 
less burdensome and scientifically sound.
    I might add that California is one of these latter States 
calling for such flexibility. As stated by the California 
Secretary of Environmental Protection, Peter Runi, in a recent 
letter to Ms. Browner, U.S. EPA and the Clinton Administration 
must follow through on their promises and deliver a sensible, 
flexible and cost-effective implementation program for regional 
haze.
    The current proposal does not. Its failure in this respect 
is all the more egregious given the substantial public comments 
offering flexible enforcement and enforceable-based approaches 
received by EPA.
    First, Madam Administrator, am I correct that your current 
implementation plan for regional haze will not precede the 
schedule for the PM 2.5 State implementation plans? And if they 
do proceed, the 2.5 SIPS, the similar character of the fine 
particles being regulated essentially makes a farce of the 
President's directive to delay implementation for attaining the 
revised standards of ozone and PM 2.5, don't you think?
    Ms. Browner. Two points, very briefly. One, this is a 
proposal on which, as you point out, we have received broad 
comment. We are continuing to analyze those comments and we 
will respond.
    In terms of regional haze and the implementation of a PM 
2.5 standard, it is our intention to manage the two together, 
notto have regional haze go first, but to actually combine them 
and look to our efforts with the States to protect Class I areas and 
how best to do that.
    And if we need to be clearer about that we will, but that 
is our intention.
    Mr. Lewis. I think you know, without going over it again, 
of my involvement in air quality matters. But in Southern 
California, I represent a huge, huge district that kind of has 
the variety of the mix of our State. The valleys of the smoke 
are out in the desert areas. They have been called that by the 
Indians because when the wind blew there was sand everywhere. 
You know, it is mostly desert territory and visibility 
questions are ever present. I just do not know how, from a 
Federal rule, you regulate that without a lot of flexibility at 
a local and regional level.
    Ms. Browner. Right.
    Mr. Lewis. If you do plan to go forward with your regional 
haze efforts following PM 2.5 implementation, will there be any 
need to appropriate funds for EPA to review SIPs for regional 
haze until after the 2005 deadlines for PM 2.5?
    Ms. Browner. Yes. At this point in time, Mr. Chairman, I do 
not think we would seek a specific appropriation. We can manage 
it, we think, within our existing budget request. Obviously, if 
something changes in that, we will discuss with your staff and 
others how to best proceed. But, at this point in time, it is 
not our intention to seek an additional appropriation.
    Mr. Lewis. I was really kind of interested in 
appropriations that relate to review of SIPs for regional haze 
until after the 2005 deadlines for PM 2.5 plans.
    Ms. Browner. There are some administrative SIPs that are 
coming in, and we will manage those within the existing system. 
I think it is very hard to say what may or may not happen after 
2005.
    But with those administrative SIPs, we can manage with it.
    Mr. Lewis. In light of all the comments asking for major 
revisions in the proposed regional haze regulations, it is very 
apparent that affected States have a great deal of interest in 
the matter. The States, after all, would likely have to develop 
plans to make reasonable progress towards national visibility 
goals and would have to work together to develop the factual 
record to support their independent regulatory activities.
    Accordingly, there would seem to be implementation issues 
which need to be addressed. First, how many multi-State 
organizations will be needed to develop the necessary 
visibility records throughout the country; and what regions 
will they cover?
    Ms. Browner. That is part of what we are taking comment on 
and reviewing at this point in time. We have not made a 
decision. We are working closely with existing organizations 
like the Western Governors' Association to try and get a handle 
on what they think makes the most sense, but we have not made 
any decisions in terms of what regional entities might be 
appropriate for this work.
    Mr. Lewis. I have a number of related questions to that 
line and the response would have to be similar. So, I think it 
is very important and I would appreciate your notifying the 
Committee when you get to the point of decision or get to the 
point of considering between a couple of options so that we can 
have some information.
    Ms. Browner. We can certainly do that.

                            pm 2.5 monitors

    Mr. Lewis. Okay. With regard to the issues of monitoring 
and baseline, EPA will be required to deploy monitors to 
measure on a spatiated basis the PM 2.5 concentrations for 
visual air quality and other related data in 156 Class I areas 
protected under the proposed regional haze rules.
    How many Class I areas currently have monitors to gather 
the data needed by the States to implement the proposed rule?
    Ms. Browner. We will get you the specific number on the 
monitors that are in place. The monitoring network as part of 
the 2.5 effort will cover some of this. You will be using the 
same monitors for the Class I data collection as you would use 
for the 2.5 data collection.
    Mr. Lewis. Well, I am interested in not just the numbers, 
how many have monitoring, how many do not, et cetera?
    Ms. Browner. We can provide that to you.
    [The information follows:]


[Pages 190 - 194--The official Committee record contains additional material here.]



    Mr. Lewis. One of the elements here that is of interest to 
me and it is a regional and provincial thing, but I mentioned 
the desert country. There is a new set of parks and specially 
regulated areas in the Eastern Mojave where these winds take 
place and I am very interested in knowing what our thoughts are 
about all of that.
    For you can very easily in an area that is the size of 
several Eastern States, I am very sensitive to impacts on the 
urban or suburban centers in the name of solving problems that 
are 50 miles away from those centers.

           grand canyon visibility transportation commission

    Finally, Ms. Browner, as you know the Grand Canyon 
Visibility Transportation Commission is to date the only such 
transport commission created pursuant to the Clean Air Act. And 
in the course of developing recommendations that the agency 
could use to develop its regional haze rule, that commission 
took over five years and spent nearly $4 million. Nevertheless, 
it did not recommend that EPA adopt a new one-size-fits-all 
Federal mandate or directive to improve visual air quality. 
Rather, it indicated that the current requirements of the Clean 
Air Act were sufficient to produce reasonable progress.
    In light of this, why did EPA propose a prescriptive new 
national program and ignore recommendations of the only entity, 
the Grand Canyon Commission, with any specific experience? That 
kind of speaks to where at least a lot of people are coming 
from; they are wondering why.
    Ms. Browner. I think we all agree that the Grand Canyon 
effort was a very positive effort that involved numerous 
stakeholders and a thoughtful process. We are learning from 
that and looking to apply the lessons to this effort and I 
think we have been doing that. Perhaps we have not explained 
that as well as we should have.
    Fred was a member of the Grand Canyon Visibility 
Commission. He participated in all of those meetings and is a 
great asset to us now as we look at these issues, including the 
regional issues that you raise. One issue we are addressing is 
which are the right bodies to manage those regional issues.
    Mr. Lewis. So, Mr. Hansen, can you explain it as good as we 
should have?
    Mr. Hansen. I think that the description has been in there. 
I should be clear that I served on the Grand Canyon Visibility 
Task Force as Oregon's representative before I joined EPA.
    But I think we did not communicate as well as Carol just 
indicated. Our intent, when we developed the regional haze 
rule, was to be able to reflect what came out of the Grand 
Canyon Visibility Commission as well as from the Western 
governors in their recommendations.
    I do not think we communicated as well as we could have. I 
think a number of those issues have been addressed now but we 
are still addressing them.
    Mr. Lewis. Yes. But that takes me back to really kind of 
the simple point here; that was a great experience.
    Mr. Hansen. Absolutely.
    Mr. Lewis. The Commission itself said, we think the 
existing Clean Air Act works fine, so, why did you even--
    Well, they said--so, why did you even propose a rule?
    Mr. Hansen. Well, there were----
    Mr. Lewis. This one worked pretty good. We do not think you 
need any changes in the Clean Air Act to do this. If a 
commission operates reasonably well, represents the interests, 
the stakeholders, et cetera, so, why do you propose the rule?
    Mr. Hansen. The Western governors did recommend a framework 
which the National rule could, in fact, allow for the kind of 
flexibility that we all believe is very, very important. But 
they also understood that we need to be able to address it on a 
broader regional basis rather than just the Grand Canyon Task 
Commission.
    That is where I think the disconnect has been on some of 
that communication about whether our proposed rule was 
reflecting what the Western governors and others had 
recommended.
    But we are in the process now of revising that and I think 
that I at least am confident that we can find common ground as 
we come through this.
    Mr. Lewis. I am confident that we can, too, if we work very 
closely together here.
    Mr. Hansen. Thank you.
    Ms. Browner. Thank you.
    Mr. Lewis. Mr. DeLay.

             carbon dioxide emissions: regulatory authority

    Mr. DeLay. Ms. Browner, yesterday I thought I heard you say 
that you had no authority to regulate carbon dioxide and that 
you were not implementing the Kyoto Protocol.
    Ms. Browner. I do not think I said that but----
    Mr. DeLay. Oh, okay. Well, if you did not, then maybe we 
could----
    Ms. Browner. But wait. Let me be very careful here. You 
just said that I said two things.
    Mr. Lewis. You are always very careful.
    Ms. Browner. One of them I am sure I did not say in the way 
in which you just portrayed it, and you also just said as I 
heard--maybe I am mishearing you--but did you say I was not 
implementing Kyoto?
    Mr. DeLay. Right.
    Ms. Browner. That is correct. I did say I was not.
    Mr. DeLay. Okay. So, I got half of it right. [Laughter.]
    Ms. Browner. I am a little slow this morning.
    Mr. DeLay. Well, do you agree with me that carbon dioxide, 
rather than being a pollutant as the word ordinarily would be 
understood and would be defined in a dictionary, is a gas that 
is absolutely essential for growth, indeed, the life of trees 
and plants, including our Nation's agricultural crops?
    Ms. Browner. As is frequently true with many things in the 
environment, in the right quantities it is a positive 
influence, and in the wrong quantities it is a negative 
influence.
    And that is generally I think what a pollutant is thought 
to be, something that in excess causes a problem.
    Mr. DeLay. Well, insofar as the Environmental Protection 
Agency's regulatory authority is concerned under the Clean Air 
Act as amended, do you agree with me that carbon dioxide 
nowhere is listed in that statute as being either a pollutant 
or an air pollutant much less a hazardous air pollutant?
    Ms. Browner. Well, there are many things that are not 
specifically named in the Clean Air Act, Clean Water Act, and 
other environmental statutes where I think there is wide-scale 
agreement that setting pollution standards, public health 
environmental standards is important and is part of what we do.
    Mr. DeLay. Well, in as far as EPA's regulatory authority 
under this Act, is it not true that neither you nor any 
predecessor administrator has made a determination under the 
law that carbon dioxide is either a pollutant or an air 
pollutant or even a hazardous air pollutant?
    Ms. Browner. I do not think there has been any legal 
determination under the Clean Air Act.

                carbon dioxide emissions: internal memo

    Mr. DeLay. The March 6, 1998, issue of the publication 
called, ``Inside EPA'', contains an article referring to a 
memorandum allegedly prepared by someone inside EPA which 
asserts that the EPA had the authority under the Clean Air Act 
to regulate carbon dioxide emissions.
    Have you seen or otherwise been informed of any such 
memorandum?
    Ms. Browner. First of all, I want to make very clear that 
``Inside EPA'' is a private publication. It is not a product of 
the Environmental Protection Agency. It is a group of reporters 
like any other group of reporters who cover EPA in articles.
    Mr. DeLay. Not a product of the agency?
    Ms. Browner. No. There is a lot of confusion about this. 
People think we put it out. Rest assured, if we put it out, I 
would get better press in it. [Laughter.]
    Ms. Browner. As would you, Mr. Chairman. We would see to 
it. [Laughter.]
    Mr. DeLay, after that article appeared there was a 
subsequent article, which I am sure you are aware of, in the 
Washington Times, I believe on Saturday. There may have been 
another article in the Washington Times on Tuesday or Monday, 
after the first Washington Times article.
    I asked ``what is this?'' and I was shown a copy of the 
memo. I had not seen it before then.
    Mr. DeLay. So, you have seen it since?
    Ms. Browner. I have now seen it, yes. I think we have it 
with us and we would be more than happy to give it to you.
    Mr. DeLay. I would love to have it because I do not know 
that I have that particular one. I do have two documents 
though, maybe two other documents other than that one. One is 
consisting of three pages that is entitled, ``Environmental 
Provisions in Electricity Restructuring Legislation.''
    Ms. Browner. Right. That is one of the memos I think that 
is referenced. I have not read the Inside EPA article. I 
believe this is one of the memos that may be referenced in one 
of the Washington Times articles. It looks like you have the 
memo.
    Mr. DeLay. Yes. And then the other one that I have is one 
that consists of two pages that is entitled, ``Electricity 
Restructuring and the Environment: What Authority Does EPA 
Already Have And What Does It need?''
    Do you have that one?
    Ms. Browner. Yes. So, you have the two memos that I was 
referring to, yes.
    Mr. DeLay. Okay, good.
    Did you request or authorize the preparation of either of 
these two documents or did you request or authorize its 
preparation?
    Ms. Browner. No.
    Mr. DeLay. Do you know what EPA official 
requestedpreparation of either or both of these documents?
    Ms. Browner. No, I do not. That is not to say, however, 
that we do not have people who I trust to engage in dialogues 
across the Administration on a whole host of issues and to 
prepare their points of view and to make those available and I 
would assume that is what has happened here.
    As I said, I did not see these until the Washington Times 
article of this week. I think it was a Saturday article.
    Mr. DeLay. I believe you. Could you promptly make an 
inquiry and inform this committee of the inquiry of which 
person or persons----
    Ms. Browner. Prepared the memos?
    Mr. DeLay [continuing]. Prepared these memos?
    Ms. Browner. Certainly, yes.
    First, I will give it to ``Inside the EPA'' and then you 
can read it and then you can reread it in the Washington Times.
    Mr. DeLay. That will be good.
    Mrs. Meek. Would the gentleman yield?
    Mr. DeLay. Yes, sure.
    Mrs. Meek. What article are you talking about? I am 
clueless as to what you are talking about.
    Mr. DeLay. Well, there was an article in ``Inside EPA'' 
that was talking about these two memorandums and then there was 
an article, as Ms. Browner has said, an article in the 
Washington Times over the weekend about the same thing.
    Ms. Browner. There have been two now in the Washington 
Times, one yesterday and one on Saturday.
    Mr. DeLay. Yes. It is basically making the case that they 
are, indeed, implementing the global warming treaty before the 
Senate ratifies it.
    Ms. Browner. With all due respect having read the articles, 
I would suggest that they raise the question.
    Mr. DeLay. I stand corrected. They raise the question, 
therefore, I am raising the question here.
    Ms. Browner. With all due respect.
    Mr. DeLay. Yes. [Laughter.]

              carbon dioxide: predecisional nature of memo

    Each of these two documents bears a notation at the bottom 
of them that uses the word, pre-decisional. And I do not know 
what that means but could you tell us the subject matter of all 
the decisions to which these documents relate and the timetable 
of making such decisions?
    Ms. Browner. There----
    Mr. DeLay. It says, pre-decisional, so, evidently----
    Ms. Browner [continuing]. Yes, I do not know what that 
means.
    Mr. DeLay [continuing]. It was submitted to--you do not 
know what pre-decisional means?
    Ms. Browner. Well, I can tell you what I think it means. I 
do not know what it means in the context of this memo because I 
think there is no decision in the way you are suggesting.
    What this means generally when it is used is this is an 
individual or a group of individuals' thoughts on how something 
may or may not be occurring or how it might occur. At that 
stage it in no way represents official agency policy or has 
been cleared through the management of the EPA. It happens the 
same way that I am sure your staff occasionally drafts a memo 
and you look at it and you say, well, that is not my opinion, 
that is not what I believe, and we need to rewrite it.
    I think that is why the pre-decisional language is used 
here, but we will certainly ask the people who wrote these why 
they chose to use that. I understand your question, and I think 
it is an appropriate question. The word decision in pre-
decisional creates an appearance.
    And all I would say to you is I do not think that 
appearance is accurate, but I certainly understand why you 
would take that away from this.
    Mr. DeLay. When you find these people and ask them, could 
you ask them to answer this question, if there have been 
decisions based upon these memos?
    Ms. Browner. There have been no decisions based on these 
memos. I make the decisions.
    Mr. DeLay. Okay, good. Well, if that is the case and you 
have seen the----
    Ms. Browner. I am not saying I do not necessarily agree 
with some things in the memo and disagree with others. But, in 
terms of decisions----
    Mr. DeLay. Well, we do not have time here to go through all 
of it to see which one you disagree or agree with. The 
following statement appears at the top of the first page of the 
second document, which is ``Electricity Restructuring and the 
Environment: What Authority Does EPA Have and What Does It 
Need'', it says and I quote, ``EPA currently has authority 
under the Clean Air Act to establish pollution control 
requirements for all four pollutants of concern from electric 
power generation, nitrogen oxide, sulphur dioxide, carbon 
dioxide, and mercury. Action could be taken under provisions 
for meeting national ambient air quality standards addressing 
trans-boundary pollution or setting technology based emissions 
standards.''
    Insofar as that statement refers to carbon dioxide, do you 
as the Administrator agree with that statement; and if you do 
not agree with it completely insofar as it refers to carbon 
dioxide, could you please tell us to what extent, if any, you 
disagree with the statement?

              carbon dioxide: legal authority to regulate

    Ms. Browner. That is a general summary statement about 
authorities provided in the Clean Air Act which I would agree 
with. There are broad authorities granted to EPA to address 
certain pollutants, including those listed, and many others.
    Mr. DeLay. So----
    Ms. Browner. I would just----
    Mr. DeLay [continuing]. You do think that the Clean Air Act 
allows you to regulate the emissions of carbon dioxide?
    Ms. Browner. I think we are granted broad authority under 
the Clean Air Act to----
    Mr. DeLay. Would you get me a legal opinion on that?
    Ms. Browner. Certainly.
    [The information follows:]


[Pages 200 - 206--The official Committee record contains additional material here.]



    Mr. DeLay. Okay, good.
    Ms. Browner. Mr. DeLay, I might just call your attention to 
the next sentence because I think they really warrant being 
considered together. It points out that the Clean Air Act does 
not provide the Agency with the authority to address certain 
pollutants using market mechanisms which we all agree have been 
tremendously successful.
    So, it is important to understand that the memo was looking 
at how do you go about addressing certain pollution problems in 
the most cost-effective, common-sense way. It was flagging the 
fact that, in the opinion of the writer, whom I do not know who 
it is, the Clean Air Act does not provide those kind of common-
sense, cost-effective solutions.
    Mr. DeLay. Okay. The first few paragraphs of thatmemorandum 
entitled, ``The Environmental Provisions'' and so forth, refers to 
President Clinton's October 22, 1997, speech on climate policy.
    The memorandum quotes from the portion of the so-called 
fact sheet accompanying the President's speech which said, and 
I quote, ``With the appropriate market based provisions 
electricity restructuring legislation could reduce carbon 
emissions by creating incentives to produce and use electricity 
more efficiently and with less pollution.''
    Then on page three of the memorandum in the last paragraph 
there are references to market based cap and trade provisions 
for these pollutants in the Administration's restructuring 
proposal. The text says of such an approach, and I quote, ``It 
would be seen as a concrete step to move forward domestically 
on global warming, while continuing to work for progress 
internationally, in the follow-up to Kyoto.''
    Ms. Browner. Are you on page one?
    Mr. DeLay. No. I went from----
    Ms. Browner. One to----
    Mr. DeLay [continuing]. One to page three.
    Ms. Browner. Okay.
    Mr. DeLay. And in the last paragraph there are references 
to market based provisions where it says, market based 
provisions for these pollutants in the Administration's 
restructuring proposal, about three sentences down.
    Ms. Browner. I am with you.

                   electricity industry restructuring

    Mr. DeLay. And then it also says on down that it would be 
seen as a concrete step to move forward domestically on global 
warming, while continuing to work for progress internationally 
in follow-up to Kyoto. Is it the EPA's or your position as the 
Administrator that electricity industry restructuring 
legislation should contain provisions that place caps on 
electricity-related carbon dioxide emissions as well as related 
provisions concerning domestic emissions trading, even before 
the Senate ratifies the Kyoto proposal?
    Ms. Browner. The Administration is engaged in a multi-
agency multi-department discussion as to electric utility 
restructuring legislation and, as I understand the process, 
there will be Administration legislation or principles. We are 
part of that process. No decision has been made at this time.
    It is a robust dialogue, as it well should be to serve the 
American people well, and the writer of this memo had a set of 
opinions about what opportunities might lie there. That does 
not mean that an Administration decision has been made.
    But the other thing I just want to say here is that the 
President pre-Kyoto, going back five years now, has been very 
clear that we must look at all of the tools available to 
address the domestic global warming challenge. We have had a 
plan in place and there is no surprise in that. And we have 
committed to continuing and, in some instances, expanding that 
plan. We have also been very, very clear, and I personally have 
met with utility executives, about the fact that economic 
market incentives are one of the smart ways to go.
    I think there is a lot of agreement in the utility sector 
that the acid rain program was a very successful use of those 
tools and nothing in our opinion about that has changed.
    Whether or not utility restructuring is the place to do 
that, whether or not it should be done somewhere else, is an 
open question.
    Mr. DeLay. Well, what current and planned activities of the 
EPA and all that, EPA activities that could be funded properly 
by appropriations under the President's request, whether or not 
such activities are planned that directly and indirectly are 
related to the issue of inclusion in the electric restructuring 
legislation of provisions that place caps on electricity-
related carbon dioxide emissions? Or any related provisions 
concerning domestic trading.
    Ms. Browner. There is nothing in Environmental Protection 
Agency's budget request with respect to caps and a market 
driven emissions credit trading program. I think as the memo 
that you are citing from says, that is not something that the 
Clean Air Act or any other statute has given any one the 
authority to do.
    The authority in the Clean Air Act was for an acid rain 
program and it does not extend beyond that in terms of 
requiring participation. This gets complicated because on the 
NO<INF>X</INF> side, we are going to do a model program which 
the States are probably going to opt into, but it is not 
something we can require utilities to participate in.
    In this instance, the memo is pointing out that the legal 
authority to set up a cap and trade program which for carbon 
does not exist.
    Mr. DeLay. Okay.
    Ms. Browner. And I think you and I are in agreement on 
that, on that.
    Mr. DeLay. That is for sure. We are in agreement on that.
    Mr. Lewis. Move along.
    Mr. DeLay. We are moving, we are agreeing on something.
    Ms. Browner. We have agreement.
    Mr. DeLay. Yeah.
    Mr. Lewis. I do not want to start a revolution here. 
[Laughter.]
    Mr. DeLay. Quit while I am ahead. [Laughter.]

              international programs: developing countries

    I will be very brief on this next one. I am very concerned 
about the Kyoto Protocol and the provision of opting in, 
developing countries opting in. And you have asked for an 
increase in funds for the purpose of securing such meaningful 
participation from developing countries, I understand. Which 
developing countries do you expect to be able to persuade to 
opt-in to Kyoto?
    Because clearly China and India are key developing 
countries to have on board before the treaty can be ratified. 
But what makes you think you will be able to persuade them, 
since they were responsible for killing the participation 
provision at Kyoto?
    Ms. Browner. First of all, I want to be very clear, this is 
not a new program that we are seeking funding for. This program 
has been in existence, I think, for four or five years now. We 
have provided funds to this program previously and what we work 
with other countries on a variety of issues related to climate 
change. Again, this is not a new program.
    This has not come about because of Kyoto. It has been there 
and we are more than happy to show you what the program has 
done previously and what we believe the opportunities are as we 
move forward.
    Mr. DeLay. But your justification in your request 
specifically asks for more funds for----
    Ms. Browner. Yes.
    Mr. DeLay [continuing]. This kind of activity.
    Ms. Browner. Absolutely. We ask for more funds in all of 
our existing climate change programs. That is absolutely 
correct. The total dollar amount, I think, is $206 million, 
that is an increase off of a base of $89.4 million. Absolutely 
there is no secret about that.
    Mr. DeLay. Well, but, go back to my question. What makes 
you think that you can persuade India or China to opt-in if 
they were part of killing the participation part of Kyoto?
    Ms. Browner. Let me be clear. The request for funding for 
developing countries is not for us to go out and pressure them 
to opt-in to Kyoto. It is to continue to work with them on 
projects and on efforts underway that do result in and may 
result in climate, greenhouse gas reductions.
    I think you are trying to read into this that this money is 
to get countries to ``opt-in''.
    Mr. DeLay. So, you do not think you can get them to opt-in?
    Ms. Browner. I did not say that.
    Mr. DeLay. Well, I am trying to get you to answer the 
question I am asking.
    Ms. Browner. I am pointing out what the money will do. This 
is obviously----
    Mr. DeLay. So, you are not going to use any of this money 
to try and convince these countries to opt-in?
    Ms. Browner. That is not what this program is designed to 
do.
    Mr. DeLay. What, not to persuade countries to opt-in to 
Kyoto?
    Ms. Browner. The point is that this is an existing program. 
We have been engaged in these activities long before the 
concept of opt-in ever emerged.
    Mr. DeLay. Right. But now, you are engaged, and we have a 
Kyoto proposal now, and I understand through all kinds of 
different documents and your strategy opinions and all kinds of 
things that you are trying to convince these developing 
countries to opt-in to Kyoto. Now, I just heard you, I think I 
heard you say that you are not going to spend this money on 
that effort to encourage them to opt-in.
    Ms. Browner. Well, let me be clear. There are obviously 
efforts underway and they have been very public, led by the 
State Department to work with developing countries and there is 
no secret in that. The question that I was responding to, 
perhaps not the question that I thought you were asking, is our 
work with the developing countries, is it quote, to go out and 
force people or cajole people into----
    Mr. DeLay. Or persuade.
    Ms. Browner [continuing]. Kyoto?
    Ms. Browner. Or persuade, whatever the word is you might 
want to use. There is a program that is led by the State 
Department in terms of bilateral----
    Mr. DeLay. So, that is not what you do, though?
    Ms. Browner. We have an existing program and we are seeking 
to increase the funding for that program.
    Mr. DeLay. If the Kyoto Protocol was ratified, would you 
still need that money?
    Ms. Browner. We think these are successful programs. They 
are very similar to the programs and partnerships we have with 
the domestic business community to demonstrate energy 
efficiency, to develop new energy efficiency technologies, 
whether it be cleaner cars or more efficient computers.
    Every one of you who uses a computer probably benefits from 
a cooperative agreement between EPA and the computer industry. 
Your computer goes to sleep. It uses less energy when you walk 
away from it but you do not have to turn it off for that 
benefit.
    These are the kinds of programs we are talking about, 
demonstrating that with energy efficiency comes a corresponding 
reduction in greenhouse gases.
    Mr. Lewis. I think that was a, yes.
    Mr. DeLay. Okay. Well, I will yield back, Mr. Chairman, I 
appreciate it.
    Mr. Lewis. Thank you, Mr. DeLay.
    Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman.
    Good morning.
    Ms. Browner, I am back to some of the questions I asked 
yesterday and I understand that one of your administrators will 
be here today to address this question.
    Ms. Browner. Mr. Chairman, if I might introduce John 
Hankinson. He is the Regional Administrator for Region IV, 
which includes Florida, Georgia, Kentucky, Alabama, Tennessee, 
South Carolina, North Carolina, and Mississippi.
    Mr. Lewis. John, can you come up here and take a seat?
    Mrs. Meek. How are you doing?
    Mr. Hankinson. Good, good to see you.
    Mrs. Meek. Good.
    Mr. Lewis. It is very apparent that the Administrator is 
paying close attention to you.
    Mrs. Meek. I think so. I think I deserve it. [Laughter.]
    Ms. Browner. And I agree.
    Mr. Lewis. So, do I. I am sure not going to disagree.
    Mrs. Meek. The chairman kind of likes me, Ms. Browner. 
[Laughter.]
    I can see him blush but he cannot see me. [Laughter.]
    Mr. Lewis. Now, what are you going to do with that? 
[Laughter.]
    Ms. Browner. I have known Mrs. Meek probably for 15 years 
now.

                      brownfields: winwood project

    Mrs. Meek. Well, thank you for coming. I have an area in my 
district that is called Winwood. It is right off of 36th 
Street, very near the airport. And I am particularly interested 
in the Brownfields project in Winwood. I asked a question 
yesterday regarding what EPA could do to facilitate the 
resolution of liens and such kinds of things that are left on 
property that has been designated as a Brownfield project. Such 
areas exist in my district.
    This is a five-acre parcel and it has very good potential. 
It is very close to the downtown area and very close to the 
seaport, very close to that whole area there. The State of 
Florida funded this project for $500,000 and that was to be the 
cost of the environmental assessment and full remediation of 
the contaminated soil on that site.
    The developer's name is William Cocoast, and he is the 
principal of the Atwater Capital Group and he is an experienced 
brownfields redeveloper from the Chicago area. I understand he 
has a very good track record in this kind of thing. It is my 
understanding that the IRS has a lien on the property of 
$102,000 and this lien has been pending since 1992.
    There are other liens on the property but they do not seem 
to be insurmountable. One of them, from my understanding, is 
with the school district and the other one is with the city, 
itself, the Dade County School Board in the city of Miami which 
we can work on.
    My question is, I know that EPA cannot make any promises as 
to the outcome of this, but will you take a close look at it 
and help us work our way through this with the Internal Revenue 
Service? Right now, we do not understand how to do this or how 
we can present this but we would like to move the project 
forward and that is what is holding us back.
    Mr. Hankinson. We have been very active in Brownfields in 
the South Florida area and I would be happy to get one of our 
Brownfields folks together with the IRS and see if we can help 
move that along.
    Mrs. Meek. That is very good. So, my contact here is John 
Schelble, my staff director.
    Mr. Hankinson. Okay.
    Mrs. Meek. And also what is important here, Mr. Chairman, 
is to show that there is a very compatible relationship between 
economic development in these areas and the ability to work 
through some of the many problems that cause it to become 
vacant as it is now.
    So, I am sure that my area is not the only area in this 
country with that problem but it is something I think that EPA 
should look at in terms of what impediments prevent these 
communities from utilizing these properties in a positive way 
just so it will not become purely provincial, that it will help 
all the other areas in the country that may have a similar 
problem.
    Mr. Hankinson. We will do that.

                       wastewater: class i wells

    Mrs. Meek. Okay, thank you.
    The other problem has to do with the Class I wells and the 
problem we have in Florida. It has to do with domestic 
wastewater in deep injection wells.
    I asked a question yesterday regarding fluid migration. And 
it is my understanding that treated effluent is injected to a 
depth of 3,000 feet using these lower-quality Class I wells. 
Our problem in South Florida is that effluent is migrating 
upwards to a depth of 1,500 feet, instead of staying down 
below.
    Now, the Florida DEP has been working with the wastewater 
disposal industry. Recently they proposed a regulatory solution 
to this problem, which involves reclassifying the injection 
wells as Class V wells, but the EPA rejected this proposal.
    I understand that no fluid migration whatsoever is allowed 
in these wells. It is a big problem for us in South Florida. I 
understand that Broward County is facing a moratorium due to 
this problem.
    My question is, since the EPA has not accepted the 
industry's and Florida DEP's suggestion, what alternative 
solutions to this problem does the EPA propose to implement in 
light of the fact that there are virtually no alternatives to 
the continued use of wastewater underground injections by South 
Florida municipalities.
    We are at a standstill in that regard.
    Mr. Hankinson. Yes. This is an important issue for Florida 
and particularly South Florida and the area you represent. You 
described the facts pretty well, there is migration of 
pollutants up from the boulder zone into drinking water 
aquifers. And this is the concern that EPA and the State have 
for these wells because they are not supposed to be allowed to 
do that.
    Mrs. Meek. Right.
    Mr. Hankinson. We are working very hard with DEP to try to 
work out a solution. My staff has been meeting with the State 
on a regular basis. We hope to have some resolution by the end 
of April in terms of how to deal with this. There are other 
ways of dealing with it other than reclassifying the wells.
    The challenge to a proposal to reclassify the wells to 
Class V is that would mean the water being put into the wells 
would need to meet drinking water standards. And since this 
water does not meet those standards it is difficult to see how 
a reclassification could be achieved but we are looking at all 
alternatives with the State.
    The State has been working with the wastewater industry and 
with the local governments there to work out a solution because 
it represents a lot of wastewater in Florida that is being 
managed this way.
    Mrs. Meek. And I am pushing this a little bit because we do 
need a resolution of this problem. The problem is getting 
bigger, our population continues to grow and, hopefully for the 
record, EPA could give us some sort of timetable regarding how 
we can identify a reasonable solution to this.
    Is that possible?
    Mr. Hankinson. We feel comfortable that we will have some 
agreement with the State by the end of April. That is what we 
are targeting to reach a resolution.
    Obviously we have water supply challenges in South Florida 
as well and we are trying to work with the local entities to 
make that water available for beneficial uses and not simply 
put it into the bore holes, into the boulder zone.
    But there are a number of directions that you could take 
and we know it is a big problem for that area and we are 
working very closely with the State.
    Ms. Browner. We will work to achieve a resolution by the 
end of April. We will notify you if, at some point in the 
process, that looks unlikely and then explain to you where we 
intend to go.
    Mrs. Meek. Thank you very much, that will help us a lot.
    Ms. Browner. Good.
    Mrs. Meek. Thank you.
    Mr. Lewis. Thank you, Mrs. Meek.
    Mrs. Meek. And thank you for coming up here for little old 
me.
    Ms. Browner. He was here.
    Mr. Hankinson. It was good to see you again.
    Mr. Lewis. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Ms. Browner, I would like to return briefly to the question 
of the new ozone and fine particulate matter standards.
    Ms. Browner. Okay.

                ozone standard: implementation schedule

    Mr. Price. I have had the opportunity to talk with a number 
of the researchers in your lab in North Carolina that worked on 
those standards. They have, of course, worked long and hard to 
develop these standards and they have been very generous in 
their time with me.
    I want to commend you and the Administration for developing 
a flexible implementation schedule--I think that is important--
allowing for the monitoring of PM levels on a much wider basis 
and some more testing of health effects over a five-year 
period.
    I also commend you for allowing States three years to 
develop implementation plans for ozone after the new standards 
take effect.
    I have stayed in close contact with the North Carolina 
Division of Air Quality regarding these new standards and know 
that they are committed to meeting them. I think they believe 
that we can achieve the new eight-hour ozone and fine 
particulate matter standards in the time frame that you have 
established, just as we brought our entire State into 
compliance with the current one-hour ozone standard.
    There does seem to be one sticking point, however, and that 
is what I want to talk with you about today. I was surprised to 
hear late last year that under an EPA notice of proposed 
rulemaking, the implementation schedule for ozone that we were 
counting on to allow us sufficient time to adapt to the new 
ozone standard might no longer be available.
    We have been an active part of the Ozone Transportation 
Assessment Group, the so-called OTAG process, and our Division 
of Air Quality served as the lead agency in the Southeast 
modeling center efforts.
    Now, from the perspective of the North Carolina Division of 
Air Quality, the objective of OTAG was to address regional 
transport of ozone under the one-hour standard.
    The results of OTAG modeling, as well as some supplemental 
modeling, are that North Carolina does not significantly impact 
one-hour ozone non-attainment areas in other States. That has 
been the conclusion.
    Ms. Browner. I do not know each State modeling, so, I 
assume that is accurate.
    Mr. Price. That, I believe, is the result. Based on this 
result, I am wondering about the wisdom of requiring North 
Carolina, and possibly other States, to revise its State 
implementation plan before it is allowed to complete the 
necessary modeling and cost analyses for a revised plan.
    The Division of Air Quality believes that it needs the full 
three years provided in the Presidential directive on 
implementation issues regarding the new standards to develop a 
plan that will meet the goals related to transport and local 
attainment under the eight-hour standard.
    Could you address that this morning? Talk about the process 
underlying your decision to hold States accountable to the new 
eight-hour standard for ozone transport prior to holding them 
accountable for the new standard locally.
    Ms. Browner. I can appreciate why there may be some 
confusion here. The work that OTAG did was done under the one-
hour standard. The upper end of the range of reductions that 
OTAG--which the States themselves recommended to Environmental 
Protection Agency--has the effect for many areas of bringing 
them into compliance with not just the one-hour standard, which 
is what they were working on, but the eight-hour standard also.
    If you achieve these reductions largely from utilities, you 
will for many areas be able to achieve both the existing or the 
historical one-hour ozone standard and the new eight-hour 
standard.
    I want to be clear that there is nothing in the OTAG 
proposed SIP call, which we are now taking comment on, that 
changes the time line for the eight-hour standard. That time 
line stays in place. But many places are looking at how to 
manage the two in a coordinated manner because that makes more 
sense for their industry.
    Mr. Price. Our State's understanding has been that it has 
to accelerate the process called for by OTAG, and to do it in a 
time frame that will really make it very difficult to 
accomplish.
    Ms. Browner. And with all due respect to your State--and we 
have a very good working relationship with your State agency--I 
think that there may be a slight disagreement.
    We should ask the people at RTP to sit back down with the 
State, but I do not know that we would agree with their 
assertion that they have no one-hour transport problem.
    And I think the premise of your question flows from their 
statement that they do not have a one-hour transport problem.
    Mr. Price. Well, they do think that they do not have a one-
hour transport problem.
    Ms. Browner. And that may be right.
    Mr. Price. But whether they do or not, the problem is that 
having to revisit the matter in this very short time frame with 
regard to the eight-hour standard for which there is otherwise 
a very flexible implementation schedule----
    Ms. Browner. That is not what they are being required to 
do.
    Mr. Price. What is the----
    Ms. Browner. What is happening right now is comment--which 
many States are providing and I am sure your State will 
provide--on the work done by OTAG with respect to the one-hour 
transport issue.
    Here is where I think we may have a disagreement that we 
would work with the State to resolve. You are telling me that 
the State experts are saying to you, North Carolina does not 
contribute to a one-hour transport problem and we are telling 
you that we think it does.
    We should get the experts together.
    Mr. Price. Well, I do not think there is any dispute that 
if the standards are being violated under the current, one-hour 
standard, those violations need to be addressed and addressed 
immediately.
    The problem has to do with the transition to this new 
standard. And a time frame for transport, for dealing with the 
transport issue that is much less flexible than the time frame 
for dealing with the local pollution issue.
    As a matter of fact, the State does believe some additional 
controls may be required to meet the eight-hour standard, to 
make the transition from the one-hour to the eight-hour 
standard.
    The State does not know that, but it is concerned with 
having to address transport without looking closely enough at 
local attainment and having to make some changes to their 
implementation plan in the future as a result. The question is, 
do we have time to develop a plan for transport and local 
attainment in an orderly and reasonable way?
    Ms. Browner. The implementation plan announced by the 
President as part of the new standards remains in effect for 
the eight-hour standard. Nothing in that has changed. I think 
there are many areas that are considering--and I have met with 
governors who have shared this with me--whether or not in 
addressing the one-hour transport issue that is squarely before 
them, that they may also be able to meet the eight-hour 
standard. They are taking advantage of that but they are not 
required to.
    Mr. Price. But what if they cannot? I mean it is wonderful 
if both standards can be met at once.
    Tell me if this is wrong, but my understanding is that in 
your proposed rule, you are indicating that the SIPs are 
required earlier from the States that transport ozone because--
and here I am quoting--``The information on controls in upwind 
States is essential to the downwind States in the latter 
States' attainment planning.''
    My question is, if the modeling already indicates--and of 
course, this modeling has gone on now for some time--if the 
modeling indicates the extent to which States contribute to 
transport into other States, why is it necessary to actually 
implement the transport reductions at the earlier stage?
    I do not understand in what sense that is necessary for the 
downwind States to do their planning.
    Ms. Browner. Because the focus is on the one-hour transport 
issue. Right now I do not want to agree with your State's 
assertion that you do not have a one-hour problem. Many areas 
have a one-hour transport problem. And that is the focus of 
this effort now.
    What I think we are doing, and this is where the States 
have been quite helpful, is also providing the eight-hour 
modeling so that hopefully in many areas rather than taking a 
separate step to meet the one-hour standard, you will 
simultaneously meet the eight-hour standard.
    Mr. Price. No question that would be desirable. But the 
question is, is it going to be required in a way that makes an 
orderly process more difficult? Our State anticipates----
    Ms. Browner. You are only required to meet the one-hour.
    Mr. Price. Excuse me.
    Ms. Browner. Right now, the requirement is to meet the one-
hour.
    Mr. Price. Yes, and there is no quarrel with that.
    Ms. Browner. Okay.
    Mr. Price. No quarrel with that whatsoever.
    The question is, is this eight-hour standard now, with 
respect to transport, is this eight-hour standard being brought 
into the picture in a way that makes compliance more difficult? 
Their implementation schedule for compliance on the ground is 
quite reasonable, quite flexible.
    But with respect to transport, it appears that before the 
one process is completed--and the State does think that the 
eight-hour standard is going to pose some additional 
challenges--is the State being required to scramble in ways 
that are really not feasible in dealing with this new standard.
    Ms. Browner. I do not think so. But, obviously, someone in 
your State does and we should visit with them to find out why.
    Mr. Price. And I hope you will. You have a letter from the 
State Air Quality Division about this and again, we are 
committed to meeting these standards. But it is not self-
evident to me, anyway, why the time frame for the transport 
issue and for the local meeting of the standard should be out 
of sync, why the transport issue should have to be rushed in 
this fashion.
    And is it not true that your proposed rule does do that? 
Does require the States involved in these transport problems, 
to go ahead and address the eight-hour standard an accelerated 
basis?
    Ms. Browner. In the proposed SIP call we did speak to both 
the one-hour and the eight-hour because that is where you will 
get the cost-effective common-sense pollution reductions.
    Mr. Price. Yes, you will, if you can meet both standards at 
one and the same time with one and the same measures. If, on 
the other hand, there are problems, if there is a difference in 
what the States are going to have to do to address the second 
more demanding standard, then you are not going to realize that 
efficiency.
    Ms. Browner. There is no change in the schedule for local 
measures under the eight-hour standard.
    Mr. Price. I understand that, but there is a change with 
respect to the transport problem, is that not true?
    Mr. Lewis. Excuse me, Mr. Price, you may want to have Mr. 
Wilson sit down and answer himself, you know?
    Ms. Browner. Maybe the easier way to describe this is that 
based on the modeling done through OTAG, we believe that it is 
the same set of actions that get taken for the one-hour and for 
the eight-hour.
    Mr. Price. In every case?
    Ms. Browner. In terms of the transport issue. Now, 
obviously, you have other local decisions that you will make.
    Mr. Price. That is not the issue though. The issue is 
transport. And how can we assume that, that that is----
    Ms. Browner. You do not have to meet the one hour transport 
issue, and we all agree on that, right?
    Mr. Price. Yes, but the eight-hour standard has been 
tightened, in most respects for very good reasons. How could 
you assume that the same actions in every case would address--
--
    Ms. Browner. Because the modeling shows that if you focus 
on certain types of emissions, which is what the States have 
been discussing on a regional basis, the same actions get you 
the one-hour standard and the eight-hour standard. I know this 
is complicated but that is what the modeling and the pollution 
data show us.
    We are taking comment on all of this based on the OTAG 
process and the States' recommendation to EPA in terms of the 
range of reductions that would be required to meet the one-hour 
standard.
    Mr. Price. Hmm-hmm.
    Ms. Browner. You get the eight-hour standard. So, it is the 
same set of actions that get you the one-hour and the eight-
hour standard.
    Mr. Price. Well, of course, we hope that is the case. But 
what I am raising this morning is the question of if that is 
not the case or if there is some doubt about that, then is the 
State going to have sufficient time, to meet the standard in an 
orderly fashion? That is the issue.
    And I appreciate your willingness to work with the State in 
trying to implement this effectively.
    Ms. Browner. Thank you.
    Mr. Price. Mr. Chairman, do I have time for one further 
question.
    Mr. Lewis. Certainly.

             effluent guidelines: textile services industry

    Mr. Price. This will be brief, but I do want to raise it 
because this involves some small businesses in my area and, 
again, a clarification of some of your rulemaking in the 
process that you are following.
    This involves the textile services industry. I am sure you 
have heard about this from other members. I know the 
Environmental Protection Agency has proposed a rule regarding 
effluent guidelines for industrial laundry wastewater 
discharged to publicly-owned treatment works, the so-called 
POTWs.
    This proposed rule will apparently require industrial 
laundries treating certain types of textiles to employ a 
chemical precipitation treatment technology to pre-treat 
wastewater before it is discharged to these POTWs.
    Now, some constituents of mine who operate such laundries 
are concerned about this. They have reported to me that the 
proposed rule underestimates the costs that they would have to 
bear.
    As I understand it, these facilities already pre-treat 
their wastewater. But the proposed rule would require pre-
treatment with a specific type of technology. According to the 
Uniform and Textile Association, the average cost per facility 
under the proposed rule would be approximately $250,000 
compared to a much lower cost estimate from your agency, an 
estimate of $84,000, I believe.
    First, can you tell me if my facts are correct, as to what 
you are undertaking; and, talk about the process that you 
undertook for determining the cost of this proposed regulation 
to industrial laundry facilities? What was the process for 
determining the appropriate wastewater pre-treatment 
technology.
    Is there some reason to require this particular technology? 
And if so, how have you determined that?
    Ms. Browner. First of all, it is a proposed rule. No final 
decision has been made. In fact we have extended the comment 
period so we could hear from more parties who had raised 
questions and wanted to share information.
    The general way in which these kinds of rules work is that 
we look at available technologies. What is available to achieve 
the level of reduction that everyone thinks is important? It is 
important to understand that if you do not get the reductions 
from these facilities, then you pass it on to the wastewater 
treatment facility and many other businesses make reductions 
before passing on their wastewater.
    So, we look at the available technologies. It is not a 
technology-specific standard, however, that is adopted, it is a 
performance-based standard. So, you take the amount of 
reductions the technology could get you and that is what people 
are then required to meet when the rule is promulgated.
    Mr. Price. You are certain of that, that it is not a 
technology-based standard.
    Ms. Browner. You use the available technologies to 
understand what level of reductions could be achieved. But no 
one is required to buy widget A, they are required to meet 
pollution reduction X.
    Mr. Price. Well, this is getting at the heart of the matter 
I think. These POTWs, do they not currently have authority 
under the Clean Air Act to require the pre-treatment of 
wastewater from industrial laundries and other sources? And 
have they made use of this authority?
    Ms. Browner. In some instances, yes.
    Mr. Price. In most instances?
    Ms. Browner. We can get you the answer to that.
    [The information follows:]

                     POTW: Pre-Treatment Authority

    The Clean Water Act does not explicitly confer authority to 
POTWs to require pretreatment of wastewater from industrial 
sources; however, over 1,500 POTWs (of 15,000) have approved 
local pretreatment programs based upon state and local 
authorities.
    Implementation of these authorities are not consistent, 
either in terms of the number of pollutants regulated or the 
method for developing limitations to apply to the industrial 
sources. In addition, sources not covered by existing national 
(sometimes called categorical) pretreatment standards are not 
always controlled.
    In the case of the industrial laundries, we estimate that 
incorporation of national pretreatment standards will result in 
the removal of 5 million pounds of toxic and nonconventional 
pollutants from POTW discharges to our nation's rivers and 
streams.
    Discussions with representatives of industry and local 
governments have conveyed a wide range of opinions relative to 
the need for nationally consistent regulation of this industry. 
Some have claimed that no national pretreatment standard is 
necessary due to existing controls by POTWs.
    Others have expressed concern that the lack of consistency 
between POTWs has economic repercussions that affect the citing 
of new facilities and the profitability of existing ones.

    Mr. Price. Well, of course, what I am getting at is whether 
these efforts have been adequate; and, if not, why not? Are 
they not making use of their authority; are they requiring too 
little action; are they requiring the wrong technology? What is 
wrong with what the POTWs are currently undertaking with these 
facilities that supposedly necessitates a new rule?
    Ms. Browner. Generally the POTWs do look to EPA for these 
kinds of rules. In this particular instance, do we have a rule 
on the book that we are changing? This is a new one. Maybe Bob 
Perciasepe can explain the process we are in right now.
    Mr. Price. That brings up the question, have the POTWs 
requested this type of regulation?
    Mr. Perciasepe. My name is Bob Perciasepe and I am the 
Assistant Administrator for Water. This is a technology-based 
proposal as the Administrator explained, but then it is 
performance-based in its implementation. And they can use any 
method that they want----
    Mr. Price. I am sorry. If it is performance-based, then I 
thought that was----
    Mr. Perciasepe. You look at what the best available 
technologies are out there and how they perform. We set a 
standard and then there are usually other ways to do it and 
most businesses and industries find other ways to do it.
    In terms of the POTWs, we look at the pass-through, whether 
the pollutants are passing through the POTW. And we also look 
at whether or not it can have any effect on the POTW's 
operation and effectiveness.
    Most of those publicly-owned treatment works have 
complicated biological activity going on in there to reduce the 
normal commercial and residential wastewaters. Sometimes 
organic chemicals that come out of things like industrial 
laundries, when they are washing grease and other contaminants 
out of uniforms and things of that nature, can go down into the 
sewer system and disrupt the biological activity of the plant 
and reduce its effectiveness.
    Most plants have been dealing with that issue. Some of 
those things can volatize out of the sewer systems into the 
atmosphere as they are on their way to the sewage treatment 
plant.
    So, we look at all of that and we try to help the sewage 
treatment plants by providing technology standards for them to 
use and all the background technical information for them to 
use in their pre-treatment program.
    We have had a lot of dialogue with the industrial 
laundries. Clearly, they have concerns about the way we went 
about in this proposal looking at the best available 
technologies.
    I have personally met with them and we have expanded the 
comment period to get some more information from them. We will 
sit down with them and try to reconcile whatever differences we 
have on the performance of different types of technologies.
    Mr. Price. Well, if we are talking here about bottom line 
performance, that seems to make sense to me. If we need to 
impose stricter requirements, let us do so.
    But why not leave it to the POTWs to decide what technology 
achieves that purpose and where and what kind of pre-treatment 
is appropriate and so forth.
    I guess my puzzlement has to do with the degree to which 
the POTWs are now doing the job and where they are falling down 
on the job and what it is that makes this new rule necessary.
    Mr. Perciasepe. It is a combination of atmospheric releases 
that might occur or are also passed through where the 
pollutants pass through. They have no effect on the POTW, they 
just pass through the POTW and go out into the environment.
    Those are the things that we look at, along with providing 
the technical information to the POTWs who are running pre-
treatment programs for us. You know, POTWs can also use 
credits.
    If the treatment plant does remove materials from different 
discharges to the sewage system, they can develop reduction 
credits that they can use in their pre-treatment program.
    So, they have a lot of flexibility on how they would 
implement it and it is very much performance-based as the 
Administrator was saying.
    Mr. Price. Well, I think that is what these companies are 
looking for and if the extended comment period is designed to 
get a rule in place that offers that sort of flexibility and, 
obviously, some ability to adopt the most cost-effective 
methods that is all to the good.
    Mr. Perciasepe. We specifically did it in concert with the 
businesses to get us more time to work some of these 
performance issues out.
    Ms. Browner. It will be a performance-based standard and 
they would not be required to use a particular technology. What 
technology they used would be up to them.
    Mr. Perciasepe. Right. We just have to make sure that there 
is some technology out there that will do it.
    Ms. Browner. And many of them will use the technologies 
that we test. I want to be clear about that.
    But there will be some who will say, we have our own 
engineers and we are going to change this or that, we are going 
to do it a different way, and, as long as they meet it, they 
are fine.
    It is not our business to worry about which technology.
    Mr. Price. The comment period has been extended to what 
date?
    Mr. Perciasepe. April 17th.
    Mr. Price. April 17th. All right, thank you.
    Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Price, it sounded as though you have people 
from the industry who are pretty well informed. I would urge 
you to facilitate a means whereby they can communicate with the 
principals here to make sure that those questions are being 
asked in a way that makes sense to them as well as to you.
    Mr. Price. I have done that.
    Mr. Lewis. Well, I thought it was good that we get it on 
the record.
    Mr. Price. Good idea, yes.
    Mr. Lewis. For this round, I think our last questioner is 
my friend and ranking member, Lewis Stokes.

                 national institute for the environment

    Mr. Stokes. Thank you very much, Mr. Chairman.
    Madam Administrator, I apologize for not being able to be 
here earlier this morning. I serve on two subcommittees on 
appropriations and both of them frequently meet simultaneously 
and that requires my presence in both places at the same time.
    Let me start with a question that I think you will be 
familiar with. As you know, during the last few years there has 
been a determined effort by some members of the environmental 
community to have the Congress establish a national institute 
for the environment. This is an issue that continues to be 
brought before the VA, HUD Appropriations Subcommittee which 
funds Environmental Protection Agency.
    And I have just left a hearing across the hall where the 
principal witness is Dr. Ken Olden, the Director of the 
National Institute for Environmental Health Sciences. And I 
posed the same question to him.
    He, of course, is very much aware of the push along these 
lines. And he seemed to indicate that there is a need for 
science but there is also a need for some institute or some 
agency to look at ecological issues.
    But I think the thrust of his answer was that he felt that 
while since we have in place the National Institute of 
Environmental Health Sciences, that the issue of ecological 
issues would probably fall within the category of both the EPA 
and the Health and Human Services Agency. He sort of left it 
there in terms of whether those two agencies feel that they can 
fulfill the need with reference to these other issues.
    I was just asking if, in your professional judgment, you 
can comment on that issue?
    Ms. Browner. This has been a point of discussion for many 
years now, as you said. I think there were several reasons why 
this proposal originally arose, and I know this from people 
engaged in the discussions at the time. I was not a party to 
them. I was not in this position.
    But I think it was both the ecological research question 
that you just posed and also the sense in the academic 
community that they had no source of funding for research on 
environmental issues, that was really analogous to the funding 
that exists for the biomedical community.
    Since I came to EPA, we have worked hard to address both of 
those. One, we have worked to broaden our ecological research; 
and, two, through programs which this committee has supported, 
such as the STAR program, we have worked to engage with the 
scientific community outside of the agency.
    At this point in time, I do not know what benefit there 
would be to creating another government agency. One of the 
challenges all scientific research faces within the government 
is funding. And with this institute you would just have another 
plate at the table. And it would be, I presume, not increasing 
total funding but rather dividing it up that much more with 
overhead and costs.
    We are building a state-of-the-art facility in RTP. We are 
doing the very things that we need to do to maintain a cutting 
edge science program. At this point in time, we would not 
support the creation of an additional entity.
    I don't think you're going to achieve anything. If there's 
more money, we would be more than happy to discuss additional 
funding.

                 environmental justice: budget request

    Mr. Stokes. I appreciate your professional judgment on it. 
Since the issue continues to crop up, I think that we need to 
ask those of you who are in a position to help us think this 
thing through to comment on it.
    My other question has to do with the President's budget 
summary where he makes reference to the fact that the 1999 
President's budget requests $7.9 million in 46 work-years to 
support environmental justice. In 1999 the Agency will work to 
ensure that minority, low-income and Native American 
communities will be able to meaningfully participate in 
environmental decision-making and protect themselves from undue 
risk.
    Now, I agree fully that this is certainly a very important 
issue and I would like for you to comment upon precisely what 
is being done in this area and also whether or not the 
appropriation of $7.9 million is enough at this time for what 
you are doing or whether we ought to be thinking about 
something in addition to it.
    Ms. Browner. The $7.9 million is for Environmental Justice 
Activities within our ``Right-to-know'' goal. This budget funds 
the Office of Environmental Justice at $6 million. If you look 
across the Agency there are additional activities in this area 
beyond the work of the office, and the total funding across the 
Agency is on the order of $23 million. For example, you would 
have work going on in Superfund. You would have work going on 
in Brownfields, water, air, and in the regions.
    So the $7.9 million is for resources within one of the 
Agency's goals. I think this is a significant commitment to the 
office, but you have to add to that the other activities.
    The work continues to fall into several categories, perhaps 
most importantly and most promising is our efforts to better 
engage communities who experience the consequences of 
decisions, whether it be the clean-up, the citing of a 
facility.
    These are not easy issues, as you are well aware, and there 
have been an increasing number of efforts to use, for example, 
Title VI to raise questions on behalf of some of these 
communities about particular facilities. So our work also 
focuses in that area. We have a number of these cases or 
petitions pending, which we are in the process of reviewing.
    We have an advisory council, a FACA, that is helping us 
understand how best to integrate the concerns of the 
environmental justice representatives and communities into the 
day-to-day work of the agency.
    Mr. Stokes. Thank you very much.
    Mr. Chairman, because I have to get back to this other 
subcommittee, I would like to just submit some additional 
questions for the record.
    Mr. Lewis. That would be fine, Mr. Stokes.
    Mr. Stokes. Thank you very much.

                      global climate change budget

    Mr. Lewis. Thank you.
    Ms. Browner, I have both a commentary and a series of 
questions relative to your budget that relate to world climate 
change and the Kyoto accords. I don't want to take the time of 
the Committee at this point to spend a lot of time on that 
subject, for we have touched on it in any number of ways, but 
let me say that while I know you suggest rather strongly that 
your world climate budget is not related to the Kyoto accords, 
it is difficult for me to imagine the dollars being suggested 
here, the increases particularly, that there wasn't some 
consideration.
    Clearly past positions on the part of the Senate relative 
to such an accord, what they talk about as it relates to our 
economy, et cetera, it is hard to imagine that you would not 
have seriously been aware of Byrd-Hagel and other interests of 
the Senate as you look at this budget.
    In view of all of that I am asking myself here, questions 
like why wouldn't you be shifting your priorities to other 
questions, like PM standards and the big debate we have there, 
I just don't see that piece of the budget going forward in view 
of where the Senate has been. We have touched on it in many 
ways here. I don't think we need to develop it further but I 
would appreciate your responding not only to my questions but 
maybe we can talk about it in more depth in another venue. It 
is an important item.
    I want you to know that I have spent a lot of time in a 
former life in some of these developing countries and there is 
not any question that if we really care about world climate 
circumstances, that we have to have an interaction there that 
is real. So I am just really chewing on it and wondering about 
your budget as it relates to that.

                      enforcement: number of cases

    I would like to move then to another subject area entirely. 
In December of 1997 EPA issued a press release announcing that 
it had referred the largest number of civil and criminal 
enforcement cases in its history to the U.S. Department of 
Justice and had assessed the largest total amount of civil and 
criminal penalties in any one-year period in history.
    More specifically, 278 criminal cases were referred and 
$179.3 million in fines were assessed in fiscal year 1997, both 
records for the criminal enforcement program. EPA also referred 
another 426 civil cases, the second highest one-year total in 
history, and assessed $95.1 million in civil penalties. The 
combined 704 referrals and $264.5 million in fines and 
penalties were both the highest in the Agency's history.
    I know that your enforcement people had a very busy 1997 
and I sincerely want to congratulate them for their efforts and 
their accomplishments. According to your press communication--
    Ms. Browner. This is annual. We do this once a year. We 
give out the numbers so everyone can see them.
    Mr. Lewis. As a result of EPA enforcement, ``polluters 
spent a total of $1.98 billion to correct the violations and 
take additional steps to protect the environment and to clean 
up Superfund sites. According to the data, PCB pollution was 
reduced by 576.5 million pounds, volatile organic compound 
pollution by 62.5 million pounds, particulate matter pollution 
by 24.5 million pounds, lead pollution by 10.2 million pounds, 
benzine pollution by 7.6 million pounds and asbestos pollution 
by 1 million pounds, among others. The agency also reduced CFCs 
by more than 427,000 pounds.''
    Ms. Browner, are these reduction statistics just related to 
the civil and criminal cases mentioned at the outset or are 
they relative to all the enforcement efforts throughout the 
fiscal year?
    Ms. Browner. They are relative to all of the actions 
throughout the year. I guess maybe I don't understand your 
question. You want to know if--this is the total pollution 
reductions when you add up----
    Mr. Lewis. Not everything that you do results in a civil--
--
    Ms. Browner. I am not understanding something. I apologize. 
Can you ask the question again so I can understand it? I am 
sorry.
    Mr. Lewis. All right. Are all of these listed statistics 
just related to civil and criminal cases mentioned at the 
outset?
    Ms. Browner. Yes. That is what I didn't understand. Yes.
    This is Steve Herman, the Assistant Administrator for the 
Office of Enforcement and Compliance Assurance.
    Mr. Herman. The figures that you read are some of the 
environmental impacts of the enforcement cases, given the 
pollutants that were reduced, one of the reforms that we 
instituted to try and expand understanding of what we get done 
in the enforcement actions. So it is not just the action; we 
are trying to show also the impact on the environment.
    Mr. Lewis. Okay. Then moving on, many people have a notion 
that an EPA enforcement action always constitutes a serious 
citation issued by a tough environmental enforcer type. In 
fact, the enforcement actions are often nothing more than a 
surprise or even a planned inspection or visit.
    In the context of your communication with the media 
regarding these reduction statistics, what type of enforcement 
actions are we talking about here?
    Ms. Browner. We have a number of enforcement tools that are 
available to us. Some of them can be used as the product of an 
on-site visit where a violation is found and corrections are 
taken, all the way up to very large cases that we have been 
involved with--for example, the case with GM where you had a 
defeat device being installed a small stick being installed so 
that when climate control was turned on in Cadillacs----
    Mr. Lewis. I was wondering if any of this statistical 
information that was developed here is as a result that is 
being done by local law enforcement or state agencies.
    Ms. Browner. Where we cooperate with others, right.
    Mr. Herman. Mr. Chairman, some of these cases involve joint 
action with U.S. attorneys and also with some state agencies, 
but they are primarily federal actions. One of the large ones 
in here involved an action in your state involving Diablo 
Canyon and I think that was highlighted.
    Mr. Lewis. I guess what I am thinking out loud is that the 
implication is that these reductions are all a result of 
enforcement action.
    Mr. Herman. These are all a result of enforcement actions 
and they are all a result of enforcement actions either 
administrative, civil judicial or criminal judicial, taken by 
the Federal government, some in cooperation with states but 
this does not include all of the state figures. These are the 
Federal enforcement----
    Ms. Browner. Where a state took an independent action or--
--
    Mr. Lewis. So it is not the result of some program that is 
in place by a self-auditing private sector entity or otherwise?
    Ms. Browner. No.
    Mr. Herman. These are not, Mr. Chairman, although--
    Ms. Browner. We did report on self-audits, also, as part of 
this.
    Mr. Lewis. She just answered your comment.
    Ms. Browner. Because I think that is a valid point, but it 
is not in the numbers.
    Mr. Herman. She was right.
    Ms. Browner. I paid him to say that.

                    chemical accident investigations

    Mr. Lewis. Indeed. I have some detailed questions there and 
if you would respond for the record, I would appreciate it.
    I would now like to take a few moments to discuss what 
appears to be a little confusion regarding jurisdictional 
issues and chemical accident investigations. Are you aware that 
the Congress, in fiscal year 1998, funded for the first time 
the United States Chemical Safety and Hazard Investigation 
Board?
    Ms. Browner. Yes. I just met with the chairman, Paul Hill.
    Mr. Lewis. The authority for this independent nonregulatory 
board is found in Section 112 of the Clean Air Act. It is clear 
in the statute that the board has primary if not sole 
responsibility to investigate and report on in a nonregulatory 
fashion the root cause of accidents that result in releases in 
the environment. Section 112 states that the Board shall 
investigate or cause to be investigated, determine and report 
to the public in writing the facts, conditions and 
circumstances and the cause or probable cause of any accidental 
release resulting in a fatality, serious injury, substantial 
property damages.
    The statute goes on to give the Board authority to utilize 
the expertise and experience of other agencies and even states, 
in part, that the Administrator shall provide to the Board such 
support and facilities as may be necessary for the operation of 
the board.
    Ms. Browner, the primary reason I am bringing this matter 
to all of our attention is because the Subcommittee continues 
to receive numerous calls from other Federal agencies, as well 
as from the industry, questioning whether your people are in 
charge of root cause investigation or the Board is in charge of 
root cause investigation. They are apparently confused because 
of what they hear from EPA people.
    I am well aware that EPA has statutory responsibilities to 
investigate all sorts of things and I am not suggesting, at 
least in this forum, that those be diminished or altered, but I 
believe the law is abundantly clear that the Board is 
responsible for the root cause investigations of releases, and 
I would greatly appreciate it if you would likewise make that 
abundantly clear to your people.
    Ms. Browner. Certainly, as you can appreciate, Mr. 
Chairman, we are engaged in a dialogue with OSHA, OMB, and the 
Board, as to how to proceed. On the face of it, that is a very 
easy explanation, but we are working through what may 
ultimately end in an MOU. There had been an MOU but the Board 
was not in place. They are getting in place. They are hiring 
up. They are hiring some of our people, which we think is good. 
Then we need to really have a detailed understanding between 
all of the parties of what it is they will do, when they will 
be out doing the investigation, and what we will do. Any 
guidance people want to provide as to the specifics of that is 
helpful.

            rural water technical assistance: budget request

    Mr. Lewis. Ms. Browner, I am sure that you are not 
surprised that EPA's elimination of funding for Rural Water 
Technical Assistance in the 1998 budget request causes many of 
us in Congress no small amount of concern. I obviously 
recognize the game we often play whereby you eliminate a 
program knowing full well that we will likely put it back in; 
meanwhile, you place your resources on other priorities, so we 
stay within budget allocations and it is kind of a song and 
dance.
    Because of the effectiveness and efficiency of the rural 
water program, because of the priority you have placed on small 
water system compliance, and particularly because of the 
additional burdens placed on small systems by the Safe Drinking 
Water Act of 1996, I can only conclude that your budget 
request, in fact, reflects that same song and dance or, if you 
will, the game that is played.
    Ms. Browner. With all due respect, no. It is fair to say 
that historically the Administration did not ask for this and 
Congress put it in. Last year the Administration did ask for it 
and this year we do not ask for it.
    The reason we did not ask for the full amount is because 
the states now have the authority to fund rural community 
training and technical assistance from the 2 percent set-aside 
in the Drinking Water Revolving Fund. So we think they have the 
money.
    Mr. Lewis. What evidence do you have that the states will 
provide the funding?
    Ms. Browner. How many state plans do we have now?
    Mr. Perciasepe. Twenty-one states have already asked for 
it, $8.5 million.
    Ms. Browner. Right. So it is happening. I don't think that 
the end recipients are experiencing a decrease in funding.
    Mr. Lewis. Okay. Let me follow up, then. Isn't it a fact 
that the Safe Drinking Water Act contemplates that both this 
nationally funded technical assistance program and the states, 
through the set-aside or otherwise, will fund this activity 
simply because of the increased burden imposed on small systems 
by the act? Isn't that kind of assumed?
    Ms. Browner. That was the point that Congress had and the 
Administration had in drafting that provision and we have now 
been working with the states.
    We all recognize that these rural systems need financial 
support, so we have a reliable funding mechanism for them and 
the states are using it. They are out there using the money 
that this committee appropriates in the Drinking Water SRF and 
setting aside a chunk for the rural communities. That is why we 
did it, because we think the money is there.
    Mr. Lewis. They would argue that there is a significant 
shift of burden, not burden-sharing but burden to them. They 
would say the point of the law was to make sure that there is 
very significant federal not just support but burden-sharing.
    Ms. Browner. And that is what the set-aside allows them to 
do. The fact that it works on a percentage state by state 
should allow for the states to best speak to the number of 
rural communities they have and any additional requirements, as 
opposed to the historical way, which is a sum of money that has 
gone to, four or five organizations. It has not in every 
instance gone down to the rural community, which is what the 
state set-aside that you all provided for in the Drinking Water 
Act will allow them to do.

                  water system operator certification

    Mr. Lewis. It would appear that there is some considerable 
disconnect here relative to what they think is available, the 
way those funds can be used, and whether or not it will 
accomplish the objective here. I think it is really important 
that your people help you better evaluate whether or not this 
is going to happen, rather than what on the surface appears to 
be people giving lip service to the thought that it might 
happen.
    Let's see. Section 123 of the Safe Drinking Water Act 
included new EPA guidelines for minimum standards for operator 
certification, water system operators for over 50,000 small 
water systems. The act also authorized $30,000 in funding for 
small towns in order to help them comply with the new federal 
requirements under Section 123(d)(i).
    EPA's fiscal year 1999 request includes $31,798,000 for 
capacity development and operator certification. Is this 
funding to be used for grants to local governments to comply 
with the planned new operator requirements? And if not, where 
do you plan to spend the funds?
    Ms. Browner. If I could ask Bob Perciasepe to explain that.
    Mr. Perciasepe. Mr. Chairman, did you say $30 million?
    Mr. Lewis. I said $31,798,800.
    Mr. Perciasepe. Is in our budget?
    Mr. Lewis. Yes, 1999 request includes $31,798,800 for 
capacity development.
    Mr. Perciasepe. Again the technical assistance set-aside 
that the Administrator mentioned earlier is set up to provide 
the states with the flexibility to both work with the rural 
water associations, the other associations and themselves to 
set up a technical assistance process at each state. If you 
take the billion dollars that is in the SRF and you look at the 
trend that we have seen from the 21 states that are already in, 
we are going to push about $20 million in addition out there 
that the states will be having for doing technical assistance.
    We also have to come up with the guidelines so that when 
grants through the SRF are awarded to small communities, that 
the states have guidelines to use to determine whether or not 
those are sound investments of Federal funds. It is not a 
mandatory approach on how the states would evaluate that.
    So yes, some of the $30 million would end up going toward 
the states in terms of their----
    Mr. Lewis. I guess my question really----
    Mr. Perciasepe. We can answer the details for the record on 
how that works.
    Mr. Lewis. I would like to know as much as you can right 
now. Is this funding to be used for grants to local government 
to comply with planned new operation requirements? If not, if 
not all of the $31,798,800, how and where do you plan to use 
the money otherwise?
    Mr. Perciasepe. I am sorry that I do not know--I could 
probably figure this out before I leave here--what the 
breakdown of that $31 million is.
    Mr. Lewis. Well, if it is a significant piece of the $30 
million that would go to something else, then do sit down and 
figure it out and let me know before we leave here, okay?
    Mr. Perciasepe. Okay, can do.
    Mr. Lewis. Good.
    [The information follows:]


[Page 229--The official Committee record contains additional material here.]



    Mr. DeLay, you have been around for a while. I am going to 
get to Mr. Frelinghuysen in a while, too, and we have to get 
moving on. We are going to call on you first.

         clean water: ``fishable'' and ``swimmable'' waterways

    Mr. DeLay. Thank you. I just have maybe five or ten 
minutes, Mr. Chairman, to finish up my questions.
    I want to move to clean water. I do understand that our 
rivers and lakes, in certain cases, do have problems that we 
need to address. What I do not understand is your clean water 
action plan, and particularly some of the data that you state 
in that plan.
    On February 19 of this year the President announced the 
Administration's Clean Water Action Plan and the goal of that 
plan is fishable and swimmable waters, in his words, for all 
Americans. How does the Agency define fishable and swimmable?
    Ms. Browner. That is actually the goal of the Clean Water 
Act that the President was referencing. It has been the goal 
for 25 years. It is in the original Clean Water Act and there 
is a whole analysis that is done by states to evaluate their 
surface waters to determine whether or not they meet a set of 
standards that have been set, and the result is the fishable 
and swimmable designation. We would be more than happy to 
provide that list to you.
    Perhaps the easiest way, is to reference to the statute. 
Section 101 of the Clean Water Act sets out the definition.
    Mr. DeLay. Okay. Well, in order to achieve the goal of 
fishable and swimmable, the Administration is proposing in your 
budget $568 million in new spending.
    Ms. Browner. Not in EPA's budget. That is an 
Administration-wide proposal. The EPA portion of that is $145 
million, of which $120 million would go to the states.
    Mr. DeLay. But it is total government.
    Ms. Browner. That is correct.
    Mr. DeLay. And your Administration wants $568 million, 
which is a 35 percent increase over what you are presently 
spending, the way we calculate it.
    Now, the supposed reason for this federal largesse is that 
the President stated, and I quote, in his address, ``Forty 
percent of our nation's waters are still too polluted for 
fishing and swimming. That is unacceptable.''
    Is the President's statement correct?
    Ms. Browner. Yes.
    Mr. DeLay. Well, what is the source of the data for his 40 
percent?

                       clean water: 305(b) report

    Ms. Browner. A lot of it comes from the states. The states 
actually make determinations. They provide those determinations 
to us.
    Mr. DeLay. Well, wouldn't that be the 305(b) report?
    Ms. Browner. That is one source of information. There are 
other sources of information.
    The 305(b) report does not cover every surface water, every 
river and lake. I think there is another reporting system under 
303(d).
    Mr. DeLay. Neither do the assessments by the states cover 
every lake or every water.
    Ms. Browner. Correct. We agree.
    Mr. DeLay. Then how do you explain the discrepancy with the 
1996 EPA publication ``Environmental Indicators of Water 
Quality,'' which shows 95 percent of the rivers are fishable? 
The figures just don't match. Who is telling the President what 
to say when he makes these kinds of statements? Do you believe 
that 305(b) data overstates the problem?
    Ms. Browner. 305(b) data overstates the problem or 
understates the problem?
    Mr. DeLay. Who told the President of the United States that 
40 percent of our rivers and streams are unfishable and 
unswimmable?
    Ms. Browner. Still do not meet fishable and swimmable 
standards? I am sure it was a combination of EPA, our Water 
Office, the reports we get from the states, our own analysis 
and the Council on Environmental Quality.
    Mr. DeLay. So you stand by that figure?
    Ms. Browner. Yes.
    Mr. Lewis. And those 2,500 scientists.
    Ms. Browner. Well, they do climate change----
    Mr. DeLay. The gynecologists and others in that 2,500, and 
Chinese medicine.
    Ms. Browner. No, we use no Chinese medicine. I promise.
    Mr. DeLay. The point is that when you have these two 
reports, one report says 95 percent of the water is fishable 
and yet the President of the United States and in your own 
testimony you are saying 40 percent of the waters are not.
    Ms. Browner. We would be more than happy to provide you for 
the record the various databases that are relied on in reaching 
that conclusion.
    Mr. DeLay. How do you explain that kind of discrepancy?
    Ms. Browner. As I said, we will be more than happy to 
provide you for the record all of the various analyses and 
studies that are relied on.
    [The information follows:]

    Data on Lakes and Rivers That Are Not ``Fishable or Swimmable''

    The 305(b) Report is the primary vehicle EPA uses to inform 
Congress and the public about water quality conditions in the 
United States. The Report is based on data submitted by States, 
Tribes, and other jurisdictions that evaluate whether water 
bodies are clean enough to support basic, or ``designated,'' 
uses such as swimming, drinking, and fishing. The uses are 
based on each jurisdiction's water quality standards that are 
used to protect their waters. Different jurisdictions utilize 
different designated uses.
    A primary conclusion of the Report is that about 40% of the 
Nation's surveyed rivers, lakes, and estuaries are too polluted 
for These basic, designated uses. It should be noted that in 
compiling this data, the jurisdictions have surveyed only a 
portion of the water bodies within their boundaries--17% of 
river miles, 42% of lake acres, and 78% of estuarine waters. Of 
this universe of water bodies, approximately 40% of the 
surveyed rivers, lakes, and streams do not meet one or more of 
their designated uses, meaning they only partially support the 
use or they do not support the use. These uses include support 
of aquatic life, fish consumption, drinking water supply, 
agriculture, primary water contact (such as swimming), and 
secondary water contact (such as boating).
    While the overall analysis of state assessments across 
water body types and across designated uses shows approximately 
40% impairment of designated uses, statistics for individual 
water body types and designated uses can and do vary widely. 
For example, the Report shows that 95% of the rivers support 
the fish consumption designated use. This figure is based on 
data showing that 94% of the surveyed rivers and streams fully 
support fish consumption and an additional 1% of the surveyed 
waters fully support fish consumption but the waters are 
potentially threatened for this use. This 95% figure is in line 
with the information contained in the 1996 publication, 
``Environmental Indicators of Water Quality.''

    Mr. DeLay. Well, the analysis that we made, only a 
fraction, a small fraction of the rivers are assessed in the 
water quality inventory.
    Ms. Browner. We agree with that.
    Mr. DeLay. And those that are assessed represent the worst 
pollution problems because the states want the money.
    Ms. Browner. That may be accurate in some instances. It may 
not be completely accurate.
    Mr. DeLay. The report specifically states that the 305(b) 
data used might not represent certain conditions in the 
nation's water because the states and the tribes and all the 
other jurisdictions often focus on major perennial rivers and 
estuaries and public lakes with suspected pollution problems in 
order to direct the scarce resources to those areas.
    As an example, do you believe that there are no fishable 
rivers and streams in Washington State?
    Ms. Browner. We will be more than happy to provide you with 
it on a state by state basis. If you would like, on page 75 of 
the President's plan there is a summary list of the various 
reporting and analysis that is relied on in evaluating water 
quality in the country: 305(b), 303(d), Section 319, the 
drinking water watersheds. The list goes on and on.
    [The information follows:]


[Pages 233 - 234--The official Committee record contains additional material here.]



    Mr. DeLay. Well, based on that survey, you, in a letter to 
the Speaker----
    Mr. Lewis. Excuse me. Let me interrupt you.
    Mr. DeLay. I only have about two minutes.
    Mr. Lewis. But we only have about five minutes before we 
have to go vote and Mr. Frelinghuysen hasn't had a moment. That 
is my concern.
    Mr. DeLay. Let me just finish this. It will take me a 
minute.
    Mr. Lewis. Okay.
    Mr. DeLay. And I won't be argumentative.
    Ms. Browner. Nor will I.
    Mr. DeLay. But in your letter you yourself stated that 
based on surveys conducted by the states, about 40 percent of 
the nation's surveyed rivers, lakes and estuaries are too 
polluted for such basic uses as fishing and swimming.
    Ms. Browner. Yes, we stand by that statement.
    Mr. Lewis. Mr. Frelinghuysen.

             emission standards: large vehicles and trains

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    I continue to hear, Madam Administrator, from my 
constituents about emissions requirements imposed on vehicle 
owners. I would like to find out from you what emissions 
reductions standards are imposed on large trucks, buses and 
trains under the Clean Air Act and where we are in compliance.
    The public perception is that passenger cars are complying 
but these other vehicles, particularly diesel operations, are 
just going totally amuck. Could you comment on what we are 
doing?
    Ms. Browner. We have been working with various industry 
sectors on what we refer to as the large engines, the diesel 
engines. For example, we worked with the Chairman's state on 
large locomotive engines, and we just adopted a final set of 
standards for large locomotive engines. Those will be for the 
ones that obviously are constructed in the future.
    We also have an effort under way on diesel truck engines. 
We have a whole series of proposals.
    Mr. Frelinghuysen. Why are we waiting?
    Ms. Browner. We are not waiting. We are moving through the 
process. We are setting the standards. We are getting the 
requirements in place.
    And it is important to understand something. It is not as 
if there weren't requirements out there. We are building on top 
of a set of requirements. I assure you, you could check with 
the trucking industry and they would tell you we are requiring 
a lot of them.
    Mr. Frelinghuysen. The public view is obviously that they 
pay a price. Some states have a great obligation on the 
emissions, like my state does, but the public perception is 
that the most visible thing are buses and diesel vehicles.
    Ms. Browner. We also reached an agreement with the bus 
engine manufacturers.
    Mr. Frelinghuysen, two quick points here. One is I 
understand that public perception. I hear it all the time. It 
is not necessarily----
    Mr. Lewis. You are not alone.
    Ms. Browner. Right. And I understand why people have that 
feeling. We have a very aggressive program.
    Mr. Frelinghuysen. Even if they were to be pulled over----
    Ms. Browner. We have a very aggressive program focused on 
large engines.
    Number two, in looking at what states may be required to do 
state by state, additional steps they may be required to take 
for pollution reductions, the models factor in the agreements 
and the requirements placed on the large engine manufacturers. 
So you get the benefit within the models of the work we are 
doing nationally to develop cleaner engines.
    The final thing I would say, and your state was 
instrumental in this, beginning in August of this year, if you 
buy a new car it will be 70 percent cleaner. The tailpipe 
emissions will be 70 percent cleaner and the automobile 
manufacturers have said that that will be at a cost of less 
than $100 per car. So we are working across all fronts.

               total maximum daily load (tmdl) litigation

    Mr. Frelinghuysen. Good. I just wondered if you would give 
a very brief reaction to the article in the New York Times on 
Sunday, March 1, the headline being ``courts expanding effort 
to battle water pollution, new enforcement tactics; 
environmental groups suing by employing little-used provision 
in the 1972 law.''
    You are quoted in there as saying in an interview, and I 
hope this is accurate, that the new approach is becoming the 
cornerstone of how you deal with a polluted watershed, 
watershed by watershed, and it is the President's Clean Action 
Plan.
    I know the direction in which you are going but it isn't 
the Administration's plan to promote more litigation?
    Ms. Browner. That is not what I was saying.
    Mr. Frelinghuysen. I wondered if you would clear that up 
because quite honestly, I think the objectives are obviously 
something we need but you are not, in fact, encouraging more 
litigation.
    Ms. Browner. Absolutely not. We don't enjoy being sued. I 
don't enjoy being sued.
    But the point of the TMDL issue, the total maximum daily 
load, it is a way for communities and states, and I think there 
was a great amount of foresight when this was provided for in 
the law, to work on a watershed by watershed basis. This is 
really the forerunner of the watershed approach, which is now 
adopted in this plan. That is all I was saying.
    Mr. Frelinghuysen. I commend a lot of good things that are 
occurring in my state and more should occur. But in reality, 
the public perception from reading this article is that the way 
we are going to promote the environment is to engage in more 
litigation. And I would like to know for the record how much 
litigation you are actually involved in.
    Ms. Browner. This is not our litigation. We are being sued.
    Mr. Frelinghuysen. You are being sued. I would like to know 
for the record how many lawsuits----
    Ms. Browner. How many cases we have pending against us?
    Mr. Frelinghuysen. Yes. And I would like to know the 
monetary cost of some of that.
    Ms. Browner. The TMDL lawsuits, apparently we have about 24 
now pending against EPA.
    Just so you understand, what happens is the parties, 
frequently environmental groups, sue EPA to get us to get the 
states to do what the Clean Water Act required of them, and 
then we work closely with the states to come to an agreement on 
a schedule whereby they will undertake what the law required, 
which is really, as I said, watershed planning.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Lewis. Speaking of TMDL, we are getting very close 
here.
    Ms. Browner, we are drawing our hearing for this to a 
close, TMDL, as it were. The Committee, as Mr. Stokes expressed 
but others, as well, have a number of questions for the record 
we would appreciate your focussing on.
    As you may or may not know, I fly every other weekend to 
California by way of Dallas and Ontario Airport and there are a 
lot of problems that relate to airports that I am interested in 
specifically, so I am interested as it relates to toxic release 
inventory, duplicatory regulations that might be impacting that 
area of industry. And I hope that EPA is working very closely 
with appropriate agencies like FAA and so on.
    Ms. Browner. Yes, we are.
    Mr. Lewis. We have a number of other questions that cover 
the board here. We do appreciate these last two days together. 
I know that it has just been a delight for you and all of 
yours.
    Ms. Browner. It has been wonderful.
    Mr. Lewis. In the meantime, the Committee will stand 
adjourned until tomorrow morning at 8:30, March 12, where we 
will spend some time with Administrator Goldin and I am sure he 
will find that delightful, as well. Thank you.


[Pages 238 - 1067--The official Committee record contains additional material here.]














                               I N D E X

                              ----------                              
                                                                   Page
Administrator Browner's Opening Remarks..........................     3
African-American SES at EPA......................................   114
Air Quality Standards: Inhofe Amendment..........................    66
Animal Feed Lot Operations.......................................   128
Animal Feeding Operations: Regulatory Oversight..................    45
Animal Feeding Operations: Federal and State Roles...............    62
Bay City Supercomputer Move: Cost Savings........................    39
Bay City: Timeline, Cost Savings.................................    40
Brownfields......................................................   122
Brownfields......................................................   169
Brownfields: EPA/HUD Partnerships................................   171
Brownfields: PPAs................................................   137
Brownfields: Prospective Purchaser Agreements....................    65
Brownfields: Showcase Communities................................   183
Brownfields: Windwood Project....................................   211
Budget Summary Chart.............................................   110
CAFE Program.....................................................   126
Carbon Dioxide Emissions.........................................   168
Carbon Dioxide: Legal Authority to Regulate......................   201
Carbon Dioxide: Pre-Decisional Nature of Memo....................   198
Carbon Dioxide Emissions: Regulatory Authority...................   196
Carbon Dioxide Emissions: Internal Memo..........................   197
Center for Environmental Information and Statistics..............   167
Chairman's Opening Remarks.......................................     1
Chemical Accident Investigations.................................   225
Children's Health Centers........................................   169
Clean Water: ``Fishable'' and ``Swimmable'' Waterways............   230
Clean Water State Revolving Fund.................................    59
Clean Water: 305(b) Report.......................................   230
Clean Water Action Plan (CWAP)...................................    31
Coal Plant Use in the Midwest....................................   136
Construction Grants Close-Out....................................    24
Contaminated Sediment Reclamation/Reuse..........................   184
Critical Infrastructure Protection: President's Commission.......   116
CWAP: Grants to States...........................................    32
Danis-Clarko Landfill............................................    41
Data Management Funding..........................................   181
Data on Lakes and Rivers that are not ``Fishable or Swimmable''..   231
Deep Injection Wells.............................................   122
Dredged Material Reuse...........................................    61
Effluent Guidelines: Textile Services Industry...................   217
Electricity Industry Restructuring...............................   207
Emission Standards: Large Vehicles and Trains....................   235
Enforcement: Number of Cases.....................................   223
Enterprise for the Environment...................................    50
Environmental Justice: Budget Request............................   222
Environmental Monitoring for Public Access and Community Tracking 
  (EMPACT).......................................................    51
EPA 1999 Annual Plan.............................................   517
Everglades Restoration...........................................    38
Florida Alternative Water Sources................................    34
Food Quality Protection Act (FQPA)...............................   129
Food Quality Protection Act (FQPA)...............................    51
FQPA and SDWA Amendments: Bipartisan Support.....................    52
FQPA Implementation: Minor Use Pesticides........................   120
FQPA: Organophosphates and Carbonates............................   167
FQPA: Review Time................................................   134
FQPA: Review Process.............................................   135
Global Climate Change Budget.....................................   223
Global Warming...................................................    54
Goal-Based Budgeting.............................................    51
Grand Canyon Visibility Transportation Commission................   195
Hazardous Substance Research Centers.............................   185
Historically Black Colleges and Universities (HBCU) Participation 
  in STAR........................................................   113
IG Letter: Ten Management Problems...............................    10
IG Letter: EPA's Top Ten Management Problems.....................    12
Information Systems: Budget Request..............................   181
Information Systems: Security....................................    47
Information Systems: Public Information..........................   179
Information Systems: Security....................................    49
International Programs: Developing Countries.....................   208
Kyoto Treaty.....................................................    55
Kyoto Treaty Ratification........................................    59
Lead-Based Paint.................................................    53
Methyl Bromide...................................................   185
Methyl Bromide: Research on Alternatives.........................   185
Minority Business................................................   174
Minority Employment at EPA.......................................   174
National Institute for the Environment...........................   221
NO<INF>x</INF> Emissions: Petition by Northeastern States........   119
NO<INF>x</INF> Emissions Reduction: Alternative Proposal.........    41
NPS: Abandoned Mine Reclamation Fund.............................    33
NPS Grants: State Match..........................................    32
Nuclear Power....................................................   126
Onondage Lake: Municipal Compliance..............................   121
Open Source Information: Access to Data..........................   116
Opening Remarks by Mr. Stokes....................................     2
OTAG Process.....................................................    68
Ozone Pollution Dispersion.......................................    68
Ozone Standard: Implementation Schedule..........................   213
Ozone Transport Assessment Group (OTAG)..........................    67
Partnership for a New Generation of Vehicles.....................   126
Performance Partnership Agreements...............................   165
Pesticide Products Review........................................   131
Pfiesteria.......................................................   128
PM 2.5 Monitors..................................................   189
PM Monitors: State Cost Share....................................   165
PM Monitors: Class 1 Area Monitors in Place......................   190
PM Research Program..............................................   124
PM Research: Funding Breakout....................................   125
Post-Doctoral Research: Participation by African-Americans.......   113
POTW: Pre-Treatment Authority....................................   218
Priority-Setting.................................................    55
Prospective Purchase Agreements and Comfort Letters..............   139
Pulmonary Hemorrhage.............................................    30
Questions Submitted for the Record by Congressman Skeen..........   507
Questions Submitted for the Record by Congressman Lewis..........   238
Questions Submitted for the Record by Congressman Price..........   502
Questions Submitted for the Record by Congressman Delay..........   319
Questions Submitted for the Record by Congresswoman Meek.........   500
Questions Submitted for the Record by Congressman Knollenberg....   462
Questions Submitted for the Record by Congressman Hobson.........   457
Questions Submitted for the Record by Congressman Frelinghuysen..   465
Questions Submitted for the Record by Congressman Wicker.........  1043
Reclamation/Reuse Projects: Florida..............................    35
Regional Haze: Implementation Plan...............................   187
Reinventing Environmental Information Program....................   178
Reporting Requirements: Paperwork Burden.........................   176
Research Triangle Park (RTP) Construction Status.................    38
RMP Rule: OMB Guidance...........................................   117
RMP Rule: Data Management Alternatives...........................   118
Rural Water Technical Assistance: Budget Request.................   226
Salton Sea.......................................................   175
Sector Facility Indexing Program.................................   178
Sensitive Data: Other Federal Agencies...........................   118
SES Positions by Race............................................   175
SIP Process......................................................   109
SIP Requirements: Northeastern States Compliance.................    69
State by State Listing of ``Fishable or Swimmable'' Waters.......   233
State Revolving Funds............................................   182
Status of Ozone SIP Requirements.................................    71
Superfund: Cleanup Delays........................................    30
Superfund: Dollars Available.....................................    28
Superfund: Funds Spent for Cleanup...............................    64
Superfund: Funds Spent to Date...................................    63
Superfund: Impact of Failure to Reauthorize......................    28
Superfund: New Jersey Sites......................................    63
Superfund: Reauthorization.......................................    27
Superfund: Reauthorization.......................................    64
Technical Assistance Grants: $31 Million Breakout................   229
Total Maximum Daily Load (TMDL) Litigation.......................   236
Toxic Release Inventory (TRI) Program............................   178
Trust Funds......................................................   113
Visual Anti-Tampering Vehicle Emissions Test.....................    41
Wastewater: Class I Wells........................................   212
Water Programs at EPA............................................    38
Water System Operator Certification..............................   227
Written Testimony of Administrator Browner.......................     6
Year 2000 Computer System Compliance.............................    24

                            <all>
</pre></body></html>
